<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2012 

                              ----------                              


                         MONDAY, APRIL 11, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 4:05 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Brown, Hutchison, and Cochran.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. CHARLES F. BOLDEN, JR., ADMINISTRATOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. The Subcommittee on Commerce, Justice, 
Science, and Related Agencies will come to order today.
    We take the testimony of the current Administrator and 
former astronaut, the Honorable Major General Charles F. 
Bolden, Jr., to review the National Aeronautics and Space 
Administration (NASA) fiscal year 2012 budget request and to 
also talk about how this might be also in light of what we just 
have gone through.
    Administrator Bolden, we're glad to see you. We want to 
thank you for coming on a Monday at 4 o'clock. Our hearing 
normally occurs on Thursday mornings. We couldn't do this when 
we thought we could. But, Senator Kay Bailey Hutchison and I 
did not want to delay the hearing, because it would have taken 
us after the Easter/Passover recess, and we wanted to be able 
to really get cracking on our fiscal year 2012 appropriations. 
So, we thank you for doing this. And we look forward to your 
testimony.
    Well, I'm glad to see you and we're glad to be here. And 
so, both of us--all of us--were declared essential.
    I know that what we just lived through last week was a 
cliffhanger. It rattled many people. It certainly rattled us. 
We felt that it would have been a disaster, had we had a 
shutdown, to, really, the economy and the reputation of the 
United States of America. We have now been called upon to 
accept $78 billion worth of cuts from the President's 2011 
request, $39 billion below the 2010 level. That was the mark 
that was given us.
    Now, all of our staffs have worked through the night. And 
I'd like to thank Senator Hutchison's staff for really hanging 
in there and working with us.
    And I might add, Administrator Bolden, that Congressman 
Wolf and Congressman Fattah, we all worked pretty tirelessly to 
meet our obligation to be able to report out a bill--not only 
in this subcommittee--tonight at midnight. So, you'll hear 
about a lot of things. And we want to hear from you about where 
we think you are.
    We're very proud of NASA. This is the 50th anniversary of 
President Kennedy's call to send a person to the Moon and 
return them safely. From our human spaceflight and our visit to 
the Moon, our ambitions to even go further, we're so proud of 
what we've done in human spaceflight, and we look forward to 
supporting human spaceflight initiatives.
    When we look ahead, when we look at space science, the 
wonders of the Hubble Space Telescope, to others in the area of 
Earth science, planetary science, Helio science, protecting our 
power grid are all important.
    We know that what NASA does is part of really creating the 
new ideas for the innovation economy. Today, at a speech to the 
Maryland Space Roundtable, I said every time NASA lifts off, it 
takes the American economy with us, because it is about 
innovation and it is about jobs.
    Last year, the Congress gave NASA a new path forward. 
Ranking Member Hutchison and I worked with Senator Bill Nelson 
on a new authorization bill. And I'd like to compliment the 
gentlelady from Texas in what she and Chairman Nelson were able 
to achieve. We believe that is the framework that we could 
achieve. It meets the President's priorities, but understands 
the priorities of the space coalition here in the Senate for a 
very balanced space program.
    We need investments in science and aeronautics, but we also 
must remember, we want human spaceflight, we want human 
spaceflight to be sustainable, being able to go to the 
International Space Station (ISS) until 2020 and also 
broadening our human reach beyond low-Earth orbit (LEO) with 
the Orion capsule and a heavy-lift rocket. We have lots of 
ambitions, and now we're trying to see if we have the wallet to 
match it. I will work tirelessly to implement a balanced space 
program.
    Last year, we agreed to $19 billion. Well, it's not going 
to come out quite that way. And so, for this year, we're 
anticipating, in appropriations, if we stick to the President's 
request, $18.7 million. We know that the science request is at 
$5 billion. And we also need to make sure important projects 
like that don't get out from under us, like the James Webb 
Space Telescope (JWST). And I'll focus more on that in the 
questions.
    I'm also concerned about aeronautics research. I'm afraid 
we're falling away and falling behind in that area. Our 
European counterparts are making very heavy investments in 
aeronautics research, and I hope--they would like to dominate 
civilian aeronautics. Well, I just don't think it is fun to go 
to the Paris Air Show to hear about what Paris is doing. I want 
to go to the--when America goes, it's because we're really 
doing the best of the best.
    We know that the budget requests $2.8 billion for a new 
rocket in the Orion capsule for the human spaceflight program. 
And we have to take a good look at that.
    We're also very impressed at what is going on, however, in 
Commercial Orbital Transportation Services (COTS), particularly 
as it relates to cargo. We think that's going to be a very big 
success story, that we'll be able to take cargo, through 
unmanned spacecraft, to the space station while we observe, 
watch, and see where we go in human spaceflight. We will also 
maintain our accountability and our oversight.
    But, we want to get to you, rather than my opening 
statement.
    I'm going to turn to the ranking member, someone who we've 
really--we've worked on space now three terms, haven't we?
    Senator Hutchison. Yes.
    Senator Mikulski. And I am so glad that we're colleagues 
here on this matter.
    I'm going to turn to Senator Hutchison.

           OPENING STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Well, I want to thank you, Madam 
Chairman, because you have indeed been a partner in trying to 
make the very best efforts for NASA in all of its missions.
    And I particularly want to thank the chairman's staff 
director, Gabrielle Batkin, for working with my staff so 
closely to assure that NASA does have a balanced plan, going 
forward, that will achieve the results that we all want.
    I thank you for coming. And, as the chairman mentioned, we 
are at some very major anniversaries and some very major 
crossroads.
    We're about to see the end of our Nation's ability to 
launch our own astronauts into space. The space shuttles have 
served our country well for 30 years and have made it possible 
to construct an amazing science platform in space, the ISS. 
While NASA should be making plans to fully utilize the station 
using our own launch capabilities, I don't think that is 
happening. We could be working with our international partners, 
with our universities, and with companies that could capitalize 
on our unique national lab in space. In fact, it was the 
Commerce Committee, in our authorization, that created our part 
of the space station as a national lab in order to be able to 
attract private and university/academic funding for research. 
And that is just beginning to bear fruit.
    But, now I see the administration placing our investment in 
the space station and its capabilities at risk, as well as our 
future exploration capabilities. Once the shuttles are retired, 
we will be reduced to buying seats on Russian vehicles for the 
foreseeable future. The Russians have been our long-time 
partners with the space station, but we should not expect them 
to shoulder their space program and ours, when we should be 
able to do it ourselves.
    NASA has the Orion capsule, which it has invested 
significant time and resources in, to carry our astronauts. And 
yet, to this day, NASA is refusing to allow it to move forward. 
The President personally revived Orion last year, and the 
Congress followed, reinstating it as a vehicle that will take 
us to an asteroid or even back to the Moon.
    I heard from your associate administrators, last month in 
the Commerce Committee, that they understand that the 
authorization law directs the building of a capsule and a 
heavy-lift vehicle. They know that Orion fits the bill as the 
multipurpose crew vehicle (MPCV) and that it will take very 
little to modify the contracts, as allowed for in the 
authorization law. In fact, even the scope of the contract 
would need little alteration.
    Like the President, I have no problem continuing to call 
the capsule we are developing Orion, yet we see no movement 
from NASA to continue the program at all. This budget proposes 
only $1 billion for Orion in fiscal year 2012, while the 
authorized level for the same year calls for $1.4 billion; and 
the plan for ongoing work, prior to NASA's cancellation 
attempts, would have had it at $2 billion. This budget 
deliberately hamstrings the ability for Orion to reach an 
operability date in 2016.
    The fiscal year 2012 vision for human spaceflight offered 
as a variant of the authorization is the creation of new prime 
contractors and providing them with development funds. It is 
NASA's hope that providing venture capital will--that they then 
will be able to usher in a new era in space exploration. But, 
there is little proof that what is being promised can be 
reality.
    The COTS program is finally beginning to show promise, but 
it is significantly behind schedule. Last year, NASA proposed a 
60 percent increase in funds to assure that the program would 
be successful. But, because it has been slower to produce 
results, the STS-135 flight has now become critical for the 
near-term viability of the space station. The NASA 
authorization bill leaves primary crew vehicle delivery to the 
space station open to commercial entities, with Orion as a 
backup. However, given the track record so far for cargo and 
NASA's underfunded budget proposal for existing programs, the 
Nation could find itself with neither crew option available 
when our latest renegotiated contract with the Russians ends.

                           PREPARED STATEMENT

    What we have done is allowed for a mix of Government and 
commercial to cover all of our country's needs. NASA needs to 
find a proper and justified balance without placing our human 
space program at risk. While I know that commercial companies 
could eventually become successful, I do not feel that the 
information available justifies such a large investment of 
Federal dollars this year for commercial vehicles. I also 
believe that the same scrutiny that has been placed upon our 
other manned vehicle should be applied to commercial crew to 
ensure that viability and safety of our astronauts are ensured.
    So, Mr. Administrator, I will put the rest of my statement 
in the record. But, I am hoping that we can establish a 
partnership, going forward, that adheres to the authorization 
law, that is a balance, that does provide the funds for the 
commercial vehicle, but not at the expense of Orion and all of 
the capabilities to use what we've already spent billions to do 
productively, going forward.
    [The statement follows:]
           Prepared Statement of Senator Kay Bailey Hutchison
    Mr. Administrator, thank you for coming to discuss National 
Aeronautics Administration (NASA) fiscal year 2012 budget. We are 
meeting on the eve of the 50th anniversary of the first human launched 
into space and the 30th anniversary of the very first shuttle launch. 
Space faring countries have accomplished many amazing things, and I 
hope that we can work together to help accomplish many more.
    These are unusual times to be discussing the future of NASA when 
the budget for the current year is only just now being settled.
                           human space flight
    We are about to see the end of our Nation's ability to launch our 
own astronauts into space. The space shuttles have served our country 
well for the past 30 years and have made it possible to construct an 
amazing science platform in space, the international space station.
    While NASA should be making plans to be fully utilizing the station 
using our own launch capabilities, that is not happening. We could be 
working with our international partners, with our universities, and 
with companies that could capitalize on our unique national lab in 
space.
    Instead, this administration places our investment in the space 
station and its capabilities, as well as our future exploration 
capabilities at serious risk.
    Once the shuttles are retired, we will be reduced to buying seats 
on Russian vehicles for the foreseeable future. The Russians have been 
our long time partners with the space station, but we should not expect 
them to shoulder their space program and ours when we should be able to 
do it ourselves.
    NASA has the Orion capsule, in which it has invested significant 
time and resources to carry our astronauts, yet to this day, NASA 
refuses to allow it to move forward. The President personally revived 
Orion last year, and the Congress followed, reinstating it as the 
vehicle that will take us to an asteroid, or even back to the Moon.
    I heard from your associate administrators last month that they 
understand the authorization law directs the building of a capsule and 
a heavy lift vehicle. They know that Orion fits the bill as the MPCV, 
and that it will take very little to modify the contracts, as allowed 
for in the authorization law. In fact, even the scope of the contract 
would need little alteration. Like the President, I have no problem 
continuing to call the capsule we are developing Orion, yet we see no 
movement from NASA to continue this program at all.
    This budget proposes only $1 billion for Orion in fiscal year 2012, 
while the authorized level for the same year calls for $1.4 billion and 
the plan for ongoing work prior to NASA's misguided cancellation 
attempt, would have had it at $2 billion. This budget deliberately 
hamstrings the ability for Orion to reach an operability date in 2016.
                               commercial
    The fiscal year 2012 vision for human space flight, offered as a 
variant of the authorization, is the creation of new prime contractors 
and providing them with development funds. It is NASA's hope that by 
providing venture capital, they will usher in a new era in space 
exploration with little proof that what is being promised can be 
reality.
    The Commercial Orbital Transportation Services program is finally 
beginning to show promise, but it is significantly behind schedule. 
Last year NASA proposed a 60 percent increase in funds to assure that 
the program would be successful. Because this program has been slower 
to produce results than expected, the STS-135 flight has now become 
absolutely critical for the near-term viability of the space station.
    The NASA authorization leaves primary crew delivery to the space 
station open to commercial entities with Orion as a backup. However, 
given the track record so far for cargo and NASA's underfunded budget 
proposal existing programs, the Nation could find itself with neither 
crewed option available when our latest renegotiated contract with the 
Russians ends.
    What we have done is allowed for a mix of government and commercial 
to cover all of our county's needs. NASA needs to find a proper, and 
justified, balance without placing our human space program at risk.
    While I know the commercial companies could eventually become 
successful, I do not feel that the information available justifies such 
a large investment of Federal dollars this year for commercial crew 
vehicles. I also believe that the same scrutiny that has been placed 
upon our other manned vehicles should be applied to commercial crew to 
ensure that viability and safety of our astronauts are ensured.
                                 close
    Instead of embracing the hard fought compromises that would lead to 
a robust and balanced space agency, we see a reliance on a new and 
novel way of doing space flight, and hoping it may work out in the end.
    That is not responsible, nor is there any proof that it will 
ultimately be successful without substantial funding for development 
and guaranteed business from NASA.
    We have just come from a year where battle lines were drawn because 
of a flawed budget proposal. I do not want to return to the issues of 
the past, but the proposal before us today continues to perpetuate a 
false hope. This hope places our entire human space flight program at 
risk while a talented workforce is being let go as NASA further delays 
what it can, and should be doing.
    Mr. Administrator, you have a voice in shaping NASA, and it will 
set the tone for shaping the future for generations. I can only hope 
that you will use that voice to rise to the occasion.
    You have great supporters of NASA on this subcommittee. Do not 
allow agendas that are counter to what is the law squander your 
opportunity to keep NASA at the forefront of exploration.
    You have been given the tools to move forward expeditiously. All 
that needs to be done now is to move forward.
    Thank you.

    Senator Hutchison. Thank you, Madam Chairman. And I yield 
back to you.
    Senator Mikulski. Yes.
    I'd like to acknowledge the presence of Senator Sherrod 
Brown, from Ohio, a new but very active member of the 
subcommittee.
    Senator, do you want to say something, or you want to wait 
for your----
    Senator Brown. I'll say only 30 seconds' worth.

                   STATEMENT OF SENATOR SHERROD BROWN

    First of all, thank you for welcoming me to this 
subcommittee on--in all of the jurisdictions, including the 
NASA jurisdiction that's particularly important to me.
    I appreciate General Bolden's coming to Cleveland, to Glenn 
Space Center a number of times, and speaking at the City Club 
and laying out a NASA vision.
    I also am concerned, as I know we all are, at what the NASA 
budget may look like in the months ahead with H.R. 1, with the 
new Orion budget, introduced in the House last week, and with 
the tax-cut fervor that seems to be sweeping some parts of the 
House and Senate--what that's going to mean on funding one of 
the most important parts of the Federal Government; that is, 
the innovation, the research, the missions, the advantage in 
aeronautics that we have had as a country for decades in making 
sure that we can continue to be the leading edge there. But, if 
we're going to cut taxes and continue to cut taxes on the 
wealthiest people in this country, and continue to underfund 
the important parts of Government, we're going to lose that 
scientific edge. And I know General Bolden is helping to lead 
the charge on making sure that we don't lose it. And I 
appreciate his work on that.
    Thank you, Madam Chair.
    Senator Mikulski. Administrator Bolden.

              SUMMARY STATEMENT OF CHARLES F. BOLDEN, JR.

    General Bolden. Chairman Mikulski and Ranking Member 
Hutchison, good afternoon and thank you for the opportunity to 
discuss with you NASA's fiscal year 2012 budget request. I 
thank you very much for being here, Senator Brown, always good 
to see you.
    Senator Brown. You, too.
    General Bolden. Senator Mikulski, as chair of this 
subcommittee, you've continued to provide critical leadership 
and oversight of our Nation's space program. And I would like 
to recognize Senator Hutchison, a longtime member of the 
subcommittee, in her new leadership role as ranking member of 
this subcommittee. I want to thank both of you and the members 
of this subcommittee for the long-standing support that you 
have given to NASA. We have a common passion for science, 
aeronautics, and space exploration and the benefits they bring 
our Nation. I look forward to our continuing to work together 
in the same collegial fashion as we have in the past.
    It's my privilege today to discuss the President's fiscal 
year 2012 budget request of $18.7 billion for NASA. Recognizing 
the President's commitment to fiscal restraint, I am pleased 
that we are proposing to hold funding at the level appropriated 
for fiscal year 2010.
    This fiscal year 2012 budget request continues the agency's 
focus on a reinvigorated path of innovation and technological 
discovery leading to an array of challenging destinations and 
missions that engage the public.
    Madam Chair, you and each member of the subcommittee should 
have two charts before you, to which I call your attention.
    Chart 1, the pie chart, shows at very high level the scope 
of NASA's proposed fiscal year 2012 budget, which represents a 
balanced and integrated program. The NASA Authorization Act of 
2010 has given the agency a clear direction. NASA is moving 
forward to implement the details of that act with this fiscal 
year 2012 budget.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As you can see in chart 2, the President's fiscal year 2012 
budget request for NASA funds all major elements of the NASA 
Authorization Act while supporting a diverse portfolio of key 
programs.
    [The information follows:]

                                        NATIONAL AERONAUTICS AND SPACE ADMINISTRATION--PRESIDENT'S FISCAL YEAR 2012 BUDGET REQUEST DETAIL--FULL COST VIEW
                                                                            [Budget authority, in million of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                    Continuing
                                                                   Actual fiscal    resolution     Authorization    Fiscal year     Fiscal year     Fiscal year     Fiscal year     Fiscal year
                                                                     year 2010      fiscal year     act fiscal         2012            2013            2014            2015            2016
                                                                                       2011          year 2011
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Science:
    Earth Science...............................................         1,439.3  ..............         1,801.8         1,797.4         1,821.7         1,818.5         1,858.2         1,915.4
    Planetary Science...........................................         1,364.4  ..............         1,485.7         1,540.7         1,429.3         1,394.7         1,344.2         1,256.8
    Astrophysics................................................           647.3  ..............         1,076.3           682.7           758.1           775.5           779.8           810.9
    James Webb Space Telescope..................................           438.7  ..............  ..............           373.7           375.0           375.0           375.0           375.0
    Heliophysics................................................           608.0  ..............           641.9           622.3           632.7           653.0           659.7           658.7
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Total, Science............................................         4,497.6         4,469.0         5,005.6         5,016.8         5,016.8         5,016.8         5,016.8         5,016.8
                                                                 ===============================================================================================================================
Aeronautics.....................................................           497.0           501.0           579.6           569.4           569.4           569.4           569.4           569.4
Space technology................................................           275.2           327.2           512.0         1,024.2         1,024.2         1,024.2         1,024.2         1,024.2

Exploration:
    Human Exploration Capabilities..............................         3,287.5  ..............         2,751.0         2,810.2         2,810.2         2,810.2         2,810.2         2,810.2
    Commercial Spaceflight......................................            39.1  ..............           612.0           850.0           850.0           850.0           850.0           850.0
    Exploration Research and Development........................           299.2  ..............           343.0           288.5           288.5           288.5           288.5           288.5
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Total, Exploration........................................         3,625.8         3,594.3         3,706.0         3,948.7         3,948.7         3,948.7         3,948.7         3,948.7
                                                                 ===============================================================================================================================
Space Operations:
    Space Shuttle...............................................         3,101.4  ..............         1,609.7           664.9            79.7             0.8             0.8             0.9
    International Space Station.................................         2,312.7  ..............         2,779.8         2,841.5         2,960.4         3,005.4         3,098.0         3,174.8
    Space and Flight Support....................................           727.7  ..............         1,119.0           840.6         1,306.8         1,340.7         1,248.1         1,171.2
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Total, Space Operations...................................         6,141.8         6,146.8         5,508.5         4,346.9         4,346.9         4,346.9         4,346.9         4,346.9
                                                                 ===============================================================================================================================
Education.......................................................           180.1           182.5           145.8           138.4           138.4           138.4           138.4           138.4

Cross-Agency Support:
    Center Management and Operations............................         2,161.2  ..............  ..............         2,402.9         2,402.9         2,402.9         2,402.9         2,402.9
    Agency Management and Operations............................           766.2  ..............  ..............           789.1           789.1           789.1           789.1           789.1
    Institutional Investments...................................            27.2  ..............  ..............  ..............  ..............  ..............  ..............  ..............
    Congressionally Directed Items..............................            63.0  ..............  ..............  ..............  ..............  ..............  ..............  ..............
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Total, Cross-Agency Support...............................         3,017.6         3,018.8         3,111.4         3,192.0         3,192.0         3,192.0         3,192.0         3,192.0
                                                                 ===============================================================================================================================
Construction and Environmental Compliance and Restoration:
    Construction of Facilities..................................           389.4  ..............  ..............           397.9           384.0           359.5           362.9           360.0
    Environmental Compliance and Restoration....................            63.4  ..............  ..............            52.5            66.4            90.9            87.5            90.4
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Total, Construction and Environmental Compliance and                 452.8           448.3           394.3           450.4           450.4           450.4           450.4           450.4
       Restoration..............................................
                                                                 ===============================================================================================================================
Inspector General...............................................            36.4            36.4            37.0            37.5            37.5            37.5            37.5            37.5
                                                                 ===============================================================================================================================
      Total, NASA fiscal year 2011..............................        18,724.3        18,724.3        19,000.0        18,724.3        18,724.3        18,724.3        18,724.3        18,724.3
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    General Bolden. Because these are tough fiscal times, we 
have had to make some tough and some difficult choices. 
Reductions have been necessary in some areas so that we can 
invest in the future while living within our means. This budget 
request maintains a strong commitment to human spaceflight, 
science, aeronautics, and the development of new technologies, 
and education programs that will help us win the future. It 
carries out programs of innovation to support long-term job 
growth in a dynamic economy that will help us out-innovate, 
out-educate, and out-build all others in the world.
    Along with our fiscal year 2012 budget request, we 
published our 2011 Strategic Plan. If you don't have it or the 
staffs don't have it, if you'll let us know, we'll make certain 
that we get a copy to everybody.
    NASA's core mission remains fundamentally the same as it 
has been since our inception in 1958. It supports our vision, 
as shown in the strategic plan, ``To reach new heights and 
reveal the unknown, so that what we do and learn will benefit 
all humankind.''
    On March 9, we completed the STS-133 mission, one of the 
final three shuttle flights to the ISS. Discovery delivered a 
robotic crewmember, Robonaut 2, or R2 as we like to call him--
it--and supplies that will support the station's scientific 
research and technology demonstrations. That was a joke, by the 
way. I didn't--okay.
    We are currently preparing the Space Shuttle Endeavor for 
the STS-134 mission, to be launched on April 29, which will 
deliver the alphamagnetic spectrometer, or AMS. The AMS 
experiment will use the unique environment of space to advance 
knowledge of the universe and lead to the understanding of the 
universe's origin. This will be the 36th shuttle mission to the 
station, and the final flight for Endeavor.
    With the impending completion of the shuttle manifest with 
STS-135, it's my plan to announce my decisions regarding the 
recipients of shuttle orbiters tomorrow, April 12, 2011, the 
30th anniversary of the first space shuttle flight.
    Our space program continues to venture in ways that will 
have long-term benefits. There are many more milestones in the 
near term. Our priorities in human spaceflight in the fiscal 
year 2012 budget request are to maintain safe access for 
American astronauts to LEO as we fully utilize the ISS; to 
facilitate safe, reliable, and cost-effective U.S.-provided 
commercial access to LEO for American astronauts and their 
supplies as soon as possible; to begin to lay the groundwork 
for expanding human presence into deep space, the Moon, 
asteroids, and eventually Mars, through development of a 
powerful, evolvable heavy lift rocket and MPCV; and to pursue 
technology development to carry humans farther into the solar 
system.
    These initiatives will enable America to retain its 
position as a leader in space exploration for generations to 
come. At the same time, in our other endeavors, our priorities 
are to extend our reach with scientific observatories, to learn 
more about our home planet and the solar system, and peer 
beyond it to the origins of the universe.
    This budget request funds 56 NASA science missions 
currently in operation, and 28 more in various stages of 
development. Just as one example, on March 17 of this year, 
after traveling more than 6 years and 4.9 billion miles, NASA's 
MESSENGER (MEcury Surface, Space, ENvironment, GEochemistry and 
Ranging) spacecraft successfully entered orbit around Mercury. 
The MESSENGER spacecraft will give us our first look at the 
planet from orbit, help us understand the forces that shaped 
it, and provide a fundamental understanding of the terrestrial 
planets and their evolution. In addition, we will pursue 
groundbreaking research into the next generation of aviation 
technologies and carry out dynamic education programs that help 
develop the next generation of science, technology, 
engineering, and mathematics professionals.
    That's a lot, but NASA thrives on doing big things. We have 
vastly increased human knowledge, and our discoveries and 
technologies have improved life here on Earth. In spite of the 
difficulties that we've encountered with the very critical 
JWST, we've made changes in our management, increased our 
oversight from my office, and continued to work with the 
program to develop a revised baseline by the end of April that 
will include options addressing light funding scenarios. The 
official plan will be submitted as part of our fiscal year 2013 
budget.
    I want to commend the NASA workforce, both civil service 
and contractors across the Nation, for their dedication to our 
missions during this time of transition and change. These 
workers are our greatest asset and they make us all proud. They 
fully understand the risk of our exploration and welcome the 
challenge. They will be the ones making tomorrow happen.
    These are exciting and dynamic times for us at NASA. The 
challenges ahead are significant, but so are the opportunities. 
We have to achieve big things that will create a measurable 
impact on our economy, our world, and our way of life.

                           PREPARED STATEMENT

    I thank you again for the opportunity to appear before this 
subcommittee, and I look forward to taking your questions.
    Senator Mikulski. Thank you, Administrator Bolden. And I 
know you have given us a far more ample and detailed statement.
    General Bolden. Yes, ma'am.
    Senator Mikulski. I'm going to ask unanimous consent that, 
along with your oral testimony, that this detailed statement be 
included in the record.
    [The statement follows:]
              Prepared Statement of Charles F. Bolden, Jr.
    Madam Chair and members of the subcommittee, today it is my 
privilege to discuss the President's fiscal year 2012 budget request of 
$18.7 billion for the National Aeronautics and Space Administration 
(NASA). This request continues NASA's focus on a reinvigorated path of 
innovation and technological discovery leading to an array of 
challenging destinations and missions that increases our knowledge, 
develops technologies to improve life and expand our presence in space 
for knowledge and commerce, and engages the public. With the 
President's signing of the NASA Authorization Act of 2010 (Public Law 
111-267) on October 11, 2010, NASA has a clear direction and is moving 
forward. NASA appreciates the significant efforts that advanced this 
important bipartisan legislation, particularly efforts by the 
leadership and members of this subcommittee. This is a time of 
opportunity for NASA to shape a promising future for the Nation's space 
program.
    Because these are tough fiscal times, tough choices had to be made. 
But the proposed fiscal year 2012 budget funds all major elements of 
the authorization act, supporting a diverse portfolio of programs, 
while making difficult choices to fund key priorities and reduce other 
areas in order to invest in the future. A chart summarizing the 
President's fiscal year 2012 budget request for NASA is enclosed as 
Enclosure 1.
    We have an incredible portfolio of human space flight, science, 
aeronautics, and technology development. Within the human space flight 
arena, our foremost priority is our current human spaceflight 
endeavor--the International Space Station (ISS)--and the safety and 
viability of the astronauts aboard it. The request also maintains a 
strong commitment to human spaceflight beyond low-Earth orbit (LEO). It 
establishes critical priorities and invests in the technologies and 
excellent science, aeronautics research, and education programs that 
will help us win the future. The request supports an aggressive launch 
rate over the next 2 years with about 40 U.S. and international 
missions to the ISS, for science, and to support other agencies.
    At its core, NASA's mission remains fundamentally the same as it 
always has been and supports our new vision: ``To reach for new heights 
and reveal the unknown so that what we do and learn will benefit all 
humankind.'' This statement is from the new multi-year 2011 NASA 
Strategic Plan accompanying the fiscal year 2012 budget request, which 
all of NASA's Mission Directorates, Mission Support Offices and Centers 
helped to develop, and encapsulates in broad terms the very reason for 
NASA's existence and everything that the American public expects from 
its space program.
    On March 1, we outlined for the subcommittee our plan to establish 
new Exploration program offices to carry out our future work on the 
Multi-Purpose Crew Vehicle, Space Launch System, and Commercial Crew.
    On March 9, we completed the Space Shuttle Discovery's STS-133 
mission, 1 of the final 3 shuttle flights to the ISS. Discovery 
delivered a robotic crewmember, Robonaut-2 (R2), and supplies that will 
support the station's scientific research and technology 
demonstrations. And we are currently preparing the Space Shuttle 
Endeavour for the STS-134 mission to be launched on April 29, which 
will deliver the Alpha Magnetic Spectrometer, or AMS, and space parts 
including two S-band communications antennas, a high-pressure gas tank, 
additional spare parts for Dextre, and micrometeroid debris shield to 
the station.
    Our human spaceflight priorities in the fiscal year 2012 budget 
request are to:
  --Safely fly the last space shuttle flights this year and maintain 
        safe access for humans to LEO orbit as we fully utilize the 
        ISS;
  --Facilitate safe, reliable, and cost-effective U.S.-provided 
        commercial access to LEO first for cargo and then for crew as 
        quickly as possible;
  --Begin to lay the groundwork for expanding human presence into deep 
        space--the Moon, asteroids, eventually Mars--through 
        development of a powerful heavy-lift rocket and multipurpose 
        crew capsule; and
  --Pursue technology development that is needed to carry humans 
        farther into the solar system. Taken together, these human 
        spaceflight initiatives will enable America to retain its 
        position as a leader in space exploration for generations to 
        come.
    At the same time, we will extend our reach with robotic spacecraft 
and scientific observatories to expand our knowledge of the universe 
beyond our own planet. We will continue the vital work to expand our 
abilities to observe our planet Earth and make that data available for 
decisionmakers. We will also continue our groundbreaking research into 
the next generation of aviation technologies. Finally, we will make the 
most of all of NASA's technological breakthroughs to improve life here 
at home.
    With the fiscal year 2012 budget, NASA will carry out research, 
technology, and innovation programs that support long-term job growth 
and economic competitiveness and build upon our Nation's position as a 
technology leader. We will educate the next generation of technology 
leaders through vital programs in science, technology, engineering, and 
mathematics education. And we will build the future through investments 
in American industry, creating high-tech jobs across the country and an 
innovation engine for the U.S. economy.
    This year we honor the legacy of President John F. Kennedy, who, 50 
years ago, set the United States on a path that resulted in a national 
effort to produce an unprecedented achievement. Now, we step forward 
along a similar path, engaged in a wide range of activities in human 
spaceflight, science, and aeronautics--a path characterized by 
engagement of an expanded commercial space sector and technology 
development to mature the capabilities required by increasingly 
challenging missions designed to make discoveries and reach new 
destinations.
    NASA's Science Mission Directorate (SMD) continues to rewrite 
textbooks and make headlines around the world. Across disciplines and 
geographic regions worldwide, NASA aims to achieve a deep scientific 
understanding of Earth, other planets and solar system bodies, our star 
system in its entirety, and the universe beyond. The agency is laying 
the foundation for the robotic and human expeditions of the future 
while meeting today's needs for scientific information to address 
national concerns about global change, space weather, and education.
  --The Mars Science Laboratory will launch later this year and arrive 
        at Mars in August 2012. It will be the largest rover ever to 
        reach the Red Planet and will search for evidence of both past 
        and present life.
  --The Nuclear Spectroscopic Telescope Array (NuSTAR) mission will 
        launch in early 2012 and become the first focusing hard xray 
        telescope to orbit Earth.
  --Research and analysis programs will use data from an array of 
        sources, including spacecraft, sounding rockets, balloons, and 
        payloads on the ISS. We will continue to evaluate the vast 
        amounts of data we receive from dozens of ongoing missions 
        supported by this budget.
  --A continued focus on Earth science sees us continuing development 
        of the Orbiting Carbon Observatory-2 (OCO-2) for launch in 2013 
        and other initiatives to collect data and conduct research on a 
        broad spectrum of changes in the Earth system including 
        climate, weather, and natural hazards.
  --The budget reflects the scientific priorities for astrophysics as 
        expressed in the recent Decadal Survey of the National Academy 
        of Sciences. The budget supports small-, medium-, and large-
        scale activities recommended by the Decadal Survey.
  --The Radiation Belt Storm Probe mission will launch next year, and 
        development of other smaller missions and instruments to study 
        the Sun will get underway here on the ground.
    With the appointment of a new Chief Scientist, NASA will pursue an 
integrated, strategic approach to its scientific work across Mission 
Directorates and programs.
    As we continue our work to consolidate the Exploration Systems 
Mission Directorates (ESMD) and Space Operations Mission Directorates, 
both groups will support our current human spaceflight programs and 
continue work on technologies to expand our future capabilities.
  --We will fly out the space shuttle in 2011, including STS-135 if 
        funds are available, and then proceed with the disposition of 
        most space shuttle assets after the retirement of the fleet. 
        The shuttle program accomplished many outstanding things for 
        this Nation, and in 2012 we look forward to moving our retired 
        Orbiters to new homes across the country to inspire the next 
        generation of explorers.
  --Completing assembly of the U.S. segment of the ISS will be the 
        crowning achievement of the space shuttle's nearly 30-year 
        history. The ISS will serve as a fully functional and 
        permanently crewed research laboratory and technology testbed, 
        providing a critical stepping stone for exploration and future 
        international cooperation, as well as an invaluable National 
        Laboratory for non-NASA and nongovernmental users. During 
        fiscal year 2011, NASA will award a cooperative agreement to an 
        independent nonprofit organization (NPO) with responsibility to 
        further develop this effort. The NPO will oversee all ISS 
        research involving organizations other than NASA, and transfer 
        current NASA biological and physical research to the NPO in 
        future years.
  --In 2012, we will make progress in developing a new Space Launch 
        System (SLS), a heavy-lift rocket that will be the first step 
        on our eventual journeys to destinations beyond LEO.
  --We will continue work on a MPCV that will build on the human safety 
        features, designs, and systems of the Orion Crew Exploration 
        Vehicle. As with the SLS, acquisition strategy decisions will 
        be finalized by this summer.
  --NASA will continue to expand commercial access to space and work 
        with our partners to achieve milestones in the Commercial 
        Orbital Transportation Services (COTS) program, the Commercial 
        Resupply Services (CRS) effort, and an expanded Commercial Crew 
        Development (CCDev) program. As we direct resources toward 
        developing these capabilities, we not only create multiple 
        means for accessing LEO, but we also facilitate commercial uses 
        of space, help lower costs, and spark an engine for long-term 
        job growth. While the request is above the authorized level for 
        2012, NASA believes the amount is critical, combined with 
        significant corporate investments, to ensure that we will have 
        one or more companies that can transport American astronauts to 
        the ISS. With retirement of the space shuttle in 2011, this is 
        a top agency priority.
  --Most importantly, NASA recognizes that these programmatic changes 
        will continue to personally affect thousands of NASA civil 
        servants and contractors who have worked countless hours, often 
        under difficult circumstances, to make our human spaceflight, 
        science, and aeronautics programs and projects successful. I 
        commend the investment that these dedicated Americans have made 
        and will continue to make in our Nation's space and aeronautics 
        programs. These are tremendously exciting and dynamic times for 
        the U.S. space program. NASA will strive to utilize our 
        workforce in a manner that will ensure that the Nation 
        maintains NASA's greatest asset--the skilled civil servants and 
        contractors--while working to increase the efficiency and cost-
        effectiveness in all of its operations.
  --The 21st Century Space Launch Complex program will focus on 
        upgrades to the Florida launch range, expanding capabilities to 
        support SLS, MPCV, commercial cargo/launch services providers, 
        and transforming KSC into a modern facility that benefits all 
        range users. The program will replan its activities based on 
        available fiscal year 2011 funding to align with 2010 NASA 
        Authorization's focus areas, including cross organizational 
        coordination between 21st CSLC, Launch Services, and Commercial 
        Crew activities.
    NASA's Aeronautics Research Mission Directorate (ARMD) continues to 
improve the safety, efficiency, and environmental friendliness of air 
travel.
  --Our work continues to address the challenge of meeting the growing 
        technology and capacity needs of the Next Generation air travel 
        system, or ``NextGen'', in coordination with the FAA and other 
        stakeholders in airspace efficiency.
  --NASA's work on green aviation technologies that improve fuel 
        efficiency and reduce noise continues apace.
  --We also continue to work with industry to develop the concepts and 
        technologies for the aircraft of tomorrow. The agency's 
        fundamental and integrated systems research and testing will 
        continue to generate improvements and economic impacts felt by 
        the general flying public as well as the aeronautics community.
    The establishment last year of the Office of the Chief Technologist 
(OCT) enabled NASA to begin moving toward the technological 
breakthroughs needed to meet our Nation's space exploration goals, 
while building our Nation's global economic competitiveness through the 
creation of new products and services, new business and industries, and 
high-quality, sustainable jobs. By investing in high-payoff, 
transformative technology that industry cannot tackle today, NASA 
matures the technology required for our future missions in science and 
exploration while improving the capabilities and lowering the cost of 
other Government agencies and commercial activities.
  --NASA recently developed draft space technology roadmaps, which 
        define pathways to advance the Nation's capabilities in space 
        and establish a foundation for the agency's future investments 
        in technology and innovation. NASA is working collaboratively 
        with the National Research Council (NRC) to refine these 
        roadmaps. The final product, expected in the first quarter of 
        fiscal year 2012, will establish a mechanism for prioritizing 
        NASA's technology investments, and will support the initial 
        Space Technology Policy Congress requested in the NASA 
        Authorization Act of 2010.
  --Through the Space Technology program, OCT will sponsor a portfolio 
        of both competitive and strategically guided technology 
        investments, bringing the agency a wide range of mission-
        focused and transformative technologies that will enable 
        revolutionary approaches to achieving NASA's current and future 
        missions.
  --In fiscal year 2012, a significant portion of the Exploration 
        Technology Development Program is moved from ESMD to space 
        technology. These efforts focus on developing the long-range, 
        exploration-specific technologies to enable NASA's deep space 
        human exploration future. The integration of exploration 
        technology activities with space technology eliminates the 
        potential for overlap had NASA's space technology investments 
        been split among two accounts. ESMD will continue to set the 
        prioritized requirements for all exploration technology 
        development efforts and will serve as the primary customer of 
        these mission-specific technology development activities.
  --OCT continues to manage SBIR and STTR, and integrates technology 
        transfer efforts to ensure that NASA technologies are infused 
        into commercial applications, develops technology partnerships, 
        and facilitates emerging commercial space activities
    Recognizing that our work must continuously inspire not only the 
public at large but also students at all levels, NASA's Education 
programs this year focus on widening the pipeline of students pursuing 
coursework in STEM. As President Obama has said, ``Our future depends 
on reaffirming America's role as the world's engine of scientific 
discovery and technological innovation. And that leadership tomorrow 
depends on how we educate our students today, especially in math, 
science, technology, and engineering.''
  --The fiscal year 2012 request for NASA's Office of Education 
        capitalizes on the excitement of NASA's mission through 
        innovative approaches that inspire educator and student 
        interest and proficiency in STEM disciplines. NASA's education 
        program in fiscal year 2012 and beyond will focus and 
        strengthen the agency's tradition of investing in the Nation's 
        education programs and supporting the country's educators who 
        play a key role in inspiring, encouraging, and nurturing the 
        young minds of today, who will manage and lead the Nation's 
        laboratories and research centers of tomorrow.
  --Among NASA's Education activities will be a continued Summer of 
        Innovation, building on the successful model piloted with four 
        States this past year.
    All of these activities place NASA in the forefront of a bright 
future for America, where we challenge ourselves and create a global 
space enterprise with positive ramifications across the world. The 
fiscal year 2012 budget request provides the resources for NASA to 
innovate and make discoveries on many fronts, and we look forward to 
implementing it. See Enclosure 2 for a more detail summary of each 
activity.
                               conclusion
    As we enter the second half-century of human spaceflight, the 
Nation can look back upon NASA's accomplishments with pride, but we can 
also look forward with anticipation to many more achievements to come. 
The NASA Authorization Act of 2010 (Public Law 111-267) has provided us 
with clear direction that enables the agency to conduct important 
research on the ISS, develop new launch vehicles and crew 
transportation capabilities to go beyond the bounds of LEO, utilize a 
dazzling array of spacecraft to study the depths of the cosmos while 
taking the measure of our home planet, improve aviation systems and 
safety, develop new technologies that will have applications to both 
space exploration and life on Earth, and inspire the teachers and 
students of our country. In developing and executing the challenging 
missions that only NASA can do, we contribute new knowledge and 
technologies that enhance the Nation's ability to compete on the global 
stage and help to secure a more prosperous future.
    These are tough fiscal times, calling for tough choices. The 
President's fiscal year 2012 budget request makes those choices and 
helps advance all of these bold aims, and we look forward to working 
with the subcommittee on its implementation.
    Madam Chair, thank you for your support and that of this 
subcommittee. I would be pleased to respond to any questions you or the 
other members of the subcommittee may have.
           Fiscal Year 2012 Budget Request--Detailed Summary
                                science
    The President's fiscal year 2012 request for NASA includes $5,016.8 
million for Science. NASA continues to expand humanity's understanding 
of our Earth, our Sun, the solar system, and the universe with 56 
science missions in operation and 28 more in various stages of 
development. The Science budget funds these missions as well as the 
research of more than 3,000 scientists, engineers, technologists, and 
their students across the Nation. NASA is guided in setting its 
priorities for strategic science missions by the recommendations of the 
NRC decadal surveys. The agency selects competed missions and research 
proposals based on open competition and peer review. NASA's science 
efforts continue to advance a robust and scientifically productive 
program while making difficult choices commensurate with the 
Government-wide priority to constrain the Federal budget.
    The fiscal year 2012 budget request includes $1,797.4 million for 
Earth science. NASA's constellation of Earth-observing satellites 
provides much of the global environmental observations used for climate 
research in the United States and abroad.
    In early fiscal year 2012, NASA plans to launch the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) 
Preparatory Project (NPP), continuing selected climate data records and 
becoming an integral part of the Nation's operational meteorological 
satellite system for weather prediction. We also plan to select new 
Venture Class science instruments and small missions in fiscal year 
2012. The Glory mission to be launched later this week will release its 
first global set of calibrated and validated aerosol measurements in 
fiscal year 2012. In addition, we will produce the first fusion data 
products integrating Glory data with measurements from the rest of the 
A-Train (a formation of Earth-monitoring satellites that employ 
multiple scientific instruments to observe the same path of Earth's 
atmosphere and surface at a broad swath of wavelengths).
    The Aquarius instrument on the Argentine Satelite de Aplicaciones 
Cientificas (SAC)-D mission (launching later this year) will deliver 
the first global ocean salinity measurements to the science community 
in fiscal year 2012. OCO-2, Landsat Data Continuity Mission, and the 
Global Precipitation Measurement missions will be in integration and 
testing in fiscal year 2012. The first two NRC Decadal Survey missions, 
Soil Moisture Active/Passive and the Ice, Cloud, and land Elevation 
Satellite-2 (ICESat-2), will both enter into development during fiscal 
year 2012. This budget request also funds robust Research and Analysis, 
Applied Science, and Technology programs. In this climate of fiscal 
austerity there are some important capabilities that will not be 
developed in order to keep others on track in more constrained future 
years. Development of the second two Tier 1 Decadal Survey missions, 
the Deformation, Ecosystem Structure, and Dynamics of Ice (DESDynI), 
and the Climate Absolute Radiance and Refractivity Observatory 
(CLARREO), has been deferred resulting in launch dates no earlier than 
2020. NASA will continue pre-formulation work on the DESDynI and review 
international partner options. However, the fiscal year 2012 request 
enables the Gravity Recovery and Climate Experiment Follow-on (GRACE-
FO), the Pre-Aerosols-Clouds-Ecosystems (PACE), and the Tier 2 missions 
Surface Water and Ocean Topography (SWOT), and Active Sensing of 
CO<INF>2</INF> Emissions Over Nights, Days, and Seasons (ASCENDS) to go 
forward as planned.
    The Science budget request includes $1,540.7 million for planetary 
science in fiscal year 2012. NASA and its partners consider the period 
from October 2010 to August 2012 (the length of a Martian year) to be 
the ``Year of the Solar System.''
    The Juno mission will launch in August 2011 and arrive at Jupiter 
in 2016. The Gravity Recovery and Interior Laboratory (GRAIL) mission, 
following launch in September 2011, will enter lunar orbit and help 
determine the structure of the lunar interior from crust to core; the 
mission will advance our understanding of the thermal evolution of the 
Moon by the end of its prime mission in fiscal year 2012. A newly 
installed Web cam is giving the public an opportunity to watch 
technicians assemble and test NASA's MSL ``Curiosity,'' one of the most 
technologically advanced interplanetary missions ever designed. More 
than 1 million people have watched assembly and testing of Curiosity 
via a live Web cam since it went online in October. Curiosity will 
launch in early fiscal year 2012 and arrive at Mars in August 2012; it 
will be two times as large and three times as heavy as the Spirit and 
Opportunity rovers, and will focus on investigating whether conditions 
on Mars have been favorable for microbial life and for preserving clues 
in the rocks about possible past life. The MErcury Surface, Space 
ENvironment, GEochemistry and Ranging (MESSENGER) spacecraft will 
arrive at Mercury later this month and will complete its first year in 
Mercury orbit in March 2012. MESSENGER's instruments will map nearly 
the entire planet in color, image the surface in high resolution and 
measure the composition of the surface, atmosphere and nature of the 
magnetic field and magnetosphere. During its nearly decade-long 
mission, the Dawn mission will study the asteroid Vesta and dwarf 
planet Ceres--celestial bodies believed to have accreted early in the 
history of the solar system. Dawn will enter into orbit around Vesta 
this summer and will depart in 2012 for its encounter with Ceres in 
2015. NASA and the European Space Agency (ESA) have selected the five 
science instruments for the 2016 ExoMars Trace Gas Orbiter mission. The 
budget also supports robust Research and Analysis and Technology 
programs. NASA is expecting the results from the next National Academy 
of Sciences Decadal Survey for Planetary Science later this month. NASA 
will use this survey to prioritize ongoing programs and future mission 
opportunities.
    The fiscal year 2012 budget request includes $682.7 million for 
Astrophysics (not including an additional $375 million for the James 
Webb Space Telescope (JWST) which is detailed below). This is a golden 
age of space-based Astrophysics, with 14 observatories in operation. 
Astrophysics research, technology investments, and missions aim to 
understand how the universe works, how galaxies, stars and planets 
originated and developed over cosmic time, and whether Earth-like 
planets and life exist elsewhere in the cosmos.
    The fiscal year 2012 budget request reflects the scientific 
priorities of the new National Academy of Science Decadal Survey 
entitled, ``New Worlds, New Horizons in Astronomy and Astrophysics''. 
The budget includes additional funding for the Explorer mission 
selection planned for 2012, sustains a vigorous flight rate of future 
astrophysics Explorer missions and missions of opportunity, and 
increases investments in recommended research and technology 
initiatives. Funding is also provided for pre-formulation investments 
in recommended large missions beyond JWST, while work on the Space 
Interferometry Mission (SIM) and Joint Dark Energy Mission (JDEM) has 
been brought to a close, consistent with the recommended Decadal Survey 
program. SOFIA will complete its open-door flight testing and conduct 
the first competed science observations in fiscal year 2012. The NuSTAR 
mission will launch in early 2012. The NASA Astrophysics budget also 
supports continuing operations of Hubble, Chandra, and several other 
astrophysics observatories in space. The budget increases funding for 
the core Astrophysics research program, including sounding rocket and 
balloon suborbital payloads, theory, and laboratory astrophysics.
    The fiscal year 2012 budget request includes $375 million for the 
JWST. JWST is now budgeted as a separate theme, reflecting changes 
implemented in fiscal year 2011 to improve management oversight and 
control over this critical project, as recommended by the Independent 
Comprehensive Review Panel's (ICRP) report in November 2010. The 
project, previously managed within the Astrophysics Division, is now 
managed by a separate program office at NASA headquarters. Management 
of this JWST organization at headquarters now reports directly to the 
NASA Associate Administrator and the Associate Administrator for 
Science. The Goddard Space Flight Center has implemented analogous 
changes, with JWST project management now reporting directly to the 
Center Director. JWST was the top-priority large mission recommended in 
the previous NRC Decadal Survey and is considered a foundational 
element of the science strategy in the new Decadal Survey for Astronomy 
and Astrophysics. During 2010, JWST completed its most significant 
mission milestone to date, the Mission Critical Design Review. Cost 
growth and schedule issues identified following this milestone led to 
the formation of the ICRP. The ICRP report concluded that the problems 
causing cost growth and schedule delays on the JWST project are 
associated with cost estimation and program management, not technical 
performance. The $375 million funding in 2012 gives the program a 
stable footing to continue progress while the agency develops a revised 
program plan that includes a realistic assessment of schedule and life-
cycle cost. The revised schedule and life-cycle cost will be reflected 
in the 2013 budget request.
    The fiscal year 2012 budget request includes $622.3 million for 
heliophysics. NASA's heliophysics satellites provide not only a steady 
stream of scientific data for NASA's research program, but also supply 
a significant fraction of critical space weather data used by other 
Government agencies for support of commercial and national security 
activities in space. Those agencies use the data to protect operating 
satellites, communications, aviation and navigation systems, as well as 
electrical power transmission grids. The spacecraft also provides 
images of the Sun with 10 times greater resolution than high-definition 
television in a broad range of ultraviolet wavelengths. On February 6, 
2011, the two STEREO spacecraft reached 180 degrees separation; when 
combined with SDO, these spacecraft will enable constant imaging of the 
full solar sphere for the next 8 years, as the solar cycle peaks and 
begins to decline again. These three spacecraft working together and in 
combination with NASA's other solar observatories will give us 
unprecedented insight into the Sun and its dangerous solar storms that 
could threaten both satellites and humans in space as well as electric 
power systems on Earth. NASA has begun development of a mission, called 
Solar Probe Plus, that will visit and study the Sun from within its 
corona--a distance only 8.5 solar radii above its surface.
    The fiscal year 2012 budget will enable completion of the Radiation 
Belt Storm Probes mission for launch in fiscal year 2012 as well as the 
completion of development of the Interface Region Imaging Spectrograph 
(IRIS) Explorer mission. In fiscal year 2012, the Magnetospheric 
Multiscale (MMS) mission will enter its assembly and integration phase, 
the Solar Orbiter Collaboration with ESA will undergo Mission 
Confirmation Review, and the Solar Probe Plus mission will enter into 
the preliminary design phase. NASA has increased funding for the next 
Explorer mission selection planned for 2012 to enable selection of up 
to two full missions, as well as instruments that may fly on non-
Explorer spacecraft. The budget also supports robust Research and 
Analysis and Sounding Rocket operations programs. The National Academy 
of Sciences has begun work on the next Decadal Survey for heliophysics 
and we anticipate its release in the spring of 2012.
                          aeronautics research
    The fiscal year 2012 budget request for Aeronautics is $569.4 
million. As an industry, aviation contributes $1.3 trillion to the 
Nation's economy and employs more than 1 million people. Airlines in 
the United States transport more than 1 million people daily, but 
during peak travel times the air traffic and airport systems in the 
United States are stretched to capacity. Environmental concerns, such 
as aircraft noise and emissions, limit increased operations and the 
expansion of airports and runways. In response to these challenges, the 
Nation is pursuing the realization of the Next Generation Air 
Transportation System (NextGen). NextGen will accommodate more aircraft 
operating within the same airspace, including aircraft with widely 
varying performance characteristics. The President recently challenged 
the Nation to increase its competitiveness in advanced technologies. 
NASA meets this challenge with aeronautics research to create the 
safer, more fuel-efficient, quieter, and environmentally responsible 
aircraft and air traffic management procedures needed to make NextGen a 
reality.
  --The Aviation Safety Program conducts research to ensure that 
        current and new aircraft and operational procedures maintain 
        the high level of safety which the American public has come to 
        count on, even as aviation systems become more complex. Last 
        year, the program published guidelines on automation, displays, 
        and alerting technologies for future aircraft cockpit designs 
        based on data collected from real flight crews during 
        simulations of high-air-traffic-density operations. Further 
        increases in air traffic will require even higher levels of 
        automation without sacrificing safety. NASA is addressing this 
        need by developing new methods to verify and validate complex 
        aircraft and air traffic control systems and further developing 
        human performance models to be applied in the design of 
        automated systems. The program is also developing data mining 
        methods that will enable the discovery of safety issues through 
        automated analysis of the vast amounts of data generated during 
        flight operations. These methods will enable a new, proactive 
        approach to aircraft maintenance and design to avoid the 
        occurrence of safety issues, rather than a reactive approach 
        after a safety-related incident occurs.
  --Reductions in environmental impact will be achieved not only 
        through new aircraft, engines, and fuels, but also through 
        improved air traffic management procedures. The Airspace 
        Systems Program is developing these procedures in order to 
        provide the flexibility needed to add capacity to the system as 
        air travel demands increase. Last year, we partnered with the 
        Federal Aviation Administration (FAA), Boeing, Sensis, United 
        Airlines, and Continental Airlines to complete joint 
        simulations of new Efficient Descent Advisor (EDA) procedures, 
        and in fiscal year 2012, the program will deliver documentation 
        of the results to the FAA. EDA procedures are a key component 
        of the FAA's 3D-Path Arrival Management program and NextGen and 
        can save hundreds of pounds of fuel and carbon dioxide 
        emissions per participating flight, while reducing noise over 
        surrounding communities. In fiscal year 2012, we will also 
        accelerate field trials of new procedures enabled by Automatic 
        Dependent Surveillance-Broadcast (ADS-B) technology. This 
        effort will demonstrate near-term and mid-term ADS-B 
        application benefits and provide airlines with data to support 
        their strategic decisions related to the significant 
        investments they need to make to equip their aircraft with ADS-
        B capability.
  --The Fundamental Aeronautics Program seeks to continually improve 
        technology that can be infused into today's state-of-the-art 
        aircraft, while enabling game-changing new concepts, such as 
        Hybrid Wing Body (HWB) airframes, tilt-rotor aircraft, low-boom 
        supersonic aircraft, and sustained hypersonic flight. In fiscal 
        year 2012, the program will accelerate research on a number of 
        key enabling technologies identified through four conceptual 
        design studies completed last year in collaboration with 
        industry and academia. The program will also expand the 
        measurement of emissions generated when using nonpetroleum 
        alternative aircraft fuels. In fiscal year 2012, we will 
        develop instrumentation and operating procedures in preparation 
        for a flight test campaign using the NASA DC-8 aircraft 
        operating at relevant altitudes and cruise speeds. This will 
        provide the first-ever data to improve our understanding of 
        alternative fuel impact on contrail formation, an important 
        factor in aviation climate impact.
  --The Integrated Systems Research Program evaluates and selects the 
        most promising ``environmentally friendly'' engine and airframe 
        concepts emerging from the fundamental research programs for 
        further development, integration, and evaluation in relevant 
        environments. Last year, we completed the last of 80 flights to 
        explore the stability and control characteristics of the sub-
        scale X-48B HWB aircraft. In fiscal year 2012, we will conduct 
        the first-ever testing of a Hybrid Wing Body noncircular 
        fuselage section fabricated using a new low-weight, damage-
        tolerant concept for composite aircraft structures. Beginning 
        this year, the program is also addressing the growing 
        requirement to integrate unmanned aircraft systems (UAS) into 
        the national airspace system. Current FAA regulations are built 
        upon the condition of a pilot being on-board the aircraft. The 
        program will therefore generate data for FAA use in rule-making 
        through development, testing, and evaluation of UAS 
        technologies in operationally relevant scenarios.
  --U.S. leadership in aerospace depends on ready access to 
        technologically advanced, efficient, and affordable aeronautics 
        test capabilities. NASA's Aeronautics Test Program makes 
        strategic investments to ensure the availability of these 
        ground test facilities and flight test assets to researchers in 
        Government, industry, and academia. In addition to this 
        strategic management activity, the program will continue with 
        the development of new test instrumentation and test 
        technologies. The program is modifying a Gulfstream III 
        business jet in order to flight test a new approach to reducing 
        drag on an aircraft by adding carefully engineered surface 
        roughness to the wings. This new flight-test capability will 
        enable us to test this drag reduction concept for the first 
        time at the altitudes and speeds at which commercial aircraft 
        typically cruise.
    NASA cannot do all of these good things alone. Our partnerships 
with industry, academia, and other Federal agencies are critical to our 
ability to expand the boundaries of aeronautical knowledge for the 
benefit of the Nation. These partnerships foster a collaborative 
research environment in which ideas and knowledge are exchanged across 
all communities and help ensure the future competitiveness of the 
Nation's aviation industry. They also directly connect students with 
NASA researchers and our industrial partners and help to inspire 
students to choose a career in the aerospace industry.
                            space technology
    The fiscal year 2012 budget request includes $1,024.2 million for 
space technology, consistent with the NASA Authorization Act of 2010 
and the administration's priorities on Federal investments in research, 
technology and innovation across the Nation. Within the fiscal year 
2012 request, NASA has integrated management responsibility for two 
technology development programs reflected in the NASA Authorization Act 
within the Office of the Chief Technologist. In fiscal year 2012, Space 
Technology includes funding for long-standing Small Business Innovation 
Research and Small Business Technology Transfer programs (SBIR and 
STTR), as well as technology transfer and commercialization efforts, 
the crosscutting space technology programs formulated in fiscal year 
2011, and the exploration technology programs that are being 
transferred into this account. All of the space technology programs 
have deep roots in technology development approaches NASA has pursued 
in previous years.
    NASA technology development activities under space technology will 
transform the Nation's capabilities for exploring space. Through this 
effort, NASA advances crosscutting and exploration-specific technology, 
performs technology transfer and technology commercialization 
activities, develops technology partnerships with other Government 
agencies, and coordinates the agency's overall technology investment 
portfolio. The Office of the Chief Technologist (OCT) manages space 
technology.
    Space Technology is the central NASA contribution to the 
President's revitalized research, technology, and innovation agenda for 
the Nation. NASA's space technology portfolio responds with investments 
that reach all corners of the Nation--wherever there are innovative 
ideas and technical challenges to be solved. Advanced technologies are 
required to enable NASA's future science, aeronautics, and exploration 
missions. As demonstrated over many years, these same advanced 
technologies find their way into products and services available every 
day to the public. NASA's space technology is an innovation engine, 
investing in the innovative, high-payoff ideas, and technologies of 
tomorrow that industry cannot tackle today. This unique work attracts 
bright minds into educational and career paths in STEM disciplines and 
enhances the Nation's technological leadership position in the world. 
Through these technological investments, NASA and our Nation will 
remain at the cutting-edge.
    In fiscal year 2010 and the first quarter of fiscal year 2011, NASA 
focused on planning, formulating, and implementing the space technology 
project elements. The agency received 1,400 responses to six Space 
Technology Requests For Information (RFIs) released during fiscal year 
2010. These inputs were invaluable in finalizing future space 
technology solicitations and demonstrate a strong interest in, and need 
for, significant NASA investment in space research and technology. NASA 
released solicitations for the ongoing flight opportunities and SBIR/
STTR programs. In December 2010, NASA released the inaugural Space 
Technology Graduate Fellowships call. In March 2011, consistent with 
provisions of the NASA Authorization Act, the agency released three 
additional high-priority solicitations spanning space technology's 
strategic investment areas. NASA also recently developed a draft set of 
14 space technology roadmaps, which define pathways to advance the 
Nation's capabilities in space and establish a mechanism for 
prioritization of NASA's technology investments. Consistent with the 
NASA Authorization Act of 2010, NASA's space technology roadmaps are 
being evaluated and improved through a community-engaged review process 
managed by the NRC that will produce a range of pathways and 
recommended priorities that advance the Nation's space capabilities. An 
interim NRC report is expected in fiscal year 2011, and the final 
report is expected in the first quarter of fiscal year 2012.
    NASA's Partnership Development and Strategic Integration activities 
develop key space technology partnerships and guide NASA's space 
technology investment decisions. OCT provides a primary entry point to 
industry and Government agencies for technology transfer and 
commercialization, interagency coordination and joint activities, 
intellectual property management, and partnership opportunities. OCT is 
also responsible for development of an agency technology portfolio and 
coordination of the agency technology investments through center and 
mission directorate technology councils and through the space 
technology roadmaps to ensure that space technology investments serve 
NASA's missions as well as the interests of other Government agencies 
and the Nation's aerospace industry.
    The agency's space technology investments include the Small 
Business Innovation Research and the Small Business Technology Transfer 
programs (SBIR and STTR). Small businesses have generated 64 percent of 
net new jobs over the past 15 years. NASA invests at least 2.5 percent 
of its extramural research and development in the SBIR program. The 
STTR program makes awards to small businesses for contracts for 
cooperative research and development with nonprofit research 
institutions, such as universities. For STTR, NASA's investment exceeds 
0.3 percent of its extramural research and development. For fiscal year 
2012, higher maximum awards for SBIRs are allowed, with Phase I awards 
that can reach $150,000 and, for Phase II, up to $1 million. Also in 
fiscal year 2012, NASA is considering approaches to align the SBIR and 
STTR topics with space technology roadmaps and the National Aeronautics 
Research and Development Plan, while coordinating with centers and 
maintaining a mission directorate steering council to continue to 
improve our rate of mission infusion. The fiscal year 2012 request 
includes $284 million for the SBIR/STTR program and related technology 
transfer and commercialization activities, funded in fiscal year 2010 
and earlier through NASA's Innovative Partnership Program.
    Crosscutting Space Technology Development (CSTD) activities invest 
in broadly applicable technologies through early stage conceptual 
studies, ground-based and laboratory testing, relevant-environment 
flight demonstrations, and technology test beds, including the ISS. The 
NASA Mission Directorates, other Government agencies, and industry are 
the ultimate customers for Crosscutting Space Technology Development 
products. Within this element, there are three investment areas:
  --Early stage innovation;
  --Game-changing technology; and
  --Crosscutting capability demonstrations.
    Early Stage Innovation funds space technology research grants and 
fellowships to accelerate space technology development through 
innovative projects with high risk/high payoff. It also funds the NASA 
Innovative Advanced Concepts (NIAC) effort, which studies the viability 
and feasibility of space architecture, system, or mission concepts. It 
includes the Center Innovation Fund to stimulate and encourage 
creativity and innovation within the NASA Centers, and provides the 
prizes for the Centennial Challenges competitions that seek innovative 
solutions to technical problems in aerospace technology. Through 
ground-based and laboratory testing, game changing technology proves 
the fundamental physical principles of those technologies that can 
provide transformative capabilities for scientific discovery, and human 
and robotic exploration. Specifically for small satellites, the 
Franklin subsystem technology development activity matures subsystem 
technology in laboratory environments. Crosscutting capability 
demonstrations proves the most promising technological solutions in the 
relevant environment of space. Technology demonstration missions prove 
larger-scale system technologies in the space environment, whereas the 
Edison small satellite missions demonstrate the utility of these 
innovative space platforms for NASA's future missions. Flight 
opportunities utilizes the capabilities of the commercial reusable 
suborbital space transportation and parabolic flight services 
industries to test technologies. Seventy percent of the CSTD funds will 
be awarded competitively, with solicitations open to the broad 
aerospace community to ensure engagement with the best sources of new 
and innovative technology. Industry, academia and the NASA Centers will 
participate in the development of CSTD products.
    In fiscal year 2012, CSTD will engage hundreds of graduate students 
and researchers through grants and fellowships, initiate dozens of 
ground and flight technology demonstrations, initiate multiple 
technology studies, and formulate its first demonstration missions. The 
fiscal year 2012 request includes $430 million for crosscutting space 
technology development activities. By focusing on broadly applicable, 
high-payoff, transformative technology that industry cannot tackle 
today, NASA's crosscutting space technology development activities 
mature the technology required for NASA's future missions in science 
and exploration while proving the capabilities and lowering the cost of 
other government agencies and commercial space activities. These 
investments are critical for the agency's future, our Nation's future 
in space, and our Nation's technological leadership position in the 
world. By attacking these technological challenges immediately, NASA 
can build the capabilities required for its future missions and serve 
as a catalyst in America's economic recovery while increasing the 
Nation's global technological leadership position. As noted by NRC in 
numerous reports, NASA needs to make maturing visionary, far-reaching 
concepts and technologies a high priority if we are to have advanced 
concepts available in the future.
    The fiscal year 2012 request transfers management authority for 
$310 million (from a total of $437 million) of exploration technology 
development activities to OCT. The fiscal year 2012 requested 
Exploration Technology Development (ETD) level is equivalent to the 
budget for these activities in fiscal year 2012 in the authorization 
act. For traceability, the transferred activities have been 
consolidated in a specific budget line within space technology--ETD. 
NASA plans to capitalize on technical synergies in the project elements 
from crosscutting space technology development and exploration 
technology development by managing these programs in an integrated 
manner. Technologies within ETD enable NASA to conduct future human 
missions beyond LEO with new capabilities that have greater 
affordability. Technologies for future human exploration missions are 
matured through ground-based and laboratory testing, relevant 
environment flight demonstrations, and technology test beds, including 
the ISS. These technologies may then be designed into future NASA human 
exploration missions with acceptable levels of risk. ESMD will continue 
to set the prioritized requirements for ETD efforts and will serve as 
the primary customer for these mission-focused ETD products. In 
addition to ongoing-guided Exploration-specific technology development 
activities, in fiscal year 2012, NASA will use 30 percent of the funds 
within this account to fund competitive awards, drawing proposals from 
industry, academia, and the NASA Centers for innovative exploration-
specific technologies and demonstration missions.
                              exploration
    The fiscal year 2012 budget request for exploration is $3,948.7 
million. In fiscal year 2012 and beyond, NASA's exploration programs 
will continue to support the U.S. economy by enabling safe, reliable, 
and cost effective U.S.-provided commercial access to LEO for crew and 
cargo as soon as possible. Included in this budget request is funding 
for three new, robust categories or ``themes'' that will expand the 
capabilities of future space explorers far beyond those we have today:
  --Human Exploration Capabilities;
  --Commercial Spaceflight; and
  --Exploration Research and Development.
    These systems and capabilities include launch and crew vehicles for 
missions beyond LEO--the Moon, asteroids, and eventually Mars, 
affordable commercial crew access to the ISS, and technologies and 
countermeasures to keep astronauts healthy and productive during deep 
space missions, and to reduce the launch mass and cost of deep space 
missions.
    The fiscal year 2012 budget request includes $2,810.2 million for 
Human Exploration Capability (HEC). HEC is the successor to the 
constellation systems theme; programs and projects under HEC will 
develop the launch vehicles and spacecraft that will provide the 
initial capability for crewed exploration missions beyond LEO. In 
particular, HEC's SLS program will develop the heavy-lift vehicle that 
will launch the crew vehicle, other modules, and cargo for these 
missions. The MPCV program will develop the vehicle that will carry the 
crew to orbit, provide emergency abort capability, sustain the crew 
while in space, and provide safe re-entry from deep-space return 
velocities. NASA is currently developing plans for implementing the SLS 
and MPCV programs, including efforts to transition the design and 
developmental activities of the Constellation program. A major element 
of the transition involves shifting design and developmental efforts 
away from a closely coupled system (Ares I and Orion) to a more general 
launch vehicle (SLS) and crew vehicle (MPCV).
    Consistent with direction in the NASA Authorization Act of 2010, 
the agency has developed a reference vehicle design for the SLS that is 
derived from Ares and space shuttle hardware. The current concept 
vehicles would utilize a liquid oxygen/liquid hydrogen core with five 
RS-25 Space Shuttle Main Engine (SSME)-derived engines, five-segment 
solid rocket boosters, and a J-2X-based upper stage rocket for the SLS. 
This would allow for use of existing shuttle and Ares hardware assets 
in the near term, with the opportunity for upgrades and/or competition 
downstream for eventual upgrades in designs needed for affordable 
production. For the MPCV, NASA has chosen the beyond-LEO design of the 
Orion Crew Exploration Vehicle as the reference vehicle design for the 
MPCV. The Orion development effort has already benefited from 
significant investments and progress to date, and the Orion 
requirements closely match MPCV requirements as defined in the 
authorization act, which include utilizing the MPCV for beyond-LEO crew 
transportation and as backup for ISS crew transportation.
    NASA will evaluate the reference vehicle designs this spring and 
incorporate results of industry studies that the agency solicited 
earlier this fiscal year. In particular, one of the greatest challenges 
for NASA is to reduce the development and operating costs for human 
spaceflight missions to sustain a long-term U.S. human spaceflight 
program. We must plan and implement an exploration enterprise with 
costs that are credible, sustainable, and affordable for the long term 
under constrained budget environments. As such, our development efforts 
will be dependent on sufficiently stable funding over the long term, 
coupled with a successful effort on the part of NASA and the eventual 
industry team to reduce costs and to establish stable, tightly managed 
requirements.
    NASA plans to approach affordability comprehensively in pursuit of 
exploration beyond LEO to increase the probability that key elements 
are developed and missions can occur within a realistic budget profile. 
For all development activities, we will emphasize innovative 
acquisition and program management approaches, including risk 
management, to reduce recurring and operations costs. In doing so, 
plans for bringing the MPCV and SLS vehicles online with lower costs 
will be as credible and realistic as possible, and significant efforts 
will be made to ensure cost risks will be well understood. Overall, 
NASA's designs and acquisition strategies for the MPCV and SLS programs 
will not be solidified until all of the pertinent knowledge on cost and 
safety is obtained to ensure an affordable and executable solution. 
NASA expects to finalize acquisition strategies this summer, and will 
obtain independent, external assessments of cost and schedule for SLS 
and MPCV design options during the spring or summer timeframe. We will 
share this information with the Congress--including members of this 
subcommittee--as soon as we are able to do so.
    The fiscal year 2012 budget request includes $850 million for the 
commercial spaceflight theme in exploration. This effort will provide 
incentives for commercial providers to develop and operate safe, 
reliable, and affordable commercial systems to transport crew and cargo 
to and from the ISS and LEO. This approach will provide assured access 
to the ISS, strengthen America's space industry, and provide a catalyst 
for future business ventures to capitalize on affordable access to 
space. A vibrant commercial space industry will add well-paying, high-
tech jobs to the U.S. economy, and will reduce America's reliance on 
foreign systems.
    In 2010, NASA further expanded its successful Commercial Crew 
Development (CCDev) program by initiating CCDev2 in October 2010. In 
doing so, we solicited proposals to further advance commercial crew 
transportation system concepts and mature the design and development of 
system elements, such as launch vehicles and spacecraft. Depending on 
available funding in fiscal year 2011, we expect to select a series of 
CCDev2 proposals for award early this year. Once finalized, the 
resulting CCDev2 agreements should result in significant maturation of 
commercial crew transportation system capabilities, with consideration 
given to NASA's draft human certification requirements and standards or 
the industry equivalent to those requirements and standards.
    Beginning in fiscal year 2012, NASA proposes to take the 
accomplishments and lessons learned from the successes of the first two 
rounds of CCDev and incorporate them into a new initiative called 
CCDev3. This initiative will facilitate the development of a U.S. 
commercial crew space transportation capability with the goal of 
achieving safe, reliable and cost effective access to and from LEO and 
the ISS. Once the commercial crew transportation capability is matured 
and available to customers, NASA plans to purchase transportation 
services to meet its ISS crew rotation and emergency return 
obligations.
    For CCDev3, NASA plans to award competitive, pre-negotiated, 
milestone-based agreements that support the development, testing, and 
demonstration of multiple commercial crew systems. The acquisition 
strategy for CCDev3 is still in development, but it will feature pay-
for-performance milestones, a fixed Government investment, the use of 
negotiated service goals instead of detailed design requirements, and a 
requirement for private capital investment.
    In calendar year 2011 work on NASA's Commercial Orbital 
Transportation Services (COTS) program will continue under the 
commercial spaceflight theme, using previous-year funding. Both of 
NASA's funded COTS partners continue to make progress in developing 
their cargo transportation systems, based in part on NASA's financial 
and technical assistance. In particular, on December 8, 2010, Space 
Exploration Technologies (SpaceX) successfully launched its Falcon 9 
vehicle, and demonstrated separation of the Dragon spacecraft and 
completion of two full orbits, orbital maneuvering and control, re-
entry, parachute descent, and spacecraft recovery after splashdown in 
the Pacific Ocean. For its part in COTS, NASA's second funded partner, 
Orbital Sciences Corporation, recently began integration and testing of 
its Cygnus Service Module and Taurus II launch vehicle. Both companies 
are expected to complete their remaining COTS demonstration flights in 
late 2011 or early 2012.
    The fiscal year 2012 budget request for ESMD includes $288.5 
million for ERD. The ERD theme will expand fundamental knowledge that 
is key to human space exploration, and will develop advanced 
exploration systems that will enable humans to explore space in a more 
sustainable and affordable way. ERD will be comprised of the Human 
Research Program (HRP) and the Advanced Exploration Systems (AES) 
program, which will provide the knowledge and advanced human 
spaceflight capabilities required to implement the U.S. Space 
Exploration Policy.
    In fiscal year 2012, HRP and its associated projects will continue 
to develop technologies, countermeasures, diagnostics, and design tools 
to keep crews safe and productive on long-duration space missions. As 
astronauts journey beyond LEO, they will be exposed to microgravity, 
radiation, and isolation for long periods of time. Keeping crews 
healthy and productive during long missions will require new 
technologies and capabilities. Therefore, continued research is 
required to study how the space environment, close quarters, heavy 
workloads, and prolonged time away from home contribute to stress, and 
then develop technologies that can prevent or mitigate these effects. 
More specifically, in fiscal year 2012, HRP will support approximately 
15-20 biomedical flight experiments on the ISS and deliver the next-
generation space biomedical ultrasound device to enhance the station's 
human research facility capability. Other activities will include 
development of a training program for ultrasound diagnosis of fractures 
and the evaluation of blood analysis technology for astronaut health 
monitoring. Additionally, HRP projects will deliver an enhanced design 
tool for vehicle radiation shielding assessments and release the second 
version of an acute radiation risk model. In the area of behavioral 
health and performance, researchers will complete a sleep-wake 
actigraphy report on the ISS crew. In order to support its research 
requirements, HRP will release two NASA Research Announcements 
addressing space radiation health risks and human physiological changes 
associated with spaceflight.
    AES will continue projects from the exploration technology 
development program that are close to application and closely tied to 
human safety in space. In fiscal year 2012, AES will assume 
responsibility for developing and demonstrating innovative prototype 
systems to provide basic needs such as oxygen, water, food, and shelter 
that can operate dependably for at least a year. AES will demonstrate 
these systems in ground test beds, Earth-based field and underwater 
tests, and ISS flight experiments. In fiscal year 2012, AES will use a 
ground test bed to demonstrate the reliability of life support system 
components, and a portable life support system for an advanced space 
suit will be tested in a vacuum chamber. Ground-based analog field 
tests and underwater tests will validate a prototype Deep Space 
Habitat, where the crew will live during transit on long missions, and 
a space exploration vehicle that will allow the crew to closely 
approach an asteroid, explore its surface, and conduct surface 
exploration outside the vehicle. AES plans to use innovative approaches 
for the rapid development of system concepts, such as small, focused 
teams of NASA engineers and technologists working with industry 
partners to gain hands-on experience. AES will pilot these processes to 
improve the affordability of future exploration programs.
                            space operations
    The fiscal year 2012 budget request includes $4,346.9 million for 
space operations, funding the space shuttle program retirement, the ISS 
program, and the space and flight support program.
    The fiscal year 2012 budget request for the space shuttle program 
is $664.9 million. In 2011, the shuttle is slated to fly out its 
remaining missions. On February 24, Discovery launched on mission STS-
133, carrying supplies to ISS, as well as the permanent Multi-purpose 
Module (PMM), a Multi-Purpose Logistics Module (MPLM) transformed to 
remain on orbit, expanding the station's storage volume. In April 2011, 
Endeavour, STS-134, will carry the Alpha Magnetic Spectrometer (AMS) 
and attach it to the ISS' truss structure. The final shuttle mission, 
STS-135, is targeted for late June of this year, if funding is 
available. During the mission, Atlantis will deliver critical supplies 
to the ISS and recover and return to Earth an ammonia coolant pump 
module that failed on the station last year.
    Following the completion of the remaining missions in 2011, the 
space shuttle program will focus on transition, retirement, and 
disposition of program assets and workforce. Approximately 1.2 million 
line items of personal property (e.g., equipment) are associated with 
the space shuttle program, with about 500,000 of these line items 
associated with the space shuttle propulsion system elements (the 
reusable solid rocket motor, the solid rocket booster, the external 
tank, and space shuttle main engines). As part of this effort, NASA 
will assess space shuttle property (including main propulsion system 
elements) applicability to the SLS.
    On April 12, 2011, we will celebrate the 50th anniversary of human 
spaceflight, and the 30th anniversary of the first flight of space 
shuttle Columbia on STS-1. NASA recognizes the role the space shuttle 
vehicles and personnel have played in the history of space activity, 
and looks forward to transitioning key workforce, technology, 
facilities, and operational experience to a new generation of human 
spaceflight exploration activities.
    The fiscal year 2012 budget request includes funding for Space 
Program Operations Contract (SPOC) pension liability. The United Space 
Alliance (USA) notified NASA of its desire to terminate all defined 
pension benefit plans as of December 31, 2010. USA has consistently 
incorporated and billed the maximum allowable costs into their indirect 
rates, but the recent deterioration of the equities and credit markets 
has caused their plan to be underfunded by an estimated $500-$600 
million. SPOC, which accounts for almost all of USA's business base, is 
a cost-type contract covered by the Cost Accounting Standards (CAS). 
These standards stipulate that any costs of terminating plans are a 
contractual obligation of the Government (if deemed allowable, 
allocable, and reasonable). NASA and USA entered into an agreement 
under which USA froze their pension plans as of December 31, 2010 and 
deferred any decision about terminating their plan until after December 
31, 2011, allowing NASA to address this issue, if it arises, with 
fiscal year 2012 funds, if appropriated. USA and NASA have instituted a 
working group to discuss pension termination options and have met with 
the Pension Benefit Guaranty Corporation to discuss potential options. 
If funding remains after the pension plan termination, it will be used 
to defray space shuttle closeout costs that would otherwise require 
fiscal year 2013 funding. If there is a shortfall, it will reduce 
available space shuttle funds for closeout and some activity could move 
later than planned. We will keep the Congress informed as this issue 
evolves.
    The fiscal year 2012 budget request for the ISS program is $2,841.5 
million, of which $1,656 million is for operations, research, and 
utilization, and $1,186 million for crew and cargo transportation. The 
ISS has transitioned from the construction era to that of operations 
and research, with a six-person permanent crew, three major science 
labs, an operational lifetime through at least 2020, and a growing 
complement of cargo vehicles, including the European Automated Transfer 
Vehicle and the Japanese H-II Transfer Vehicle. The fiscal year 2012 
budget request reflects the importance of this unparalleled research 
asset to America's human spaceflight program.
    In addition to conducting research in support of future human 
missions into deep space, astronauts aboard the ISS will carry out 
experiments anticipated to have terrestrial applications in areas such 
as biotechnology, bioengineering, medicine, and therapeutic treatment 
as part of the National Laboratory function of the station. In support 
of this effort, NASA has recently released a Cooperative Agreement 
Notice for an independent nonprofit organization to manage the 
multidisciplinary research carried out by NASA's National Laboratory 
partners. This organization will:
  --act as a single entry point for non-NASA users to interface 
        efficiently with the ISS;
  --assist researchers in developing experiments, meeting safety and 
        integration rules, and act as an ombudsman on behalf of 
        researchers;
  --perform outreach to researchers and disseminate the results of ISS 
        research activities; and
  --provide easily accessed communication materials with details about 
        laboratory facilities, available research hardware, resource 
        constraints, and more.
    The fiscal year 2012 budget request for ISS reflects increased 
funding for the transportation required to support this research.
    The ISS transportation budget also supports NASA's continued use of 
the Russian Soyuz spacecraft for crew transportation and rescue 
services, pending the availability of a domestic crew transportation 
system, as well as U.S. commercial cargo transportation. The ISS 
transportation budget supports NASA's Cargo Resupply Services suppliers 
as they continue to make progress toward fielding their cargo resupply 
vehicles, which will be critical to the maintenance of ISS after the 
retirement of the space shuttle. We anticipate that the first 
commercial resupply flight will take place by the end of this year, and 
that both providers will have their systems operational in 2012.
    The fiscal year 2012 budget request for Space and Flight Support 
(SFS) is $840.6 million. The budget request provides for critical 
infrastructure indispensable to the Nation's access to and use of 
space, including Space Communications and Navigation (SCaN); Launch 
Services Program (LSP); Rocket Propulsion Test (RPT); and Human Space 
Flight Operations (HSFO). The SFS budget also includes investment in 
the 21st Century Space Launch Complex, intended to meet the 
infrastructure requirements of the SLS, MPCV, and commercial cargo/
launch services providers. It will increase operational efficiency and 
reduce launch costs by modernizing the Florida launch capabilities for 
a variety of NASA missions, which will also benefit non-NASA users.
    In fiscal year 2012, the SCaN program will continue to improve the 
robustness of the Deep Space Network (DSN) through its efforts to 
replace the aging 70m antenna capability with 34m antennae, launch 
Tracking and Data Relay Satellite (TDRS)-K and continue the development 
of TDRS--L. In the area of technology, we will conduct on-orbit tests 
using the Communication Navigation and Networking Reconfigurable Test 
bed (CoNNeCT), integrate the optical communications system on the Lunar 
Atmosphere and Dust Environment Explorer (LADEE) spacecraft, and begin 
operational space mission use of Disruption Tolerant Networking 
communications. The SCaN operational networks will continue to provide 
communications and tracking services to more than 75 spacecraft and 
launch vehicles during fiscal year 2012. LSP has several planned NASA 
launches in fiscal year 2012 including the NPOESS Preparatory Project 
(NPP), MSL, Nuclear Spectroscopic Telescope Array (NuSTAR), TDRS-K, and 
RBSP, and will continue to provide support for the development and 
certification of emerging launch services. The RPT program will 
continue to provide test facility management, and provide maintenance, 
sustaining engineering, operations, and facility modernization projects 
necessary to keep the test-related facilities in the appropriate state 
of operational readiness. HSFO includes Crew Health and Safety (CHS) 
and Space Flight Crew Operations (SFCO). SFCO will continue to provide 
trained crew for ISS long-duration crew rotation missions. CHS will 
identify and deliver necessary core medical capabilities for 
astronauts. In addition, CHS will gather astronaut medical data 
critical for determining medical risk as a result of spaceflight and 
how best to mitigate that risk. NASA has enlisted the NRC to conduct an 
independent study of the activities funded within NASA's HSFO program, 
focusing on the role, size, and training requirements of the human 
spaceflight office after space shuttle retirement and space station 
assembly completion.
    The fiscal year 2012 budget request also establishes a new line 
item called Mission Operations Sustainment, which will address future 
space operations functions essential to NASA's human spaceflight 
mission, including funding to purchase U.S. commercial crew 
transportation services to and from ISS once they are developed, and 
key ground and space infrastructure improvements required by the Space 
Network (SN) in order to accommodate anticipated demand in the out 
years; the Mission Operations Sustainment budget would be utilized to 
fund this performance gap. Although the exact amount of funding 
required for these needs is unknown, it is clear that NASA's human 
spaceflight mission cannot be sustained without resources provided by 
Missions Operations Sustainment beyond fiscal year 2012. The agency 
will perform the requisite technical and program analysis and planning, 
and the results will be reflected in the fiscal year 2013 budget 
request.
                               education
    The fiscal year 2012 budget request for education is $138.4 
million. This budget request furthers NASA's commitment to inspiring 
the next generation of explorers in the science, technology, 
engineering, and mathematics (STEM) disciplines. In fiscal year 2012, 
NASA will continue to strongly support the administration's STEM 
priorities and to capitalize on the excitement of NASA's mission to 
stimulate innovative solutions, approaches, and tools that inspire 
student and educator interest and proficiency in STEM disciplines. The 
agency's education strategy will increase its impact on STEM education 
by further focusing K-12 efforts on middle-school pre- and in-service 
educator professional development. It includes an increased emphasis on 
providing experiential opportunities for students, internships, and 
scholarships for high school and undergraduate students. NASA higher 
education efforts will increasingly target community colleges, which 
generally serve a high proportion of minority students, preparing them 
for study at a 4-year institution. NASA will use its unique missions, 
discoveries, and assets (e.g., people, facilities, education 
infrastructures) to inspire student achievement and educator teaching 
ability in STEM fields.
    In fiscal year 2012, NASA will support the administration's STEM 
education teaching and learning improvement efforts, including the 
America Creating Opportunities to Meaningfully Promote Excellence in 
Technology, Education, and Science (America COMPETES) Reauthorization 
Act of 2010, Race to the Top and Educate to Innovate, while continuing 
efforts to incorporate NASA missions and content into the STEM 
education initiatives of other Federal agencies. This may include 
providing competitions and challenges, supporting clearinghouses of 
Federal STEM education resources, providing high-quality professional 
development, and other engagements.
    NASA will continue the Summer of Innovation (SoI) Pilot through 
partnerships with organizations that currently work with girls, 
minorities, and low-income students in grades 4-9 in summer and 
extended learning settings. The SoI project will deepen and broaden the 
efforts of communities and schools to successfully engage these 
students by providing high-quality, inquiry-based content, customized 
support, and access to NASA people, facilities and technology.
    NASA will continue to partner with universities, professional 
education associations, industry, and other Federal agencies to provide 
K-12 teachers and university faculty with experiences that capitalize 
on the excitement of NASA discoveries to spark student interest and 
involvement in STEM disciplines. Examples of experiences include 
research and hands-on engineering in our unique facilities and on a 
variety of real-world platforms that include high-altitude balloons, 
sounding rockets, aircraft, and satellites. NASA will also partner with 
science centers, museums, planetariums, and community-based education 
providers to allow informal educators to engage students in NASA's 
real-time, cutting-edge science and engineering discoveries and 
challenges.
    The fiscal year 2012 budget request places increased emphasis on 
cyber-learning opportunities and the use of the ISS National Laboratory 
to engage students (at all levels) in launch activities, research and 
engineering grants, and courses based upon NASA science and 
engineering.
    In fiscal year 2012, the agency aims to increase the availability 
of opportunities to a diverse audience of educators and students, 
including women, minorities, and persons with disabilities. An example 
is the Innovations in Global Climate Change Education project that will 
be implemented within the Minority University Research and Education 
Program. The project provides opportunities for students and teachers 
to conduct research using NASA data sets to inspire achievement and 
improve teaching and learning in the area of global climate change.
                          cross-agency support
    The fiscal year 2012 budget request includes $3,192 million for 
cross agency support, which provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the agency. These important functions 
align and sustain institutional and program capabilities to support 
NASA missions by leveraging resources to meet mission needs, 
establishing agency-wide capabilities, and providing institutional 
checks and balances. Within this budget request, NASA has taken steps 
to reduce its administrative expenses, including a partial hiring 
freeze and reduced travel.
    NASA's fiscal year 2012 budget request includes $2,402.9 million 
for Center management and operations, which funds the critical ongoing 
management, operations, and maintenance of nine NASA Centers and major 
component facilities. NASA Centers provide high-quality support and the 
technical engineering and scientific talent for the execution of 
programs and projects. Center management and operations provides the 
basic support required to meet internal and external legal and 
administration requirements; effectively manage human capital, 
information technology, and facility assets; responsibly execute 
financial management and all NASA acquisitions; ensure independent 
engineering and scientific technical oversight of NASA's programs and 
projects in support of mission success and safety considerations; and, 
provide a safe, secure, and sustainable workplace that meets local, 
State, and Federal requirements. Cross-agency support also funds salary 
and benefits for civil service employees at NASA Centers who are 
assigned to work on Center management and operations projects. In 
addition, the account contains center-wide civil service personnel 
costs, such as institutionally funded training.
    NASA's fiscal year 2012 budget request includes $789.1 million for 
Agency Management and Operations, which funds the critical management 
and oversight of agency missions, programs and functions, and 
performance of NASA-wide activities, including five programs:
  --Agency management;
  --Safety and mission success;
  --Agency Information Technology Services;
  --Strategic capabilities assets program; and
  --Agency management and operations civil service labor and expenses.
    Agency management supports executive-based, agency-level functional 
and administrative management requirements, including, but not limited 
to:
  --Health and medical;
  --Environmental;
  --Logistics;
  --General counsel;
  --Equal opportunity and diversity;
  --Internal controls;
  --Procurement;
  --Human resources; and
  --Security and program protection.
    Agency management provides for the operational costs of 
Headquarters as an installation; institutional and management 
requirements for multiple agency functions; assessment and evaluation 
of NASA program and mission performance; strategic planning; and, 
independent technical assessments of agency programs.
    Safety and mission success activities are required to continue 
improving the workforce, and strengthening our acquisition processes, 
including maintaining robust checks and balances, in order to improve 
the safety and likelihood of mission success for NASA's programs 
throughout their lifecycles. The engineering, safety and mission 
assurance, health and medical independent oversight, and technical 
authority components are essential to NASA's success. They were 
established or modified in direct response to several major Government 
accident and mission failure investigation findings in order to reduce 
the likelihood of loss of life and/or mission in our human and robotic 
programs. The budget request also supports operation of three 
activities that each provides a unique focus in support of the 
independent oversight and technical authority implementation:
  --the Software Independent Verification and Validation (IV&V) 
        program;
  --the NASA Engineering and Safety Center (NESC); and
  --the NASA Safety Center located at the Glenn Research Center.
    Agency Information Technology Services (AITS) encompasses agency-
level cross-cutting services and initiatives in information technology 
(IT) innovation, business and management applications, and 
infrastructure necessary to enable the NASA mission. AITS includes 
management of NASA's scientific and technical information; identity, 
credential and access management services; overarching information 
security services; enterprise-level business systems; and, other agency 
operational services, such as email, directory services, and enterprise 
licenses. NASA's Security Operations Center (SOC) will continue to 
mature capabilities to improve security incident prevention, detection, 
response, and management. NASA will continue implementation of major 
agency-wide procurements to achieve:
  --consolidation of IT networks leading to improved network 
        monitoring, management, and reliability;
  --consolidation of desktop/laptop computer services and mobile 
        devices to achieve improved security and enable NASA Centers 
        and programs to realize improved efficiencies;
  --consolidation of agency public Web site/application management to 
        improve the agency security posture and to facilitate access to 
        NASA data and information by the public;
  --minor enhancement and maintenance of integrated agency business 
        systems to provide more efficient and effective agency 
        operations; and
  --reduction in overall agency data centers and related infrastructure 
        currently funded outside the AITS budget.
    The Strategic Capabilities Assets Program (SCAP) funds key agency 
test capabilities and assets, such as an array of flight simulators, 
thermal vacuum chambers, and arc jets, to ensure mission success. SCAP 
ensures that assets and capabilities deemed vital to NASA's current and 
future success are sustained in order to serve agency and national 
needs. All assets and capabilities identified for sustainment either 
have validated mission requirements or have been identified as 
potentially required for future missions, either internally to NASA or 
by other Federal entities.
    The Agency Management and Operations Civil Service Labor and 
Expenses funds salary and benefits for civil service employees at NASA 
headquarters, as well as other headquarters personnel costs, such as 
mandated training. It also contains labor funding for agency-wide 
personnel costs, such as agency training, and workforce located at 
multiple NASA Centers that provide the critical skills and capabilities 
required to execute mission support programs agency-wide.
       construction and environmental compliance and restoration
    The fiscal year 2012 budget request includes $450.4 million for 
construction and environmental compliance and restoration. NASA 
construction and environmental compliance and restoration provides for 
the design and execution of all facilities construction projects, 
including discrete and minor revitalization projects, demolition of 
closed facilities, and environmental compliance and restoration. The 
fiscal year 2012 budget request includes $397.9 million for the 
Construction of Facilities (CoF) program, which funds capital repairs 
and improvements to ensure that facilities critical to achieving NASA's 
space and aeronautics programs are safe, secure, sustainable, and 
operate efficiently. The agency continues to place emphasis on 
achieving a sustainable and energy-efficient infrastructure by 
replacing old, inefficient, deteriorated buildings and horizontal 
infrastructure with new, efficient, and high-performance buildings and 
infrastructure that will meet NASA's mission needs while reducing the 
agency's overall footprint and future operating costs. The CoF program 
prioritizes this budget based on risk of impact to NASA and Center 
missions, safety issues and accessibility. The fiscal year 2012 budget 
request includes $52.5 million for the Environmental Compliance and 
Restoration (ECR) program, which supports the ongoing cleanup of sites 
where NASA operations have contributed to environmental problems. The 
ECR program prioritizes these efforts to ensure that human health and 
the environment are protected. This program also supports strategic 
investments in sustainable environmental methods and practices aimed at 
reducing NASA's environmental footprint and lowering the risk of future 
cleanups.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       2012 CONTINUING RESOLUTION

    General Bolden. Thank you, ma'am.
    Senator Mikulski. Now, we have, in other hearings, been 
talking about asking administrators about the consequences of 
the continuing resolution. Actually, where we are today, you're 
going to ask us the consequences of the continuing resolution. 
Rather than going into that today, here is what I suggest:
    At midnight today, the Senate Appropriations Committee will 
present its bill. It, as I understand it, will be on the Web at 
www.appropriations.senate.gov.
    Am I correct?
    Senator Cochran. I'm not sure.
    Senator Mikulski. Well----
    Senator Cochran. I would defer to your judgment.
    Senator Mikulski [continuing]. He's the ranking member of 
the full committee. So--but pretty much it will come out around 
midnight, that'll be the full bill.
    My suggestion to you, and it would be enormously helpful, 
is that, when that comes out, I know you're going to scrub it--
--
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. To see what we did, so you 
know what you need to do. When you do that, it would be useful 
if you then could share with Senator Hutchison, Senator Inouye, 
Senator Cochran and I, what you think that means to NASA and 
what you think that means to 2012. We would be in speculative 
number games, and we're all rushing to meet those deadlines. 
And I know there's always a leadership blip here or there.
    So, what we want to say, as full partners, scrub what we've 
done, then come back and tell us what it means to 2012, 
because, in effect, you're going to be below 2010.
    General Bolden. Yes, ma'am.
    Senator Mikulski. Okay?
    General Bolden. Madam Chair, we'll do that and look forward 
to it.

                                  JWST

    Senator Mikulski. Now, let's go to the 2012, as proposed by 
the President and your advocacy today.
    We want to join with the President in his national goal of 
out-building and out-innovating and out-educating. At the same 
time, we need to be stewards of the money.
    I'd like to raise some questions about those things that 
could be targets for big cuts, particularly for those who have 
not spent the time on NASA, like our colleagues at the table. 
That goes to the JWST.
    The JWST is scheduled to be 100 times more powerful than 
the Hubble telescope. But, we were troubled about its 
management. We were troubled about the use of money. We asked 
for a report, the Cassini report, which then said it was 
technically sound, but we had to worry how--we, meaning NASA, 
had to have a real sense of urgency related to management and 
keeping on track for both deadlines and expenditures. You and I 
have had a private conversation about that some weeks ago.
    But, could you tell us now: What is NASA doing, number one, 
to have a sense of urgency; number two, that it has top-level 
attention--it hasn't been delegated to the coordinator of the 
coordinator of the coordinator; and that we have this 
spectacular opportunity on track now? Because, quite frankly, 
we--``we'', on a bipartisan basis, cannot sustain technology 
with repeated cost overruns. The House won't put up with it. 
And, quite frankly, with no money to spare, we won't, either.
    So, we want this telescope; it's important to our future. 
Tell us what you're going to do now to make sure we can deliver 
this; what your timeline is; and what your management and 
urgency activities are.
    General Bolden. Senator, as you and I discussed when we did 
talk at Wallops and, as I told you then, I don't think there's 
anyone who was more disappointed and angry than I when we got 
to the bottom of the situation, where we found ourselves with 
Hubble. But, since then, we have moved with urgency. As I 
mentioned in my opening statement, the telescope continues to 
make exceptional technological progress. But, I have made some 
significant management changes in NASA. The program now is my 
responsibility, and I have delegated my associate 
administrator, Chris Scolese, to oversee that program for me. 
He meets with the team on a regular basis, several times a 
week, and also meets with some of your staff periodically.
    Senator Mikulski. What is the team?
    General Bolden. The team consists of Rick Howard, who is 
the program manager at NASA headquarters; and Ed Weiler, who is 
the Associate Administrator for Science. The program comes 
directly to him now. I extracted it from its former division, 
in astrophysics, because it was unfair to put a program of that 
magnitude in the astrophysics division.
    Senator Mikulski. What are you doing about meeting with the 
private sector, building it?
    General Bolden. We are working with Northrop Grumman, which 
is our prime contractor. We actually talk to Gary Ervin; I talk 
to Wes Bush periodically. They have made some management 
changes, and I would defer to them to explain to you what 
they've done. But, we communicate with them on a routine basis. 
As I said, Chris Scolese is usually talking to Gary Ervin every 
week. We're trying to make sure that----
    Senator Mikulski. So, now, you've got this on track----
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. And you review it. Now, tell 
me, how much money is needed to keep JWST on track? And is it 
in 2012?
    General Bolden. Senator, we are working to complete our 
bottoms-up assessment that will allow us to bring you a draft 
baseline assessment, hopefully by the end of this month. The 
final----
    Senator Mikulski. Do you know----
    General Bolden. Do I know----
    Senator Mikulski [continuing]. This is----
    General Bolden [continuing]. What it is----
    Senator Mikulski. Yes, this is not argumentative or 
adversarial. I'm trying to drill deep on this issue.
    General Bolden. We honestly do not think that we need money 
in fiscal year 2012 that will allow us to continue to carry the 
program to the point where we can make what we think now is a 
reasonable launch date of 2018. If something does happen, and 
we find that we have more funds than necessary in fiscal year 
2012, we will put them to use to accelerate some of the testing 
that we're doing or some of the other developmental work. Right 
now, we are looking at how much we need to add to fiscal year 
2012----
    Senator Mikulski. Well----
    General Bolden [continuing]. To come to this subcommittee 
and----

                             CASSINI REPORT

    Senator Mikulski [continuing]. Going back to the Cassini 
report----
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. Which I know is advisory----
    General Bolden. Yes.
    Senator Mikulski [continuing]. They said they needed $500 
million each year, in 2011 and 2012. And it's not there.
    General Bolden. Senator, I respect the Cassini report. When 
we looked at what they said, and where we are in these fiscal 
times, I cannot responsibly bring myself to this subcommittee, 
or any other, and propose that someone try to find $500 million 
a year for the foreseeable future. We are working up a 
baseline, and there will be some additional spending that will 
be required, but we have not arrived at that yet. But, I hope 
to have you an original estimate by the end of this month.
    Senator Mikulski. Well, my time is coming to a close, and I 
want my colleagues to be able to fully participate. I know of 
their keen interest, because, you know, we have big tickets in 
human spaceflight, and this telescope is a big ticket in space 
science.
    First of all, we really appreciate the President adding $5 
billion to the science budget.
    But, let me tell you what I worry about: ``Oh, we're going 
to live in our fiscal time and time of our austerity, and 
spartan.'' I'm all for that. Everyone at this table is for a 
more frugal Government. But, what I don't want to be is--I'm 
ready to be frugal, but I don't want to be foolish. So, let me 
tell you what I worry about in being foolish: that, because we 
skimp now, we then end up paying two or three times later. And 
that's what I don't want. I really need a realistic picture so 
that we could--this is a rational group of people who work 
together. We need to hear, truly, what is needed, not what you 
think you can get Office of Management and Budget to agree to--
--
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. Or what we can even get the 
House or ourselves to agree to. But, we need to know that. And 
what I also need to know is, if we don't spend the money now, 
when will we spend it, and will it ultimately cost us more? And 
I might be wrong, but I think we've been around the track on 
some of these things. Either the thing grows and becomes a 
boondoggle--you're now standing sentry, that won't happen. But, 
I'm again concerned that if we don't do the right thing now, 
it'll cost us more in the future. So, we really do need your 
wise counsel on this.
    And we thank the President's support of science.
    Senator Hutchison.
    Senator Hutchison. I'm going to defer to Thad, and then 
I'll go after Sherrod.
    Senator Mikulski. Senator Cochran.

               TESTING CAPABILITY AT STENNIS SPACE CENTER

    Senator Cochran. Madam Chairman, thank you very much for 
your leadership of our subcommittee and working in concert with 
our other subcommittee members.
    Mr. Administrator, we appreciate your cooperation with our 
subcommittee, and your presentation today.
    Despite some uncertainties about the fiscal year 2011 
budget, I'm hopeful that we can stay on track to meet the goal 
of developing our heavy lift capacity for operation by 2016. 
And I'm hopeful that's at a 130-ton capacity. And I know that 
your advice is important in keeping us on track, in terms of 
taking the right steps with funding of those activities that 
will help us reach that goal. We want to be sure we have ample 
rocket testing results and an infrastructure to support this 
capability. We know that safety and competence and national 
interest are all goals that we share. And we know you are on 
that same team, and we appreciate your leadership.
    You mention, in your written testimony, about the 
investment importance of a 21st century launch complex. And it 
strikes me, that's a way to describe what we have in the NASA 
facilities in the Mississippi/Louisiana area, which have become 
so important to this launch infrastructure. Do you have enough 
funding requested in this budget request to ensure that we meet 
our updates to keep the schedules that are in place for fiscal 
year 2011 and 2012, to improve our rocket propulsion test 
infrastructure?
    General Bolden. Senator, as you and I have discussed 
before, the 2012 budget that I put forth will support the 
continued development of our testing capability at Stennis 
Space Center. We intend to complete the construction of the A-3 
Test Stand. As you are probably very well aware, Stennis has 
become rejuvenated and reinvigorated. We have had three tests 
now of the AJ26, just in this year, which is the rocket 
produced by Aerojet for Orbital Sciences Corporation. We have a 
test that's supposed to be going on today. When we get the A-3 
Test Stand done, we'll be able to test even bigger and more 
advanced engines.

                   TESTING COMMERCIAL LAUNCH VEHICLES

    Senator Cochran. What are your views toward using existing 
NASA infrastructure with regard to testing commercial launch 
vehicles?
    General Bolden. We have demonstrated our capability to do 
that. In fact, the first time we tested an engine at Stennis in 
more than 10 years, it was the AJ26, Aerojet-produced. It's a 
Ukrainian rocket that Aerojet has modified for domestic 
production. It is also a rocket that we are currently talking 
to Aerojet about that has potential for upgrade, for even 
heavier lift than the Taurus II.
    Senator Cochran. Do your future plans include subsidizing 
the construction of commercially owned propulsion test 
infrastructure elements?
    General Bolden. I don't use the term ``subsidizing''. We 
provide the test facility, that's what Stennis is. It's the 
propulsion test center for the--we'd like to say it's for the 
world, but it's for the United States. We want to get everybody 
to come there and do their tests. We will make sure that we are 
competitive, in terms of cost, but we will take all comers.
    Senator Cochran. Thank you.
    Thank you, Madam Chairman.
    Senator Mikulski. Senator Brown.

                          TEN HEALTHY CENTERS

    Senator Brown. Thank you, Madam Chair.
    General Bolden, nice to see you, thank you.
    The previous administration declared 10 healthy centers and 
laid out responsibilities for each. When you and I first 
talked, right prior to your confirmation, you assured me this 
policy was no longer needed, because NASA had 10 healthy 
centers. However, in last year's budget, NASA Glenn, in 
Cleveland, was promised the Exploration Technology Development 
Demonstration, the ETDD program. With the fiscal year 2012 
budget request, we're giving $1 billion to the Office of the 
Chief Technologist, being told only that a significant--a 
substantial portion of the working leadership will be at Glenn.
    Additionally, NASA has a history, as you know, of allowing 
its centers to fight among themselves. Not a day goes by that I 
don't hear that Cleveland's going--to that NASA Glenn's going 
to get a mission, or somebody else--1 of the other 9 is trying 
to take a mission from NASA Glenn and from each other. Now, I 
hear some NASA leadership saying that, instead of collaboration 
between and among centers, they want to encourage, again, that 
competition. While I have great respect for Dr. Braun, I've 
seen what happens when the Congress provides NASA latitude to 
shift funds.
    I have two questions on this issue. One, do you have a 
serious commitment to the goals of the previous policy of 10 
healthy centers and the people that work there? Two, how will 
you work with the Congress to detail a more specific plan for 
10 healthy centers?
    General Bolden. Senator, I have a very serious commitment 
to 9 functioning, effective, efficient NASA centers and one 
laboratory, the Jet Propulsion Laboratory. You know, 
``healthy'' is a relative term. Because of the fiscal 
constraints that we are all under now, our centers are 
stressed. You talk about H.R. 1, for example; change like that 
would have a dramatic effect on a center. But, I have the best 
center directors in the world. I have the best workforce in the 
world, and we're doing everything we can to make sure that we 
balance the work across the 10 NASA centers. We want to make 
sure that we have a balanced portfolio in the agency. We want 
to have vibrant involvement in aeronautics, in technology 
development, in science, and in human spaceflight.
    I'm not asking every center to be capable of participating 
in every single thing we do. I want to find out what their 
sweet spot is and then let them go do that. I think the center 
directors enjoy that, the members of the workforce enjoy that. 
But, I am committed to making sure that all of our centers stay 
as strong as they can.

                                  ETDD

    Senator Brown. And I can be assured that ETDD's work will 
be at Glenn, regardless of where the OCT is located.
    General Bolden. The answer is ``Yes''.
    Senator Brown. The people at Glenn don't necessarily 
believe that----
    General Bolden. Well, the----
    Senator Brown [continuing]. You understand.
    General Bolden [continuing]. Point that I tried to explain 
and I think I know the center director does. And it's because--
--
    Senator Brown. He does.
    General Bolden [continuing]. He understands and, as Ray 
Lugo has probably told you before, he's not worried about 
having titles at his center; he is interested in having the 
contracts and the work. So a program management office at a 
center does not mean that the center is going to handle the 
bulk of the work in that program. It just means that 's where 
the focus of the oversight is going to be. But, work on ETDD--
Glenn is where much of it is being done and will be done. So, 
Glenn will make out relatively well.

                    DISPOSITION OF ORBITER VEHICLES

    Senator Brown. Let me shift to an issue that we've talked 
about many times. I'd like you to detail the selection of the 
shuttle that-- the process NASA undertook in deciding where the 
retiring shuttles would be exhibited. I never heard you or your 
top assistant or the White House or anyone else talk about this 
commission, that supposedly was put together 4 years ago, that 
will apparently decide the disposition policy with the NASA 
authorization law that set out guidelines in the role that the 
commission is playing. Could you explain, one, who is the one 
that's ultimately going to decide----
    General Bolden. Is this a commission on deciding where the 
orbiters go?
    Senator Brown. That's my understanding.
    General Bolden. If there is such a thing, I don't know 
about it. I am going to make the decision, probably when I get 
back over to my office this afternoon, so if I need to consult 
with them, somebody should tell me, really quick.
    Senator Brown. Will you just make that decision based on 
the last person you talk to, by chance?
    General Bolden. No, Sir, my team has put together----
    Senator Brown. A ``Yes, Sir'' would have been much more 
preferable.
    Senator Mikulski. You know, you could end up with a 
filibuster on this subcommittee, if you----
    Senator Hutchison. And I have to follow you, Senator Brown.
    General Bolden. My team and I--that's a good point----
    Senator Mikulski. For once, I have no dog, or orbiter, in 
this fight.
    General Bolden. There are--well----
    Senator Brown. So, the decision is totally yours, there is 
no statutory commission to which----
    General Bolden. Not to my knowledge.
    Senator Brown [continuing]. The matrices that you must--on 
which you have to base your decision.
    General Bolden. I have made an effort to keep people, not 
the President, but people close to the President, informed of 
the process that we were following. I have made an attempt to 
keep at least the staffs, here, in both the House and Senate, 
informed of the process that we were following. We offered to 
brief people on the process. We established, I think, 10 
criteria for consideration.
    We had 29 applicants for an orbiter. All of them met the 
criteria, in varying degrees. So, I will make my decision this 
afternoon based on points that were assigned to the degree to 
which they met those criteria. It has nothing to do with where 
it is, or anything. It's just how they fell out in a matrix of 
criteria, and the points awarded for that. There will be 25 
people who won't be happy; 4 who will be really happy.
    Senator Brown. The three shuttles that will be sent to 
these three locations, is-- are you also deciding on the 
Enterprise, the one that has never, and will not have, flown? 
Or are you only making that decision on the three that have 
flown or will have flown?
    General Bolden. The decision is being made on the 
distribution of all four orbiters, because the Smithsonian is 
in competition with everyone else. So, I have four orbiters to 
dispose of. All of them have, I know I'm being picky here, but 
all of them have flown. Enterprise was the first orbiter. It 
conducted all of the approach and landing tests. It flew three 
times--I mean, had some pretty challenging things happen to it, 
also. So, it is quite a vehicle, in and of itself, in terms of 
being a pioneer vehicle. But, those four vehicles will be 
distributed around the country to the four places selected.
    Senator Brown. But, the Enterprise been promised or owned 
in some by some definition, by the Smithsonian?
    General Bolden. By law, the Smithsonian is the recipient of 
all artifacts that come from spaceflight. So, we are working 
with the Smithsonian and my committee to determine just how we 
go about that. But, I will----
    Senator Brown. So, if one of the----
    General Bolden [continuing]. I will make that announcement 
tomorrow----
    Senator Brown. Okay.
    General Bolden [continuing]. At 1 o'clock----
    Senator Brown. If one of those three----
    Pardon me, can I continue for 2 more minutes, Madam Chair?
    This matters a lot to Dayton, Ohio. And I know--and she's 
going to--I understand. I understand. I won't take much----
    If those three--if one of those three that has been defined 
as having a mission and going up and--while the Enterprise is 
defined a little less so, generally--if one of those three goes 
to Washington, goes in the Smithsonian, does that mean that 
this the Enterprise will go somewhere else--I assume.
    General Bolden. If one of them ends up at the Smithsonian--
they only get one. So, that means that I will take possession 
of Enterprise, and then it will be up to NASA to determine 
where Enterprise goes.
    Senator Brown. In that decision, if one of these three goes 
to--one of the first three, or ``the'' three, goes to the 
Smithsonian when you make your decision tomorrow, you will 
then--right then, decide where the, some call it the 
consolation prize, others call it much more than that--you will 
make that decision then----
    General Bolden. I'll make the----
    Senator Brown [continuing]. Where the fourth one goes.
    General Bolden [continuing]. Determination between when I 
leave this session and when I announce it tomorrow, where all 
four----
    Senator Brown. Okay. And----
    General Bolden [continuing]. Space shuttle orbiters are 
going. So, when we make the announcement tomorrow, it will be 
very specific. It will cite the orbiter and its destination.
    Senator Brown. Okay.
    Thank you. Thank you, General.
    General Bolden. This process has been as pure as I could 
make it, and free of any political involvement. I can say that 
until I'm blue in the face, but there will always be someone 
who will have the opinion that was not the case. But, the team 
that was put together before I became the Administrator has 
done an absolutely incredible job over the last couple of 
years. I would just hate to see their work be castigated by 
somebody who assumes that they were unduly influenced. They 
were not.
    Senator Brown. And, General, you of course know that 
Dayton, Ohio, is within a--1 day's drive of 60 percent of 
America's population----
    General Bolden. I do, indeed.
    Senator Brown [continuing]. And that the Wright brothers 
and Neil Armstrong and----
    Senator Mikulski. And John Glenn.
    Senator Brown [continuing]. And John Glenn all called Ohio 
home.
    General Bolden. I know that all very well, from lots of 
phone calls from----
    Senator Mikulski. The only two prominent people I don't 
know from Ohio are Mother Theresa and Nelson Mandela.
    Senator Brown. No, they actually are. Thanks, Madam Chair.
    Senator Mikulski. Senator Hutchison.

              CONSTELLATION PROGRAM CONTRACT MODIFICATION

    Senator Hutchison. The NASA authorization bill allows NASA 
to modify any contract from the Constellation program. And, of 
course, it seems that Orion would be the perfect candidate for 
such action, because the whole theme of the authorization bill 
is to use the technology, expertise, and experience that we've 
already invested in to go to the next generation of vehicle. 
The President himself brought back Orion last year. He wanted 
Orion continued. And your staff and managers agree that Orion 
is the reference vehicle, and easily falls within the scope of 
the authorization law that you have said you are following.
    Yet, it doesn't seem that the contract modifications to 
achieve this result are happening. Do you intend to modify the 
current launch vehicle and Orion contracts, as directed in the 
authorization law, or is it just going to be strung out so that 
eventually it just can't be revived?
    General Bolden. Senator, there may be no requirement for a 
modification on the contract to Orion. The present Orion was 
designed as a deep-space exploration vehicle. If it's found 
that--the basic information that we have at hand today says 
that the scope of the existing Orion contract as a deep space 
exploration vehicle easily maps to the scope of what we call a 
MPCV. It may come to the fact that it matches so well that 
there's no need to modify the contract.
    I will tell you that, in any of the contracts that we have 
today, we cannot pay the amount of money that was contracted X 
number of years ago. So, there will be negotiations among us 
and all of our contractors, because we have got to get our 
costs down. We may have to de-scope the vehicle in some manner. 
Orion is the design reference vehicle for MPCVs. So, what it's 
called----
    Senator Hutchison. Let me just ask you this--are you taking 
the previous contracts, the Constellation, which is no longer, 
and modifying those so that we get the next generation, the 
Orion, both launch and capsule----
    General Bolden. Senator, that's our hope. We have had the 
lawyers, the procurement folks, everybody, look at mapping the 
scope of the existing contracts to what it is we want to do for 
an evolvable heavy lift launch vehicle and MPCV. I'll go back, 
because Senator Cochran mentioned a 130 metric ton vehicle--
that is the ultimate----
    Senator Hutchison. Okay.
    General Bolden. That is where we will end up. We will end 
up with, no question, a 130 metric ton vehicle, because that's 
what we judge is needed if we're going to do a deep space 
exploration to asteroids and Mars and other places.
    Senator Hutchison. Do you----
    General Bolden It will be an evolving program to get there, 
though. The first vehicle that we fly may be a 70 metric ton 
vehicle. But, we will eventually have 130 metric ton vehicle.

               UTILIZATION OF THE CONSTELLATION CONTRACTS

    Senator Hutchison. The budget request, at the $2.8 billion 
level, which is level until 2016--are you telling us that you 
are using the previous experience and expertise from 
Constellation and transferring that in an expeditious and 
timely manner so that it is going to be done in a timely way, 
even with the flat line budget that you are requesting?
    General Bolden. Senator, we are using the experience, 
expertise, and assets of the Constellation program to the 
greatest extent possible. The vehicle Orion is already in 
testing as an MPCV. Lockheed Martin, under its Constellation 
contract, which I am not allowed to terminate at my direction, 
the Constellation program, which does still exist--I told them 
that we should focus on putting our money on technology and 
assets that could move forward to a deep space exploration 
system. And that's what we're doing.
    So, we are not making much progress on a heavy lift vehicle 
right now, because it is not clear that the Ares configuration 
is what you want to go with. As you saw, the design reference 
vehicle, for a space launch system (SLS), is a shuttle-derived 
system, not the Ares system. So, I know that there will be some 
contract mods required to go from an Ares type system to a 
shuttle derived system, which is the design referenced----
    Senator Hutchison. You say that you're not able to----
    General Bolden. Design referenced vehicle for now.
    Senator Hutchison [continuing]. Cancel Orion, but the 
authorization bill vitiated the--or took the place of any 
previous supplemental or appropriations bills. So, the law is 
the authorization bill. Are you saying that you believe that 
you are fully utilizing the previous Constellation contracts 
for the next generation of vehicle, that we are not wasting 
money pursuing something that is now obsolete, but that you are 
expeditiously using that money for----
    General Bolden. Senator----
    Senator Hutchison [continuing]. The Orion vehicle----
    General Bolden. Senator, we are complying with the 
requirements of the authorization act. But, I'm out of my 
league, here, so I will ask your staff and some of my folks 
to--I will say, my understanding is, I am still governed by the 
2010 appropriations----
    Senator Mikulski. Yes.
    General Bolden [continuing]. Law, and that is what says I 
cannot cancel. I can take no action to cancel the Constellation 
program or to stop any expenditures on that program. What I 
did, though, was, I said, I want to make sure that we spend the 
taxpayers' money very prudently. So, in some cases, we stopped 
doing things that were in the Constellation program, because we 
knew they weren't going anywhere, things that had not begun 
yet. Contracts that we hadn't even started, I said, ``Okay, 
let's not start them. We have not funded them, we have not 
started them, let's just stop right there.'' But----
    Senator Mikulski. Let me just cut in here.
    General Bolden. Yes, ma'am.
    Senator Mikulski. Senator Hutchison, Administrator Bolden 
is right, they are still under the excellent authorization you 
and Senator Nelson did, did not remove the prohibition 
regarding Constellation.
    General Bolden. Yes, ma'am.
    Senator Mikulski. However, I think if we all just sit 
tight, look at what we're going to be looking at as the 
continuing resolution moves forward now, I think that you're 
going to see there's some flexibility. So, if everyone could--
your questions are excellent.
    Senator Hutchison. Well, I mean, it's, they can modify and 
use common sense to know that the authorization bill takes the 
place of the original 2010 supplemental----
    General Bolden. And, Senator, you know----
    Senator Hutchison [continuing]. And you are going to get 
more help--hopefully within this week.
    General Bolden. Senator, we've--again, I think the----
    Senator Hutchison. But, I just, our concern is that you 
have not been using the capability that you have for 
modification to stop obsolete things, but continue using the 
same technology, experience, and people, moving forward toward 
Orion.
    General Bolden. Senator, I have directed that we spend 
money on things that will be useful for the exploration system 
going forward. You had an inspector general report that said 
that we were wasting funds by spending money on obsolete 
Constellation contracts, and that is not the case. We took 
issue with that report, and we submitted our own report to you, 
to identify the areas where we were doing exactly what you 
said.
    We are spending money, for example, on the Orion vehicle, 
because it maps well to the MPCV. We are spending money on 
doing some things from the Orion program--from the 
Constellation program--that look like they will map well to an 
SLS. But, we are trying not to spend money on things that will 
not go forward. So, we're not wasting the taxpayers' money.
    Senator Hutchison. Well, that would be our hope. And know 
you know we have worked with your staff and with the Government 
Accountability Office (GAO) to completely clarify, going 
forward after this next continuing resolution, that you will 
have complete freedom to completely follow the Orion pursuit 
and the 2010 law that was passed for authorization.
    Madam Chairman, I do have another question, but----
    Senator Mikulski. Sure.
    Senator Hutchison [continuing]. I know other people are----
    Senator Mikulski. No, go ahead.
    Senator Hutchison. If you have a second round, if you want 
to go again----
    Senator Mikulski. Why don't you ask that question, and then 
we'll pick up----
    Senator Hutchison. Okay.
    Senator Mikulski [continuing]. If any members want a second 
round.

                    DISPOSITION OF ORBITER VEHICLES

    Senator Hutchison. I just want to go back to the law that 
was passed in 2010 regarding the disposition of the orbiter 
vehicles. And since Senator Brown suggested that maybe the last 
person you talk to might be the one that you listen to--I'm 
kidding, but, here's what it says: that the criteria should 
have priority consideration given to eligible applicants that 
meet all the other conditions, providing for the display and 
maintenance at locations with the best potential value to the 
public, including where the location of the orbiters can 
advance educational opportunities in science, technology, 
engineering, mathematics disciplines, and with a historical 
relationship with either the launch, flight operations, or 
processing of the space shuttle orbiters or the retrieval of 
NASA manned space vehicles, or significant contributions to 
human spaceflight.
    So, you know, that seems--I mean, if you go back to that 
priority consideration, it just seems to me that it would be 
very difficult to leave out both Houston and Florida. Now, I 
know you're getting ready to make the decision, but I think you 
have acknowledged that in the past, as well; I mean, when 
people think of our space shuttles, they think of Mission 
Control in Houston and the astronauts training in Houston, and 
they think of the cape where we launch.
    So, I just want to ask you--in your determinations, you're 
weighting these factors--how much is the historical 
relationship with, as the law says, flight operations, launch, 
et cetera, weighing in the factors that you're putting in your 
decision?
    General Bolden. Well, the 10 criteria that were used by the 
people that made the recommendations to me did not include the 
prioritization from the law. I was aware of it. And so, I think 
you will find when the announcement is made, that every place 
receiving an orbiter has a historical connection to human 
spaceflight. In fact, I think you will find that every one of 
them has a historical connection to the space shuttle.
    Senator Hutchison. So, the other----
    General Bolden. And that does not----
    Senator Hutchison [continuing]. Did not put that in----
    General Bolden. I'm not----
    Senator Hutchison [continuing]. But the priority of the law 
would prevail, correct?
    General Bolden. Yes, ma'am. We will comply fully with the 
law.
    Senator Hutchison. Thank you.
    Thank you, Madam Chairman.

                         CONTINUING RESOLUTION

    Senator Mikulski. Mr. Administrator, I want to come back to 
Senator Hutchison's questions about Orion, Constellation, et 
cetera. Here is--my suggestion is--sometime this week, we're 
going to pass the final continuing resolution for this year, 
and you'll be scrubbing what we've done, as I said, you know, 
on appropriations.senate.gov, et cetera. What I am going to 
suggest is that your staff review the legislation and the 
issues raised by Senator Hutchison, come back and brief the 
Senator's staff, and my own, just exactly where we are on this 
topic--and, of course, the Inouye and Cochran staff will always 
be present, at their pleasure. But, we want to make sure we all 
understand the same thing, and then identify if there's any 
further clarification language we need to do or anything else 
to look at this.
    Does this sound like good way to go?
    Senator Hutchison. I think----
    Senator Mikulski. Because I think there's confusion, right 
this minute, between the authorization which you are mandated 
to do and what might be some activities we do in continuing 
resolution.
    Senator Hutchison. I think, as much input as we can get and 
as much as we can work together, absolutely. I just believe, so 
much, that our goal was a balanced approach for manned 
spaceflight, and that we would have the commercial and the NASA 
experience working hand-in-hand, on a dual track, for the 
development of the next generation of vehicle. And that's what 
I'm trying to achieve. And I hope that it's what you're trying 
to achieve, because that's what we're trying to do in this 
continuing resolution and in the 2012 follow on budget. So----
    Senator Mikulski. Well, what I'm trying to approve is the 
policy goals----
    Senator Hutchison [continuing]. Any input is helpful.
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. That we have agreed upon 
through the authorization, with wise stewardship of Federal 
funds, which I think we're all committed to. And we are in an 
atmosphere of making every dollar count.
    General Bolden. Yes, ma'am.
    Senator Mikulski. So, we want every and all talent to 
count. I was so pleased, in your comments and in your opening 
statement, that you acknowledged the incredible talent that's 
at NASA. And I think we all share it. And a lot of people put a 
lot of hard work into that, so we don't want to throw out the 
ideas and what we can benefit from it. We don't want to waste 
any money through what was a good idea through a mandate once, 
but might no longer be a good idea.
    And then we're all obsessed with jobs, Mr. Administrator. 
And, as the shuttle winds down, people, as you know, are deeply 
concerned in Florida, people at all the centers are very 
worried about jobs. And I think what we're looking at is, how 
do we continue innovation jobs in the future? But, I think 
every member here is concerned about jobs today. So, we need to 
talk about that.

                        NASA CONTRACT MANAGEMENT

    But, I want to come back to a frugal Government and making 
dollars count. I know GAO has identified NASA contract 
management as they've got NASA on the high-risk list. In its 
annual review of large-scale NASA projects, GAO found that 
development costs for the 16 projects that have entered major 
development had grown nearly 15 percent. And that's not even 
with the JWST issue. Now, GAO has also told the subcommittee 
they're encouraged by NASA's corrective action plan to address 
flaws in acquisition management.
    So, here is my question. You're on the high-risk list; GAO 
says you're making progress. Our question to you is, what are 
you doing to make sure that NASA contract management is back on 
track implementing the GAO recommendations? And also, the last 
part of this question is, should we be moving away from cost-
plus contracting to fixed-price contracting, or is that just a 
cool gimmick? So, that's a lot. How do you get off the GAO 
high-risk list? What are you doing so that we feel confident 
about this? And then, if you've got thoughts, now, actually, on 
a new world order in contracting?
    General Bolden. Senator, I guess the first thing I would 
say is, in hoping to manage expectations, I doubt that NASA 
will ever be off the high-risk list from GAO, because 
everything we do is high risk. We do dangerous stuff, we do 
risky things and we take big challenges that nobody else can 
do. So, unfortunately, we do one of a kind type programs. So, 
we do things that have never been done before.
    However, being on the high-risk list, I can still make my 
program management better. We've established key decision 
points in every program that we do now. So, those are 
milestones that the program and project management have to take 
an assessment of: How are we meeting our cost and schedule 
goals? We look at life-cycle targets. We establish, at the 
outset of a program, how much we think it's going to cost to 
not just design a system, or design and build, but how much is 
it going to cost to operate that system?
    So, when we bring you an estimate for a system today, it's 
a life-cycle cost estimate, as we're trying to do with JWST and 
others. We instituted something called the Joint Confidence 
Levels (JCL), where we look at cost and schedule. And 
unfortunately, this came about in 2009, and it was right after 
JWST had been baselined. But, we have two examples, in Gravity 
Recovery and Interior Laboratory and Juno; both of them will 
fly by the end of this calendar year, and they are on target in 
every respect, because they went through the JCL process, the 
total life-cycle process. We're very confident that, when we 
say we're going to deliver, we're going to deliver. We use 
independent assessments that are based on earned value, and 
that's what we're doing now.
    We have retrained our program and project managers. We put 
them through a rigorous training course that they have to 
finish. One of the things it talks about is discipline, so if 
they're managing a science project, they learn how to say no 
when somebody says it would be a good idea to add one more 
experiment or a good idea to add one more instrument. So, we're 
going to de-scope a lot of missions that we have right now that 
just don't meet the smell test in this fiscally constraining 
time.

               COST-PLUS CONTRACTS--FIXED-PRICE CONTRACTS

    Senator Mikulski. Well, first of all, that's very 
encouraging. And we know you took the GAO flashing yellow 
lights very seriously.
    But, what did you think about my question about moving away 
from cost-plus contracts to fixed-price contracts?
    General Bolden. We would--in every----
    Senator Mikulski. And I'm not saying I advocate that.
    General Bolden. No, no, no, no I understand, ma'am.
    Senator Mikulski. I'm really soliciting your views.
    General Bolden. To the greatest extent possible, for the 
benefit of the Government, we would always prefer to have a 
fixed-price contract, where the Government signs a contract up 
front and follows its commitment to pay the contractor as they 
meet milestones. Because we do one-of-a-kind things, sometimes, 
when we're in a development program, or in the development 
phase of a program, a fixed-price contract might not be the 
most prudent thing to do. We may need a cost-plus contract 
until we get through the unknown, the uncertain part of the 
development cycle.
    Once we do that, you will go through multiple types of 
contracts over the life of a program while it's being 
developed, where you move from a cost-plus contract during the 
development phase to a fixed-price contract when you go into 
the final phases of production.

                      CONTRACTING AND ACQUISITION

    Senator Mikulski. Well, and it's not--today, we're not 
going to go into this, but we're really looking at contracting 
and acquisition----
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. In every one of the 
agencies, in our subcommittee. Not because we're going to break 
new ground; it must come through authorization and working with 
the executive branch. But, contracting, as we know it, I think, 
is going to be reviewed.
    You know, we make these--we sign up for a contract--what 
you said--``one of a kind, we do what nobody else does.'' But, 
the fact isit often takes 5 to 7 years to develop it; our 
mission changes or gets altered, politics change, and 
technology changes. And there we are, stuck with--not stuck, 
but in a track for a particular way and a particular cost and 
so on, and I'm not sure what's the best way to go.
    I do believe there are lessons learned that are going on in 
Defense, through Secretary Gates and Dr. Carter and his 
initiatives. They're not all applicable, but I think we need to 
be able to look at it.
    But, that's not for today. Today, we need to get that 
continuing resolution out on the Web, get it on both of our 
floors. Let's close out this year's 2011 appropriations and get 
a good direction on 2012.
    General Bolden. Yes, ma'am.
    Senator Mikulski. Senator Cochran, did you have any other 
questions, Sir?
    Senator Cochran. I do not. Thank you, Madam Chair.
    Senator Mikulski. Senator Hutchison, do you have any other? 
And then I'll----
    Senator Hutchison. I have four questions that I'd like to 
submit for the record and ask that you respond to. They're 
not--I don't need to ask them here, but they are just general 
questions that I'd like to ask you----
    General Bolden. Yes, ma'am.
    Senator Hutchison [continuing]. To respond to, that I'll 
give to the Chairman.
    Senator Mikulski. Senator Brown?

                       HUMAN-RATING REQUIREMENTS

    Senator Brown. Yes, thank you, Madam Chair. I have another 
couple of questions. Mr. Administrator, a study some time ago 
of 454 U.S. satellites found that fewer than 10 percent of 
spacecraft that complied with the military standard 1540B 
Qualification Test Program suffered failures, while more than 
60 percent, almost two thirds, failed when only one-half of the 
qualification tests were performed. Since then, in 2009, a NASA 
satellite was lost, as you know. And, just a month ago, another 
NASA satellite was lost.
    In the wake of the loss of these two, due to launch vehicle 
failures and the intent to utilize commercial crew in cargo 
launches for the ISS, my thoughts are of concern. First is for 
the safety of our astronauts and for the successful launch of 
supplies and critical hardware to orbit. What type of full-
scale environmental testing is NASA requiring now or going to 
require of the commercial companies to achieve certification 
for human spaceflight? And what sort of full-scale 
environmental testing are we planning to qualify our own MPCV 
and SLS vehicle? What are you planning?
    General Bolden. Senator, we are in the process of 
developing what we call human-rating standards. We actually 
have a series of 1,000 level NASA requirement documents that 
will deal with what stipulations a contractor has to meet in 
order to qualify to carry either our cargo or our crew members. 
As you said, my number one objective is the safety of our 
crews. So, we will not certify an industrial partner to carry a 
crew unless we're satisfied that they have met all of our 
safety requirements.
    If I look at Orion, almost all vehicles go through thermal 
vacuum testing, they go through vibration testing, they go 
through radiation testing to make sure they're radiation-
hardened and the like. So, any test that would have been 
required of, or will be required of, my MPCV, a commercial 
vendor will have to pass the same test or demonstrate that they 
have passed a like test, before we will put an astronaut on 
them, because we've got to be sure that they're safe.

                       PLUMBROOK TESTING FACILITY

    Senator Brown. What role do you envision Plum Brook playing 
in those testing of commercial and our vehicles?
    General Bolden. What would--I'm sorry?
    Senator Brown. What role do you envision Plum Brook playing 
in that?
    General Bolden. Well, it depends on the vehicle, itself, or 
the capability of the developer, the capability of the industry 
partner, to find another facility. I think you know, what Ray 
Lugo is doing as the center director at Glenn, is going out to 
industry and advertising the capabilities that we have at Plum 
Brook, just as Patrick Sherman is doing at Stennis. We are 
actively going out to industry and saying, ``Hey, we have the 
best facilities in the world. Please use our facilities.'' I 
envision that we may have some of those contractors wanting to 
bring their crew vehicles through Plum Brook for testing. It is 
the best facility that NASA has. I'm certain it's better than 
anything else they can come up with.
    The big thing we're trying to do is help them with their 
costs. Every facility that they don't have to build means more 
money to their shareholders. We promise that we will give them 
a reasonable price, but we do have to get back full value for 
the taxpayer. We don't have any sales.

                         GLENN RESEARCH CENTER

    Senator Brown. Right. Well let me ask one more question, 
Madam Chair.
    NASA Glenn has been leading the work for the Orion service 
module for Ares I upper stage electrical avionics and thrust 
vector control systems in the Ares V payload fairing. The work 
performed on these vehicles directly translates to the MPCV, to 
the MPCV, and the SLS as you know. In what specific way do you 
plan on utilizing NASA Glenn's heritage and proven expertise in 
these new MPCV programs and in SLS programs?
    General Bolden. I will have Ray Lugo get in touch with you, 
but I would venture to say, any work that Glenn was doing with 
Orion will be the same work that Glenn continues to do with the 
MPCV, whatever we call it. You know, they are small propulsion. 
They do ion engines, electric engines, and the like. So, those 
types of things that they were responsible for in the 
Constellation program, they will continue to be responsible for 
in any program that we do, going forward.
    If I go back to something that the chair mentioned: it is 
my hope that, within the week, we will be able to bring to the 
staff a report that I have received, that my senior management 
has been receiving incrementally now, on the MPCV--the plan for 
the plan, if you will--on the MPCV, the SLS, and 21st century 
launch complex. We have done incredible work. We have not been 
standing still. We've been doing this for almost a year now, 
and this is what supported our making the decision on the 
design reference vehicles. But, we're now ready to bring that 
to the committees so that you can get incremental looks at how 
we're progressing, so that you see that we are not stalling, we 
are not standing by, we're not wasting time nor money, that we 
have a plan, and that, if we are able to follow that plan, and 
that plan is sufficiently supported by budgets that we say we 
need, we will develop the best heavy lift launch system they 
have ever had and a deep space exploration vehicle that will do 
the things that we've all dreamed about up until now, but 
nobody's had the courage to do. So, we are going to do that. 
It's our desire to bring those reports to this subcommittee, to 
the staffs, at increments as we go along.
    Senator Brown. Thank you, Mr. Chairman.
    Thank you.

                     STS-134 SHUTTLE FLIGHT MISSION

    Senator Mikulski. Mr. Administrator, we know, in 2 weeks, 
there is going to be a historic flight. And one of our last 
shuttles will go into space. We know that Captain Mark Kelly 
will be leading that effort. And we hope, with God's good grace 
and American medical care, that Congresswoman Giffords can see 
this. I think the entire subcommittee, and really the entire 
Senate, really wishes them, through you, Godspeed. And we 
really hope that NASA continues to do what it does best. So, 
good luck to them. And----
    General Bolden. Thank you.
    Senator Mikulski [continuing]. May the force be with them.
    General Bolden. We really appreciate it.
    Senator Hutchison. Madam Chairman, could I add to that and 
say: I, too, am so looking forward to this, because it has a 
very poignant side to it, because of Captain Kelly and his 
wife, who we all are pulling so hard for to be able to come.
    But, also the spectrometer going up is such a big deal. 
This is the last major big piece of equipment that will be 
going, that has such enormous potential for the look at dark 
matter energy. And it was before one of the previous NASA 
Administrators, who said Dr. Ting, from MIT--who insisted that 
this was the one thing that we could do in microgravity that 
would be so important in the energy field. And Dr. Ting is a 
Nobel laureate, and we listened to him, and now his dream is 
becoming reality in this launch. So, it has so many important--
--
    General Bolden. Yes, ma'am.
    Senator Hutchison [continuing]. Historic and significant 
aspects to it. And I'm very excited about it as well, and 
looking forward to having that piece put in. And then our last 
launch on need mission, that is now going to be in June, we're 
very excited about doing the very last payload lifting that 
we're going to need to do until--we don't have an American 
capability, but we all want to----
    Senator Mikulski. No. But, we will.
    General Bolden. We'll get it to you soon.
    Senator, may I make one comment? Because I--just to help 
people put things into perspective.
    STS-134 is an incredibly critical mission. It's high 
profile. It's everything. I wear a bracelet for Gabby, because 
she's a personal friend. My number one objective, my number one 
goal, is making sure that our astronauts are safe. So, with all 
the high profile and everything, I want to keep all the 
pressure away from Captain Mark Kelly.
    Senator Mikulski. Right.
    General Bolden. Captain Mark Kelly is one incredible human 
being. He is also one incredible professional. He is a person 
who has garnered the respect and admiration of his crew and 
everybody in the astronaut office. So, I want everybody to 
understand, Captain Mark Kelly is focused on flying, and he is 
focused on making sure that his crew stays safe and carries out 
the mission, to the best of their ability. That's my goal, to 
make sure that I facilitate their success in doing that. I will 
try my best to shield them from everything else that's coming.
    It is an incredibly high-profile mission. But, we're going 
to do nothing any different than we did for STS-133 or STS-125 
or anything else. If we have a problem, we won't go. So, I just 
want everybody to understand there's not going to be any 
special anything for STS-134, other than, it will be incredibly 
special to have Gabby at launch, because, to me, it represents 
the triumph of good over evil. So, I think it's incredible for 
the country, if she's able to make it there.
    Senator Mikulski. Well, we share your emotion, we share 
your passion, and we share the hopes and dreams for this 
mission.
    General Bolden. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. If there are no further questions--
Senators may submit additional questions for the subcommittee's 
official record. We request that NASA respond within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Dianne Feinstein
                      launch capability and safety
    Question. I share your belief that we must engage our commercial 
space partners if we are to have a sustainable, fiscally responsible 
human space flight program in the years to come. This is especially 
true when we look at the costs and capabilities of the commercial and 
Federal rockets that were destined for low-Earth orbit (LEO).
    What has been the total cost to the taxpayer to build the Falcon 9 
(SpaceX), and how long did it take for the rocket to have a successful 
launch?
    What was the total cost to the taxpayer for the Constellation 
program and how long did it take to achieve a successful launch?
    Answer. The National Aeronautics and Space Administration (NASA) 
signed a Space Act Agreement with SpaceX for commercial cargo 
development services in August 2006 as part of the agency's Commercial 
Orbital Transportation Services (COTS) projects. The agreement with 
SpaceX established a series of technical milestones that would be paid 
by NASA once successfully achieved.
    In June 2010, the company's first maiden flight of its Falcon 9 
launch vehicle took place. (Note.--This flight was not covered by the 
COTS project milestones. The first demonstration flight under the COTS 
agreement with SpaceX took place in December 2010.) Therefore, the 
first maiden flight took place about 3 years after NASA signed an 
agreement with the company, with the presumption that SpaceX likely 
performed some initial design work on the Falcon 9 prior to the signing 
of the SAA with NASA.
    With regard to taxpayer investment in the Falcon 9, SpaceX has 
multiple sources of cash that fund its Falcon 9 and Dragon development 
activities. These sources include payments from commercial customers, 
other Government agencies, other NASA programs, private equity 
financing, bank lines of credit, interest income, and cash from company 
reserves.
    Although NASA does not have specific insight into the details of 
how NASA funds are being applied in SpaceX's company accounting system, 
in general, NASA's COTS agreement with SpaceX was specifically designed 
to help the company develop, demonstrate, and test the Falcon 9/Dragon. 
As of mid-May, NASA had paid SpaceX $298 million out of a potential 
$396 million for completing 25 of 40 negotiated SAA COTS milestones. 
Therefore, NASA is pleased that its investment to date has successfully 
helped support the development of both the Falcon 9 launch vehicle and 
the Dragon spacecraft and the ground infrastructure required for 
launch.
    Additionally, it should be noted that NASA's International Space 
Station (ISS) program has made payments to SpaceX totaling $466 million 
for work performed under the Commercial Resupply Services Contract with 
SpaceX, and also that NASA's Launch Services Program also has made 
payments to SpaceX. Therefore, it is possible and likely that some of 
these NASA funds also have been used for Falcon 9 development as well.
    As of April 2011, NASA had spent $12.9 billion on Constellation 
which includes funding for labor, infrastructure, acquisition, and 
development testing of hardware elements and software systems for all 
of the Constellation Projects Ares I and Ares V, Orion, Ground 
Operations, Mission Operations, EVA, etc. Therefore, drawing a direct 
comparison between SpaceX and Constellation's costs is a difficult task 
for several reasons: First, the SpaceX and Constellation transportation 
system are designed to support very different missions. The currently 
negotiated SpaceX milestones relate only to cargo transportation 
capability to the ISS and not crew transportation, whereas the 
Constellation architecture was being designed to provide crew and 
limited cargo transportation to the ISS, the Moon, and beyond. 
Therefore, the Constellation system was being designed as a complete 
human launch capability (ground ops, launch vehicle, crew capsule, 
etc.) Second, SpaceX and NASA use very different business models with 
regard to personnel, infrastructure etc. For example, NASA was 
utilizing heritage hardware and infrastructure to build the 
Constellation architecture, as directed by law, and the agency also was 
developing a transportation architecture that was designed to employ 
shuttle contractors to a great extent, thereby mitigating contractor 
workforce loss following the retirement of the shuttle.
    With regard to launches, the Constellation program, which was 
formally initiated in late 2005, did not achieve an orbital flight 
before it was canceled in 2011, but it had an active test program and 
had completed two key test flights prior to its termination, approved 
first by the NASA Authorization Act of 2010--the Ares I-X test flight 
in October 2009 and the Pad Abort I test for the Orion CEV on May 6, 
2010.
    Question. If the Heavy Lift Vehicle and MPCV were completed this 
year, could you send astronauts on missions to Mars? To Lagrange 
Points? Would these astronauts be safe from harmful radiation on a 
mission of this length?
    Answer. NASA does not anticipate being able to conduct a Mars 
mission until at earliest the 2030 timeframe with the threat of deep-
space radiation for crews during sustained human exploration beyond LEO 
needing to be resolved before such a mission could take place. NASA is 
continuing to conduct radiation research (both on the ground, and in-
space aboard the ISS) and architecture and engineering solutions are 
aimed at developing the solutions and countermeasures necessary to 
safely execute these missions. The radiation mitigation solutions are 
planned and phased, much like the other key challenge areas, to produce 
the necessary capabilities when they are needed in the capability 
driven framework. A Mars mission duration is the horizon goal given the 
extended time period, so it is accordingly phased. However, a Lagrange 
Point (Earth Moon L-1 for example) is much closer and is viable given 
the current exposure levels and state of the art in technology/science. 
Radiation will remain an important enabling area for long-duration 
human spaceflight beyond LEO.
                         constellation funding
    Question. Administrator Bolden, I recognize that we are here today 
to talk about the fiscal year 2012 budget, but there is still pressing 
work that must be done to complete the fiscal year 2011 spending plan. 
One issue I must raise is that the past six continuing resolutions have 
included a provision which prohibits your agency from cancelling any 
contracts related to the Constellation program. This program was 
terminated by both the Congress and the administration, but under these 
bills the NASA Inspector General says that the American people could be 
on the hook for $575 million in unnecessary costs.
    I want to give you an opportunity to share your thoughts with this 
subcommittee on how we can eliminate this waste, and where we should 
redirect this substantial amount of funding?
    Answer. Over the last year, due to provisions of the fiscal year 
2010 Consolidated Appropriations Act (Public Law, 111-117)--
restrictions that have since been rescinded in the fiscal year 2011 
Full-Year Continuing Appropriations Act , NASA was prohibited from 
terminating any Constellation contracts. As such, NASA continued to 
implement the Constellation Program and associated projects, while at 
the same time prioritizing Constellation funding on work that was most 
related to the SLS and MPCV, thus maximizing use of taxpayer dollars.
    When the inspector general's letter was issued on February 2, 2011, 
NASA agreed with its conclusion that said the Congress should take 
action as soon as possible to remove the limitations in the fiscal year 
2010 Consolidated Appropriations Act regarding the Constellation 
architecture; such action by the Congress would enable NASA to redirect 
funds more efficiently to the SLS and MPCV. Additionally, we were 
pleased that the inspector general had recognized that: ``NASA has 
taken steps to concentrate its spending on those aspects of the 
Constellation Program it believes many have future applicability, and 
that these efforts have helped to reduce the potential inefficient use 
of taxpayer dollars.''
    The attached white paper was developed in February 2011 to respond 
to queries from Members and staff about the inspector general letter 
prior to NASA having the authority to terminate unnecessary 
Constellation work.
    NASA is currently developing a plan for the orderly close out of 
Constellation activities, with the goal of completing transition and 
close out of Constellation early this fall.
    deformation, ecosystem, structure and dynamics of ice (desdyni) 
                           satellite program
    Question. I was deeply troubled to learn that the fiscal year 2012 
budget provides no funding for the DESDynI (pronounced ``destiny'') 
satellite program. This satellite would have provided NASA with 
unparalleled ability to monitor ground motion, and that capacity is 
critical to improving our understanding of earthquakes. This is not 
just my opinion, but the opinion of the National Academy of Sciences 
(NAS).
    If the earthquake in Japan taught us any lesson, it is that we do 
not understand these events nearly as well as we once thought. So I 
question if this is an appropriate time to cancel the DESDynI program.
    Administrator Bolden, how do you rationalize cutting this program 
given its high ranking in the NAS Decadal Survey and the clear need to 
improve our understanding of earthquakes?
    Answer. NASA's Earth science program studies a broad range of 
phenomena related to climate, weather, and natural hazards, including 
earthquakes. NASA strives to maintain a balanced portfolio across these 
areas that is responsive to national needs, and informed by 
recommendations from the National Research Council (NRC). To that end, 
NASA continues with concept design work on the DESDynI mission, a tier 
1 recommendation from the 2007 National Research Council's Earth 
Science Decadal Survey.
    In March 2009, after more than a year of collaborative study 
involving the engineering and scientific research communities, NASA 
made the decision to implement DESDynI as a two-spacecraft mission (one 
carrying a radar payload, and one a lidar, both in orbit at the same 
time). This approach allowed the mission to provide maximum science 
information in support of the solid Earth, ecosystems, and polar ice 
communities. This approach was reviewed positively (for science 
content/value) by the Earth Science Subcommittee of the NASA Advisory 
Council. In the context of the President's fiscal year 2011 budget 
request and the 2010 NASA Climate Initiative Plan, DESDynI was being 
studied and activities were ramping up to support a launch in late 
2017. The Climate Initiative Plan also includes launches of Aquarius in 
June 2011, the Orbiting Carbon Observatory-2 in February 2013, the Soil 
Moisture/Active-Passive mission in late 2014, the Orbiting Carbon 
Observatory-3 as an instrument of opportunity for flight in 2015, the 
Gravity Recovery and Climate Experiment (GRACE) Follow-On mission in 
2016, and the Surface Water-Ocean Topography and Active Sensing of 
CO<INF>2</INF> Emissions over Nights, Days, and Seasons missions in 
2019-2020. These other elements of the plan are funded in the fiscal 
year 2012 request, along with research activities in the Earth science 
program's Earth surface and interior focus area. These include crustal 
dynamics research conducted in coordination with United States 
Geological Survey to improve understanding of the forces that lead to 
earthquakes, volcanoes, and landslides.
    By early calendar year 2011, the two-spacecraft DESDynI mission is 
in Pre-Formulation and has successfully passed its formal Mission 
Concept Review.
    However, given the more constrained fiscal environment, NASA will 
be unable to move as aggressively as planned in the fiscal year 2011 
request to manifest DESDynI. The fiscal year 2012 budget request 
provides sufficient resources to engage potential international 
partners on the radar mission, and NASA will evaluate whether 
contributions from partners can allow development of the radar mission 
alone for launch near the end of the decade within the overall Earth 
Science Division budget constraints. In addition, during fiscal year 
2011-2012, NASA will work to identify an international contribution of 
the lidar portion of the mission.
                              nasa centers
    Question. I was greatly concerned to hear speculation about the 
closure of some small NASA Centers in response to budget cuts. NASA has 
three centers in California--Ames Research Center, Dryden Flight 
Research Center and the Jet Propulsion Lab--which provide more than 
7,000 highly skilled, high-salary jobs in my State. These Centers also 
provide unique capabilities such as wind tunnels and arc jet testing 
for the aerospace industry in my State.
    The prior NASA Administrator made a commitment to ``10 healthy NASA 
centers'' including those in California. Have you made or will you make 
that same commitment?
    Answer. NASA has remained committed to the sustainment of its 
current complement of nine Centers and the Jet Propulsion Laboratory, 
each carrying out its mission in a well-functioning, effective manner. 
NASA is working to achieve a balanced portfolio, with each Center 
enjoying a vibrant engagement in its distinct areas of innovation and 
strength to support the agency's missions in science, exploration, 
aeronautics, and technology development.
    Prior to enactment on April 15, 2011, of the fiscal year 2011 Full-
Year Continuing Appropriations Act (Public Law 112-10), NASA leadership 
stated before the Congress that the $298 million reduction to NASA's 
Cross-agency budget, proposed in H.R. 1, would have an operational 
impact to the agency equivalent to the shuttering of two small NASA 
Centers. This reduction did not pass and none of the NASA Centers were 
closed.
    In accordance with direction provided in the NASA Authorization Act 
of 2010 (Public Law 111-267), NASA is presently engaged in a careful 
examination of the agency's structure, organization and institutional 
assets, with the goal of identifying a strategy to evolve toward the 
most-efficient retention, sizing and distribution of facilities, 
laboratories, test capabilities and other infrastructure, consistent 
with NASA's missions and goals. The assessment of NASA's real property 
footprint at all of its Centers and facilities is also responsive to 
administration direction to executive departments and agencies 
regarding the disposal of unneeded and duplicative Federal real estate. 
As directed by Public Law 111-267, NASA will provide a report to the 
Congress on the results of its comprehensive study in fall 2011.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
     national aeronautics and space administration (nasa) education
    Question. NASA's fiscal year 2012 funding request for education 
totals $138.4 million. This request is $41.6 million less than enacted 
fiscal year 2010 levels and $7.4 million less than the authorized 
levels for fiscal year 2012.
    The NASA Space Grant and Experimental Program to Stimulate 
Competitive Research (EPSCoR) programs are particularly impacted. These 
science, technology, engineering, and mathematics (STEM) programs help 
a large number of students and historically have had a good return on 
NASA's investment. The NASA Authorization Act authorized space grant at 
$45.6 million and EPSCoR at $25 million for fiscal year 2012.
    Why is NASA proposing an almost 50 percent cut in combined funding 
for these two programs?
    Answer. NASA's Office of Education will focus its funds on existing 
commitments and grant renewals, continuation of scholarships, 
internships and fellowships, and activities that directly serve 
educators, students, and the general public. The decrease will be 
managed by reducing the number of new grant awards and seeking 
operational efficiencies (e.g., increased use of education 
technologies, reduction in printing/warehousing/shipping costs, 
reducing travel, coordinating solicitations).
    NASA's requests for Space Grant and EPSCoR funding have been 
relatively consistent for several years. The President's budget request 
for fiscal year 2012 reflects the need to develop a balanced education 
portfolio for the agency that supports its efforts in higher education, 
K-12 student and teacher programs, and informal education.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                             Program                               2010 PBR \1\      2011 PBR        2012 PBR
----------------------------------------------------------------------------------------------------------------
Space grant.....................................................            28.4            27.7            26.5
EPSCoR..........................................................              10             9.3             9.1
----------------------------------------------------------------------------------------------------------------
\1\ In fiscal year 2010, NASA's Office of Education was appropriated additional funds to support increases to
  the budgets of these two projects.

    We will make internal adjustments to the fiscal year 2011 Education 
portfolio in order to comply with the law as mandated.
    Question. What is NASA's commitment to Space Grant and EPSCoR?
    Answer. NASA remains committed to both Space Grant and EPSCoR. NASA 
initiated the National Space Grant College and Fellowship Program 
(Space Grant) in fiscal year 1989. Space Grant is a national network 
that expands opportunities for students, educators, and faculty to 
understand and participate in NASA's aeronautics and space projects. 
Space Grant is now composed of 52 consortia in 50 States, the District 
of Columbia, and the Commonwealth of Puerto Rico. Space Grant leverages 
the resources of more than 900 affiliates from universities, colleges, 
industry, museums, science centers, and State and local agencies. Space 
Grant supports and enhances science and engineering education and 
research efforts in higher education, K-12, and informal education. 
NASA establishes training grants with each consortium, aligning 
consortium work with the education priorities and the annual 
performance goals of the agency.
    EPSCoR develops academic research enterprises that are long-term, 
self-sustaining, and nationally competitive by supporting States with 
modest research infrastructure so that they become more competitive in 
attracting non-EPSCoR funding. Funding is competitively awarded to lead 
academic institutions (in eligible States) to foster research and 
technology development opportunities for faculty and research teams. 
NASA actively seeks to integrate the research conducted by EPSCoR 
jurisdictions with the scientific and technical priorities being 
pursued by the agency. These scientific and technical priorities are 
established and evaluated by the agency's Office of the Chief 
Technologist and Mission Directorates. NASA's commitment to EPSCoR will 
be strengthened through alignment with the agency's new Space 
Technology Roadmaps.
                     technology development program
    Question. In the late 1990s and early 2000s, NASA had a significant 
emphasis on developing game-changing technologies. That era brought 
such developments as National Aerospace Plane (NASP), X-33 and X-34 
experimental Single Stage to Orbit (SSTO) Vehicles, and RS-84 LOX/RP 
engine, to name a few. These programs resulted in NASA spending 
billions of dollars without a single successful development. In the 
current budget submission you have a similar Technology Development 
Program with more than $1 billion of funding.
    What is different in NASA's current Technology Development Program 
that gives us confidence it is not a repeat of past failures?
    Answer. During SSTO initiatives, NASA learned that developing new 
launch vehicles using unproven subsystems will increase the overall 
risk of the mission. Additionally, when major technology development 
embedded within the development of a new vehicle, the schedule is 
longer and the cost is greater. This conclusion was outlined in March 
2009 testimony before the House Science Subcommittee by a Government 
Accountability Office (GAO) representative who described GAO's analysis 
of 13 NASA flight projects in the implementation phase. In this project 
phase, systems design is completed, scientific instruments are 
integrated, and the flight system is fabricated and prepared for 
launch. Prior to entering the implementation phase, it is standard NASA 
practice to have finalized requirements, concepts and technologies and 
establish a baseline project plan. Of the 13 NASA projects in the 
implementation phase assessed by the GAO, 10 projects experienced 
significant cost and/or schedule growth from their project baselines. 
Of the five causes of cost and/or schedule growth cited by the GAO, two 
issues pertained directly to technology development risk: technology 
immaturity and modifications required to previously considered heritage 
items. The common symptom of these two causes is a technological 
readiness considerably below that estimated by the project. The GAO 
report concludes, ``Simply put, projects that start with mature 
technologies experience less cost growth than those that start with 
immature technologies.''
    The Space Technology Program was formulated to mature the 
technologies required for NASA's future missions outside the major 
vehicle development programs. By advancing technology prior to vehicle 
development, space technology allows for NASA's future projects to take 
an acceptable level of risk, resulting in a more stable portfolio. 
Space technology is not developing vehicles as the former Office of 
Aerospace Technology (late 1990s and early 2000s) attempted. In 
contrast to the NASP, X-33 and X-34 programs, space technology's 
approach is similar to the approach NASA used in the Apollo era where 
it was conceiving Apollo technologies while developing/testing the 
Gemini hardware and flying the Mercury missions. NASA space technology 
funding will be spent to advance and mature critical subsystems through 
concept, design and testing. When proven, these technologies will be 
baselined for NASA's future missions, enabling greater capability and 
reducing the risk and cost of NASA's future missions.
    As a specific example, consider the X-33. In this program, NASA 
attempted to test multiple conceptual technologies within a new vehicle 
design. One of these technologies was a conformal, composite, cryogenic 
tank that would reduce the amount of fuel required to reach orbit, thus 
reducing the cost per launch. Unfortunately, the X-33 composite 
cryotank had manufacturing challenges that delayed the rest of the X-33 
test program, increasing program cost significantly. NASA chose to 
cancel the X-33 program, in part because the design and manufacturing 
process of the cryotank prevented this technology from being matured to 
flight readiness status. In today's space technology model, NASA would 
focus on maturation of the composite cryotank and other technologies 
before trying to incorporate them into the X-33 design. This approach 
prevents a single technology from holding up an entire integrated 
vehicle. Since the cancellation of X-33, NASA has had some success in 
composite cryotank tests conducted at the Marshall Spaceflight Center 
(in 2004). Industry and academia have also made measurable progress in 
separate efforts. Unfortunately, due to limited and uncoordinated 
investments, NASA and the aerospace industry have not been able to 
fully mature this important technology in time to incorporate into 
current vehicle plans. Through the Space Technology Program, the agency 
will invest in this critical technology so that when it is mature it 
may be incorporated into future missions including future incarnations 
of the Space Launch System (SLS) and planetary landers.
    Question. Please describe exactly what projects will be pursued 
under this program and why they are a vital need for taxpayer 
expenditures?
    Answer. The fiscal year 2012 budget request for space technology 
provides a modest increase above the level projected in the NASA 
Authorization Act of 2010, consistent with the administration's 
priority on Federal investments in research, technology, and innovation 
across the Nation. These investments are critical for the agency's 
future, our Nation's future in space, and our Nation's technological 
leadership position in the world. Expanding this program is not only 
required to enable NASA's future missions in science and exploration, 
but doing so will build our Nation's economic competitiveness and 
create high-tech jobs. As noted by the National Research Council in 
numerous reports, NASA needs to make maturing transformative, high-
payoff technologies a high priority if we are to see reductions in the 
cost and risk of the agency's future missions. While the request is 
above the authorized level for fiscal year 2012, NASA believes this 
amount is critical, and this is a top agency priority.
    Within the fiscal year 2012 budget request, NASA has integrated 
management responsibility of two technology development programs 
included in the NASA Authorization Act under the Office of the Chief 
Technologist. In fiscal year 2012, funding for the Space Technology 
Program is proposed at approximately 5 percent of the administration's 
$18.7 billion request for NASA. As defined in the fiscal year 2012 
budget request, the Space Technology Program consists of three major 
components, two of which are well-established. These three components, 
as listed in Table 1, are:
  --the Small Business Innovative Research (SBIR)/Small Business 
        Technology Transfer (STTR) program and related technology 
        transfer and commercialization activities (fiscal year 2012 
        request: $284 million) funded in fiscal year 2010 and earlier 
        through NASA's Innovative Partnership Program;
  --a majority of the Exploration Technology Development and 
        Demonstration activities (fiscal year 2012 request: $310 
        million) funded in fiscal year 2011 and earlier in the 
        Exploration Systems Mission Directorate (ESMD); and
  --the Crosscutting Space Technology Development activities, initially 
        proposed as part of the President's fiscal year 2011 request 
        (fiscal year 2012 request: $430 million). All components of 
        space technology have been carefully formulated over the past 
        year, and have deep roots in technology development approaches 
        NASA has successfully pursued in previous years.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        


                                                 TRACE OF FISCAL YEAR 2012 SPACE TECHNOLOGY CONTENT \1\
                                                                (In millions of dollars)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                            Fiscal year                     Fiscal year
                                                                            Fiscal year        2012         Fiscal year        2012
                                            Fiscal year     Fiscal year        2011        Authorization       2012        Authorization    Fiscal year
                                           2010 enacted     2010 actual    Authorization  Act (in fiscal   Authorization  Act (in fiscal     2012 PBR
                                                                                Act          year 2012          Act          year 2012
                                                                                            structure)                      structure)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Innovative Partnerships Program.........           175.2       123.8 \5\  ..............           175.2  ..............           175.2             284
Crosscutting Space Technology             ..............  ..............  ..............           174.8  ..............           310.8             310
 Development............................
                                                     152           151.4  ..............             162  ..............             310             310
Exploration Technology Development......           152.0           151.4  ..............  ..............  ..............  ..............  ..............
                                         ---------------------------------------------------------------------------------------------------------------
      Total.............................           327.2           275.2             600             512           923.3             796         1,024.2
                                         ===============================================================================================================
                                                82.6 \4\        87.2 \4\  ..............          88 \4\  ..............       127.3 \4\       127.3 \4\
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Space technology content as defined in President's fiscal year 2012 request (inclusive of the SBIR/STTR program and related innovation, technology
  transfer, and commercialization activities funded in fiscal year 2010 through NASA's Innovative Partnership Program, a majority of the Exploration
  Technology Development and Demonstration activities funded in fiscal year 2010 in the Exploration Systems Mission Directorate, and the Crosscutting
  Space Technology Development activities initially proposed as part of the President's fiscal year2011 budget request).
\2\ IPP merged into Space Technology in fiscal year 2011. IPP fiscal year 2010 enacted levels are shown in fiscal year 2011 and fiscal year 2012
  Authorization Act split.
\3\ Sum of fiscal year 2010 ETDP and planned fiscal year 2011 ETDD efforts that are planned to move to space technology in fiscal year 2012.
\4\ AES content requested within ESMD in fiscal year 2012; not included in space technology total. Only includes Technology Infusion Projects; ISS
  Research ($46.8 million) not included in this total.
\5\ SBIR/STTR transfer ($51.7 million) to SMD with planned payback due to 1-year appropriated funds.

     deg.Table 1.--Fiscal year 2012 space technology content integrates 
the long-standing efforts of NASA's Innovative Partnership Program, 
Exploration Technology Development Program, and the crosscutting space 
technology activities first proposed in NASA's fiscal year 2011 budget 
request.
    Relative to fiscal year 2010 enacted levels, an increase of $109 
million is requested for the SBIR/STTR and related innovation, 
technology transfer, and commercialization activities formerly 
associated with the NASA Innovative Partnership Program. Small 
businesses have generated 64 percent of net new jobs over the past 15 
years. A significant fraction of this increase is targeted for the 
small business community, directly fueling the number of high-tech jobs 
that small businesses create in America. Additional funds are also 
planned to expand NASA's efforts in transferring and commercializing 
NASA-developed technologies into the private sector.
    Relative to fiscal year 2010 enacted levels, an increase of $158 
million is proposed for Exploration Technology Development activities 
formerly budgeted within ESMD. This increase is consistent with the 
authorization act. This component of space technology funds activities 
largely at the NASA Centers that are critically focused on NASA's 
beyond low-Earth orbit (LEO) exploration priorities. In order to meet 
the exploration goals established in the NASA Authorization Act of 
2010, NASA needs to develop the mission-specific capabilities required 
for its future exploration missions. Exploration technology development 
investments will benefit future adaptations of the Multi Purpose Crew 
Vehicle (MPCV) and the SLS and form the basis for the in-space 
transportation systems required for deep space exploration.
    Relative to the NASA Authorization Act of 2010, an increase of $120 
million is requested for NASA's Crosscutting Space Technology 
Development activities. Focused on broadly applicable, high-payoff 
technology that industry cannot tackle today, NASA's Crosscutting Space 
Technology Development activities mature the technology required for 
NASA's future missions in science and exploration while proving the 
capabilities and lowering the cost of other Government agency and 
commercial space activities. As evidenced by more than 1,400 Requests 
for Information responses, more than 300 external participants at the 
July 2010 Industry Day Forum, and a relatively large number of letters 
and opinion editorials, there is a large community of innovators 
throughout the Nation interested in working with NASA on Crosscutting 
Space Technology Development activities. Consistent with the NASA 
Authorization Act of 2010, these efforts are guided by a strategic set 
of technology roadmaps, available today in draft form and presently 
under review by the National Research Council (NRC). The NRC's final 
report from external review of the draft NASA Space Technology Roadmaps 
is scheduled for release in January 2012 (with a preliminary report 
scheduled for September 2011) in time to guide the fiscal year 2012 
space technology competition-based acquisition process.
    NASA has identified a series of ongoing, high-priority, mission-
focused space flight technology development activities, led by the NASA 
Centers, to address known capability gaps and deficiencies to achieve 
the science and exploration goals set by the Congress in the NASA 
Authorization Act of 2010. Each of these technologies, once matured, 
will reduce mission cost and risk. As an example, in fiscal year 2011, 
the following ongoing technology activities have been prioritized:
      Spacecraft Servicing.--Continuing the ongoing development of 
        robotic satellite servicing technologies such as end effectors, 
        refueling systems, autonomous rendezvous and docking sensors 
        and algorithms and tools, enabling robotic and human 
        exploration mission architectures and demonstrating the 
        commercial utility for servicing satellites.
      Optical Communications.--Continuing the fiscal year 2010 effort, 
        an advanced ground receiver and designs for flight hardware 
        capable of providing a high-bandwidth downlink will be 
        developed, enabling future beyond LEO exploration.
      Composite Cryotanks.--Continuing fiscal year 2010 efforts, large-
        scale (5 meters and up to 10 meters in diameter) composite 
        cryogenic propellant tanks will be developed and tested, 
        decreasing the mass of future enhancements to the SLS and other 
        in-space systems (e.g., lander systems).
      Inflatable Aerodynamic Decelerators.--Continuing fiscal year 2010 
        efforts, develop and demonstrate hypersonic inflatable 
        aeroshell technology suitable for an ISS down-mass capability 
        and deep space exploration, and supersonic decelerator 
        technology suitable for future Mars missions.
      Space Robotics, Propulsion, and Autonomous Systems.--Continuing 
        fiscal year 2010 efforts, advance robotics technology 
        amplifying human productivity and the effectiveness of human-
        robot teams, test nano-propellants, and develop advanced 
        propulsion technologies increasing the performance of future 
        launch and in-space systems, and mature autonomous space system 
        capabilities.
      Space Flight Technology ISS Demonstrations.--Microgravity fluid 
        dynamics and materials characterization testing on the ISS 
        providing data to aid in the design of propellant management 
        devices and structures of future in-space systems.
      Commercial Reusable Suborbital Research.--Continuing fiscal year 
        2010 efforts, flight demonstration tests of at least two 
        commercial reusable suborbital vehicles and development and/or 
        integration of at least four suborbital technology payloads to 
        stimulate the emerging commercial reusable suborbital research 
        industry.
    These ongoing activities as well as those projects currently 
managed by ESMD in exploration technology will continue to be funded in 
fiscal year 2012 through space technology. In addition to these agency 
priorities, NASA will competitively award, high-priority space flight 
technology development activities that engage the NASA Centers, 
industry and academia in reducing the risk and/or cost of NASA's future 
space flight missions. A limited number of competitively selected 
awards are anticipated in fiscal year 2011 for the Space Technology 
Research Fellowships, NASA Innovative Advanced Concepts, Game Changing 
Development and Technology Demonstration Missions solicitations. 
Spaceflight technology development projects focus upon key agency 
technology priorities identified in recent human spaceflight mission 
architecture studies, benefiting future enhancements of the SLS and 
MPCV and forming the basis for some of the additional spaceflight 
systems required for beyond LEO exploration. In some cases, these same 
activities will mature capabilities that are also required for future 
Science missions identified in NRC decadal surveys. These activities 
have deep roots in technology development approaches NASA has 
successfully pursued in previous years.
    Question. In the current time of needed spending cuts and fiscal 
constraint, does it make financial sense to spend more than $1 billion 
on far-in-the-future projects that may never be realized or could that 
money be better spent on current programs with tight budgets?
    Answer. Space technology is the central NASA contribution to the 
President's revitalized research, technology, and innovation agenda for 
the Nation. These investments will produce cutting edge technological 
advances within 1-3 years, making dramatic improvements in technology 
areas such as propulsion, cryogenic storage, closed-loop life support, 
and avionics that could reduce the cost of future space missions by up 
to 80 percent. As an integral component of its Space Technology 
efforts, NASA plans to invest in small business innovative research and 
technology development--money that will directly fuel the number of 
jobs that small businesses create in America. Small businesses have 
generated 64 percent of net new jobs over the past 15 years, leading 
the innovation push into the future.
    Not only do these technologies benefit NASA's line of work, but 
NASA's research and development has also been shown to stimulate new 
business lines that create future jobs. This is validated in ``Rising 
Above the Gathering Storm: Energizing and Employing America for a 
Brighter Economic Future'' by the Committee on Prospering in the Global 
Economy of The 21st Century, chaired by Norman R. Augustine. NASA has 
provided numerous achievements in the fields of aeronautics, 
electronics, computers, aerospace systems, health technology, imaging 
detectors, telescopes, and high-performance materials, for example. 
These technologies for NASA's science and engineering achievements are 
transferred into the Nation's economy through industries that apply 
them in innovative ways. The Augustine Committee reported that research 
and development investments, like those that NASA's missions require, 
have ``social rates of return from 20-100 percent, with an average of 
50 percent.''
    We recognize the important work the Congress is undertaking to 
simultaneously balance the Nation's checkbook, stimulate job growth and 
maintain our global competitiveness. The President's fiscal year 2012 
budget request for space technology is consistent with NASA 
Authorization Act of 2010 and the administration's priorities on 
Federal investments in research, technology and innovation across the 
Nation. A renewed technology emphasis balances NASA's long-standing 
core competencies of research and technology, spaceflight hardware 
development, and mission operations. With commitment from the Congress, 
the investments outlined in NASA's fiscal year 2012 budget request for 
space technology could yield many thousands of jobs in this country 
making this an ideal time to increase our investment in these 
activities. The creation of new products and services, new business and 
industries, and high-quality, sustainable jobs will attract bright 
minds into educational and career paths in STEM, adding to the Nation's 
technological leadership and leaving a lasting imprint on the economic, 
national security, and geopolitical landscape. Through these 
technological investments, NASA and our Nation will remain at the 
cutting-edge while advancing technology components NASA needs to reach 
our exploration objectives.
                                 ______
                                 
              Questions Submitted by Senator Sherrod Brown
                 unpublished test requirements document
    Question. In the Commercial Crew Transportation System 
Certification Requirements for National Aeronautics and Space 
Administration (NASA) Low Earth Orbit Missions (ESMD-CCTSCR-12.10) 
document (dated December 2010), you cite MIL-STD-1540E, ``Test 
Requirements for Launch, Upper-Stage, and Space Vehicles'' as a fully 
applicable document. As of this time, MIL-STD-1540 rev E has not been 
published. How is an unpublished document capable of being fully 
applicable to Human Rating Standards? In the absence of the actual 
document, to what standard are the CCDev/CCDev2-developed vehicles 
being held?
    Answer. The National Aeronautics and Space Administration (NASA) 
expected the MIL STD-1540 E to be released in December 2010 which is 
why it was included in ESMD-CCTSCR-12.10. NASA has since evaluated the 
SMC Standard SMC-S-016 (2008) and found this published document to be a 
more comprehensive test document that covers the content of MIL STD-
1540 E.
    ESMD-CCTSCR-12.10 is planned to be revised later this year. The 
revision will reflect SMC-S-016 (2008). References to MIL-STD-1540E 
will be deleted. NASA draft requirements documents were provided to 
CCDev/CCDev2 participants for consideration in developing their system 
concepts; however, NASA is not imposing requirements or standards on 
participants as part of the CCDev/CCDev2 activity.
          feasibility of developing commercial crew capability
    Question. The Aerospace Corporation recently published a 
feasibility study for Commercial Crew which was highly critical of 
NASA's current plans. In fact, it stated that given the current 
assumptions, development and operations of commercial crew capability 
may cost NASA $10 billion-$20 billion for one viable commercial crew 
provider, and still result in prices per seat of two to three times as 
much of current foreign-based alternative access options. What is your 
response to this?
    Answer. The Aerospace analysis referenced is this question is one 
of many analyses about the business case for commercial crew that have 
been generated over the years. However, NASA believes the Aerospace 
analysis cannot be used for assessing the commercial crew business case 
or potential costs for crew launches because any definitive analysis of 
the business case for commercial crew must come from the companies 
themselves, not from NASA or the Aerospace Corporation, and such 
analysis must surely include proprietary, realistic data inputs from 
the companies themselves.
    Aerospace has recognized the limitations of its hypothetical-based 
analysis with the following statement which they released publicly in 
April 2011:

    ``The intent of this report was not to pass judgment on the 
economic feasibility of a commercial crew transportation provider, but 
rather to illustrate the ability of the tool to conduct parametric 
sensitivity studies . . . The results shown to NASA and Congress 
recently were not intended to represent any specific real-world 
scenario. We modeled a scenario utilizing data from as long as 10 
months ago in order to demonstrate the tool's viability, not the 
viability of any specific commercial crew transportation system.''

    When conducting its analysis, Aerospace developed its own model 
inputs regarding things such as cost, schedule, and price of launch 
services rather than asking NASA or companies for inputs for the 
Aerospace analysis. Thus, Aerospace's report was based on hypothetical 
versus real-world inputs from potential commercial crew providers.
           earth departure stage (eds) and lander development
    Question. Development of Orion is potentially continuing as Multi 
Purpose Crew Vehicle (MPCV), so crew capability to some destination 
beyond low-Earth orbit (LEO) is still being developed. Planning and 
budgeting for the Space Launch System (SLS) has begun. But there is no 
money in the budget--now or in the near future--to plan for or develop 
an EDS or a lander. What is your plan regarding both of those vehicles 
which are necessary to reach whatever final destination is chosen?
    Answer. NASA architecture studies are ongoing and consistent with a 
capabilities driven framework. These analyses include plans for an 
Upper Stage, Cryo Propulsion Stage (CPS), or EDS, as well as landers of 
various types and configurations, based upon the destination 
requirements. Commonality assessments are also being done to ascertain 
whether common components, subsystems, or systems can be used across 
the portfolio. NASA is currently studying whether the SLS Upper Stage 
can be the same as the CPS or EDS, depending upon performance and 
mission requirements. By assessing commonality and basic system 
architectures now, NASA can further evaluate and plan for leveraged 
development and production, as well as, reduced risk and increased 
economies of scale benefits for these other critical systems and 
elements. Focused technology development activities in both the 
Advanced Exploration Systems (AES) within the Exploration Systems 
Mission Directorate and the Space Technology Program are planned 
consistent with the architecture and capability priorities. Finally, 
ongoing dialogues with the international and interagency communities 
are continuing to explore potential cooperation areas for key systems 
or potentially entire elements for these systems.
    In the meantime, while planning for SLS and MPCV continues, our 
civil servants across the agency should feel confident that there is 
exciting and meaningful work for them to do following the retirement of 
the shuttle and the transition from Constellation, and the shift from 
assembly of the ISS toward ISS operations. Turning our focus toward a 
more capability-driven exploration architecture will offer far-ranging 
opportunities for our creative and skilled civil servant workforce 
across the agency. There will be opportunities for them to apply their 
cross-cutting talents to new challenges such as developing and 
demonstrating prototypes for human capabilities needed for beyond-LEO 
exploration. Here are just a few examples of enabling capabilities that 
must be developed before we can send crews beyond LEO--work that will 
be managed by our new AES program:
  --Developing a ground-based test bed for demonstrating life support 
        systems needed to enable long-duration crewed missions based on 
        lessons learned from operation of the life support systems 
        currently in use on the ISS;
  --Developing and testing components for an advanced spacesuit to 
        improve the ability of astronauts to assemble and service in-
        space systems, and to explore the surfaces of the Moon, Mars 
        and asteroids;
  --Developing design concepts for future space exploration vehicles 
        and deep-space habitats; and
  --Conducting ISS and ground-based analog testing to validate 
        operational concepts for long-duration missions.
    We have already employed this teaming approach quite successfully, 
as exemplified by the NASA in-house efforts with Robonaut2 (R2), which 
was delivered to the ISS on the last space shuttle flight. This robot 
was developed in partnership by a joint NASA-General Motors team. 
Another example is the Lunar Electric Rover, which is a pressurized 
surface rover to provide astronaut mobility for exploring a planetary 
body in a shirtsleeve (or nonspacesuit) environment. The prototype, 
developed at low-cost, has already been demonstrated and matured 
through field testing at sites on Earth that resemble the lunar 
terrain, for example. The rover, along with some of NASA's astronauts, 
also participated in President Obama's Inaugural Parade. In sum, both 
of these examples highlight the substantial benefit we will continue 
harnessing from our highly creative, competent and mission-focused 
workforces across the agency and at all centers.
 collaboration with the federal aviation administration (faa) and the 
                             u.s. air force
    Question. NASA, FAA, and the Air Force Research Laboratory (AFRL) 
held a productive technical conference at Wright-Patterson Air Force 
Base to examine safety issues behind the integration of Unmanned Aerial 
Systems into the National Airspace System (NAS). What were the major 
outcomes and what plans do you have to continue this work with FAA and 
the AFRL?
    Answer. The workshop explored the potential of the Unmanned 
Aircraft Systems (UAS) mission, together with the research and 
development (R&D) capabilities and plans of the organizations involved 
in addressing UAS access to the NAS. In designing the workshop, NASA, 
FAA, and AFRL established three primary objectives. The first was to 
identify the set of technical issues that must be resolved in order to 
ensure safe and consistent UAS operations in future airspace. The 
second objective was to catalog current R&D activities by each 
represented Government agency and identify gaps not currently being 
addressed. The third objective was to identify areas where joint 
demonstrations can advance progress toward UAS integration more 
effectively than single-agency efforts.
    The workshop was divided into three technical teams:
  --Air vehicles;
  --Sense and avoid and communications; and
  --Human factors and ground control station.
    The teams focused their efforts on supporting R&D requirements for 
2018 and beyond in order to achieve UAS integration and operations into 
the next generation airspace. Each track identified major ``long 
poles'' or critical technical challenges, as well as technology gaps, 
which are currently impeding routine UAS access to the NAS. These were 
reported at the conclusion of the meeting.
    Since the workshop, a plan has been developed by the member 
agencies of the Joint Planning and Development Office to establish a 
Research, Development and Demonstration (RD&D) Roadmap (referred to as 
the UAS Research Management Plan [RMP]) to guide the multi-agency work 
and cross-collaboration. Four tracks have been established to work the 
issues with representatives from key stakeholder agencies (NASA, 
Department of Defense, FAA, and Department of Homeland Security) 
participating as appropriate:
  --Ground control station human factors;
  --The unmanned vehicle;
  --Airspace operations; and
  --Communications.
    In order to build the Risk Management Program, the partner agencies 
have formed Technical Tracks, in which senior research managers from 
each agency work together to:
  --Identify the most critical technology and policy issues (R&D needs 
        and challenges), taking into account UAS ConOps provided by the 
        partner agencies.
  --Identify current and planned RD&D activities by the partner 
        agencies.
  --Indicate the dates when series of activities are initiated and 
        completed (on and off ramps).
  --Identify linkages between these activities including dependencies 
        in terms of entry criteria (prerequisites) and exit criteria 
        (minimum required deliverables).
  --Provide estimates of activity costs where such information is 
        available and publicly releasable.
  --Identify current plans or strong opportunities for interagency 
        joint R&D or demonstrations.
    This initial UAS RMP will be completed by the end of fiscal year 
2011 and will provide the path forward for collaborative UAS research, 
development, and demonstrations across relevant Federal agencies. This 
will be the basis for a more comprehensive plan involving industry, 
academia, and other government agencies to ultimately provide routine 
UAS access to the NAS.
    Question. Both NASA and the Air Force conduct research in 
aeronautics and space, and there is a long history of NASA and the Air 
Force working together on problems of mutual concern. Now, in an era of 
particularly tight budgets, it becomes even more important for these 
agencies to work together. Please describe your plans to work closer 
with AFRL in both aeronautics and space. In particular, can both the 
Air Force and NASA support the commercialization opportunities of the 
other?
    Answer. NASA and the Air Force have opportunities to collaborate in 
specific programs as well as general collaboration in the 
commercialization of technology emerging from their respective 
agencies. At the NASA Center level, there are areas of technology 
development including propulsion, power generation and energy storage, 
alternate fuels, remote sensing, communications, robotic and UAV 
operations, sensor technology, advanced battery development, human 
factors R&D, advanced materials development, imaging technology, 
hypersonics, subsonic fixed wing research, and technologies associated 
with improving the environmental footprint of existing and future 
aircraft etc., that have corollary applications for Air Force mission 
operations as well as terrestrial commercial applications.
    In terms of collaboration with Air Force management, NASA Chief 
Technologist Dr. Robert Braun met with the Air Force Chief Scientist 
Dr. Mark Maybury to discuss strategic plans and possible synergies 
between our S&T programs. NASA's Office of the Chief Technologist (OCT) 
cross-walked the draft NASA Space Technology Roadmap technology needs 
with the ``Air Force Report on Technology Horizons--A Vision for Air 
Force Science and Technology During 2010-2030'' and identified about 80 
potential collaboration areas. NASA is currently identifying the top 15 
areas for collaboration, and will ask the Air Force Chief Scientist and 
the Deputy Assistant Secretary of the Air Force for Science and 
Technology to identify their top 15. In addition, NASA's OCT and the 
AFRL are looking into possible collaboration for technological 
development or demonstration in the areas of solar electric propulsion, 
hydrocarbon boost, and space access.
    These activities build on ongoing partnerships between NASA and 
AFRL. The joint NASA/AFRL/FAA Commercial and Government Responsive 
Access to Space Technology Exchange (C/RASTE) is specifically designed 
to help with commercialization opportunities. The third annual C/RASTE 
meeting will occur in October 2011 in Atlanta, Georgia. NASA and AFRL 
have also partnered to gather industry input from 32 commercial firms 
and develop a roadmap of technology priorities of interest to industry 
for developing commercial reusable launch vehicles. As our partnership 
strengthens, we anticipate that NASA and the Air Force will mutually 
support the significant commercialization opportunities for our 
respective assets, expertise, and technology.
    In the area of aeronautics, collaborative efforts exist between 
several NASA research centers (Ames, Dryden, Glenn, and Langley) and 
both the AFRL and the Office of Scientific Research. Many of the 
aeronautics technologies (hypersonics, subsonic, fixed wing, etc.) have 
military applications as well as potential civil applications, both of 
which could lead to commercialization opportunities. Collaborative 
opportunities are identified and discussed at various levels (between 
technical/engineering peers as well as project/program/senior 
management) and in a number of different venues. In particular, NASA 
and Air Force leadership regularly meet as members of the NASA/Air 
Force Executive Research Committee and the Versatile, Affordable, 
Adaptable Turbine Engine Steering Committee to assess research 
accomplishments and challenges, current activities, and future 
collaboration plans. In addition to these research collaborations, 
through the National Partnership for Aeronautical Testing, the Air 
Force and NASA have put in place a joint technology development program 
to address future test techniques and instrumentation which involves 
NASA, the Air Force Arnold Engineering Development Center, and AFRL.
   science, technology, engineering, and mathematics (stem) education
    Question. One of the major problems facing science organizations 
like NASA and AFRL--as well as the private sector--is the need for STEM 
education at all levels. Last year, NASA partnered with AFRL for a STEM 
symposium aimed at minority students. What additional plans do you have 
to promote STEM education to ensure that the rising generation of 
Americans has the scientific and technical skills we need to maintain 
NASA?
    Answer. In January 2011, President Barack Obama stated that, ``. . 
. over the next 10 years, nearly one-half of all new jobs will require 
education that goes beyond a high school education. And yet, as many as 
a quarter of our students aren't even finishing high school. The 
quality of our math and science education lags behind many other 
nations. America has fallen to ninth in the proportion of young people 
with a college degree. And so the question is whether all of us `as 
citizens and as parents' are willing to do what's necessary to give 
every child a chance to succeed.'' This speech echoes findings and 
calls-to-action by numerous committees, reports, professionals in 
education, and leaders in American industry. In response, the 
Department of Education has identified several strategies to improve 
STEM education and ways in which Federal agencies can contribute to the 
Nation's STEM improvement efforts. NASA is a strong contributor to the 
national plan.
    Consistent with section 202 of the America COMPETES Reauthorization 
Act of 2010, NASA works with professional organizations, academia, and 
State/local education providers to identify and address needs in STEM 
education. Quality professional development for STEM educators is a 
prevalent need. Through the education staff at NASA's centers, NASA 
works cooperatively with States and school districts to identify 
content needs and opportunities, and with university partners to ensure 
that NASA investments will be effective in improving teaching practice. 
NASA also works through communities of practice to identify content 
areas and special events that supplement informal education programming 
offered by museums and science centers. NASA higher education efforts 
increasingly target community colleges, which generally serve a high 
proportion of minority students. NASA programs build student STEM 
ability, preparing students for study at a 4-year institution. 
Competitive opportunities support initiatives like the President's 
``Race to the Top'' and the Department of Education's ``Star Project,'' 
which promote State-based education reform and identify replicable 
strategies for improving K-12 education.
    NASA's education programs aim to increase the number of students 
who are proficient in, choose to major in, and pursue careers in STEM 
fields. Improving STEM ability, increasing public scientific literacy, 
increasing the talent pool of future STEM workers, and developing the 
STEM skills of the future workforce are imperatives if the Nation is to 
remain globally competitive and sustain a strong economy. NASA actively 
works through mutually beneficial relationships with more than 500 
colleges and universities, hundreds of K-12 schools and districts, and 
more than 400 museums and science centers to provide education 
experiences, so that all students can learn deeply and think critically 
in STEM disciplines. NASA supports cutting-edge undergraduate student 
research that contributes to NASA missions while training the next 
generation of scientists, engineers, and innovators. NASA targets 
recruitment and retention of underserved and underrepresented students, 
including women and girls, Hispanics, and students with disabilities.
    NASA is committed to providing equal access to its education 
activities by providing any student with the opportunity to contribute 
to the future STEM workforce. NASA is responding by focusing its 
education investments on areas of greatest national need and ensuring 
that the agency's education programs support national STEM priorities. 
With its wealth of science and technology content and its expansive 
network of education professionals, NASA is well-equipped to address 
national needs such as meeting State requirements for educator 
professional development. NASA provides practical experience and skills 
development for those who will become the future workforce through 
internships, fellowships, and student research opportunities. NASA is 
especially qualified to attract students to pursue STEM study and 
careers. NASA is also able to engage these future workers through 
inspiring NASA missions, fostering collaborative relationships between 
students and the current workforce and offering students opportunities 
to work in ``out of this world'' facilities. Hands-on challenges with 
expert mentors generate increased interest in STEM study.
    NASA has engaged students and teachers in its engineering 
challenges and scientific discoveries since its inception. From school 
presentations to seeds flown in space, from filmstrips and posters to 
podcasts and virtual tours through the galaxies, NASA's education 
programs have fostered inquiry, built curiosity, and encouraged 
innovation. Generations of Americans have participated in NASA's STEM 
education programs, and thereby learned basic skills, discovered new 
career paths, and developed interests in emerging academic disciplines.
    NASA is actively engaged in collaborations with other Federal 
agencies to ensure the agency's programs are supportive of national 
STEM priorities. The NASA Associate Administrator for Education 
represents the agency on the National Science and Technology Council 
Committee on STEM Education (CoSTEM). It was established pursuant to 
the requirements of section 101 of the America COMPETES Reauthorization 
Act of 2010. The NASA Office of Chief Scientist is also participating 
in the CoSTEM by providing the CoSTEM Executive Secretary, who works in 
close coordination with the Office of Education.
    NASA's Earth and space science missions have an essential role in 
NASA's education mission. The discoveries and new knowledge from our 
missions and research programs consistently engage people's 
imaginations, inform teachers, and excite students about science and 
exploration. We are committed to utilizing our resources to foster the 
broad involvement of the Earth and space science communities in 
education and public outreach with the goal of enhancing the Nation's 
formal education system and contributing to the broad public 
understanding of science, mathematics and technology. NASA's Science 
Mission Directorate creates education products using NASA's results in 
Earth-Sun system science, solar system research, universe exploration, 
and the development of new technologies to support learning. Through a 
``Train the Trainer'' model the SMD programs train master teachers, who 
reach their peers via in person and online professional development 
opportunities that range from 1-day to week-long workshops. Another 
aspect of Teacher Professional development includes providing summer 
research opportunities for in-service teachers.
    In 2010, NASA chartered an Education Design Team (EDT) to develop a 
strategy to improve NASA's education offerings, assist in establishing 
goals, structures, processes, and evaluative techniques to implement 
new sustainable and innovative STEM education programs. EDT has 
completed its task, and its recommendations are reflected in the fiscal 
year 2012 education budget for NASA's Office of Education.
    The fiscal year 2012 budget provides NASA with the resources 
necessary to continue this rich tradition in STEM education through 
support for the Nation's students and educators, the leveraging of 
cutting-edge education technologies, and partnerships with industry. 
The budget proposal will:
  --Increase NASA's impact on STEM education by further focusing K-12 
        efforts on middle school pre- and in-service educator 
        professional development;
  --Increase emphasis on providing experiential opportunities for 
        students, internships, and scholarships for high school and 
        undergraduate students;
  --Emphasize evaluation and assessment, including external independent 
        evaluation, to ensure that investments are providing desirable 
        STEM impacts;
  --Engage strategic partners with common objectives and complementary 
        resources; and
  --Use NASA's unique missions, discoveries, and assets (e.g., people, 
        facilities, education infrastructures) to inspire student 
        achievement and educator teaching ability in STEM fields.
                   cross-agency support (cas) budget
    Question. Could you please detail the importance of the CAS portion 
of your budget, and for what specifically that part of the budget is 
used?
    Answer. NASA's CAS funding provides critical mission-support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the agency. These important functions 
align and sustain institutional and program capabilities to support 
NASA missions by leveraging resources to meet mission needs, 
establishing agency-wide capabilities, and providing institutional 
checks and balances. CAS includes two primary elements:
  --Center management and operations (CMO); and
  --Agency management and operations (AMO), which are detailed below.
CMO
    CMO funds the critical ongoing management, operations, and 
maintenance of nine NASA centers and major component facilities. NASA 
centers provide high-quality support and the technical engineering and 
scientific talent for the execution of programs and projects. CMO 
provides the basic support required to meet internal and external legal 
and administration requirements; effectively manage human capital, 
information technology (IT), and facility assets; responsibly execute 
financial management and all NASA acquisitions; ensure independent 
engineering and scientific technical oversight of NASA's programs and 
projects in support of mission success and safety considerations; and, 
provide a safe, secure, and sustainable workplace that meets local, 
State, and Federal requirements. CAS also funds salary and benefits for 
civil service employees at NASA centers who are assigned to work on CMO 
projects. In addition, the account contains Center-wide civil service 
personnel costs, such as institutionally funded training.
AMO
    AMO funds the critical management and oversight of agency missions, 
programs and functions, and performance of NASA-wide activities, 
including five programs:
  --Agency management;
  --Safety and mission success;
  --Agency Information Technology Services (AITS);
  --Strategic Capabilities Assets Program; and
  --AMO civil service labor and expenses.
    AMO supports executive-based, agency-level functional and 
administrative management requirements, including, but not limited to:
  --Health and medical;
  --Environmental;
  --Logistics;
  --General counsel;
  --Equal opportunity and diversity;
  --Internal controls;
  --Procurement;
  --Human resources; and
  --Security and program protection.
    AMO provides for the operational costs of headquarters as an 
installation; institutional and management requirements for multiple 
agency functions; assessment and evaluation of NASA program and mission 
performance; strategic planning; and, independent technical assessments 
of agency programs.
    Safety and Mission Success activities are required to continue 
improving the workforce, and strengthening our acquisition processes, 
including maintaining robust checks and balances, in order to improve 
the safety and likelihood of mission success for NASA's programs 
throughout their lifecycles. The engineering, safety and mission 
assurance, health and medical independent oversight, and technical 
authority components are essential to NASA's success. They were 
established or modified in direct response to several major Government 
accident and mission failure investigation findings in order to reduce 
the likelihood of loss of life and/or mission in our human and robotic 
programs. The budget request also supports operation of three 
activities that each provides a unique focus in support of the 
independent oversight and technical authority implementation:
  --the Software Independent Verification and Validation program;
  --the NASA Engineering and Safety Center; and
  --the NASA Safety Center located at the Glenn Research Center.
    AITS encompasses agency-level cross-cutting services and 
initiatives in Information Technology (IT) innovation, business and 
management applications, and infrastructure necessary to enable the 
NASA mission. AITS includes management of NASA's scientific and 
technical information; identity, credential and access management 
services; overarching information security services; enterprise-level 
business systems; and other agency operational services, such as email, 
directory services, and enterprise licenses. NASA's Security Operations 
Center will continue to mature capabilities to improve security 
incident prevention, detection, response, and management. NASA will 
continue implementation of major agency-wide procurements to achieve:
  --consolidation of IT networks leading to improved network 
        monitoring, management and reliability;
  --consolidation of desktop/laptop computer services and mobile 
        devices to achieve improved security and enable NASA Centers 
        and programs to realize improved efficiencies;
  --consolidation of agency public Web site/application management to 
        improve the agency security posture and to facilitate access to 
        NASA data and information by the public;
  --minor enhancement and maintenance of integrated agency business 
        systems to provide more efficient and effective agency 
        operations; and
  --reduction in overall agency data centers and related infrastructure 
        currently funded outside the AITS budget.
    The Strategic Capabilities Assets Program (SCAP) funds key agency 
test capabilities and assets, such as an array of flight simulators, 
thermal vacuum chambers, and arc jets, to ensure mission success. SCAP 
ensures that assets and capabilities deemed vital to NASA's current and 
future success are sustained in order to serve agency and national 
needs. All assets and capabilities identified for sustainment either 
have validated mission requirements or have been identified as 
potentially required for future missions, either internally to NASA or 
by other Federal entities.
    AMO civil service labor and expenses funds salary and benefits for 
civil service employees at NASA headquarters, as well as other 
headquarters personnel costs, such as mandated training. It also 
contains labor funding for agency-wide personnel costs, such as agency 
training, and workforce located at multiple NASA centers that provide 
the critical skills and capabilities required to execute mission 
support programs agency-wide.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                 rocket propulsion test infrastructure
    Question. Your written testimony references the importance of 
investment in a 21st Century Launch Complex. As you know, before a new 
Heavy Lift Vehicle can be launched, it must first be tested extensively 
to ensure the safety of our astronauts and others. Given the National 
Aeronautics and Space Administration's (NASA) interest in safety, are 
we making investments in testing infrastructure that are commensurate 
with the updates to launch infrastructure? What activities will take 
place during fiscal years 2011 and 2012 toward improving our rocket 
propulsion test infrastructure?
    Answer. Beyond funds for normal operations, NASA's initial fiscal 
year 2011 Operating Plan identifies $6 million to begin replacement of 
the Stennis Space Center High Pressure Industrial Water (HPIW) 
distribution system and $15 million to continue construction of the SSC 
A-3 test stand in fiscal year 2011. In fiscal year 2012, NASA has 
identified an additional $10 million to continue the HPIW replacement 
and is planning on $42 million for the A-3 test stand. Additional funds 
for fiscal year 2011 were planned to begin refurbishment of critical 
propulsion test infrastructure, but has been put on hold pending 
decisions on the Space Launch System (SLS) architecture decisions. 
Launch system design and requirements will be mapped to the appropriate 
capabilities, which will define the investments required for the 
propulsion test infrastructure.
    Question. Are any NASA funds currently being used to support the 
construction, rehabilitation, or otherwise invest in rocket propulsion 
test infrastructure not owned by the Government? Are there any plans to 
do so in fiscal year 2012?
    Answer. No NASA funds are currently being used or planned to 
support construction, rehabilitation, or otherwise invest in rocket 
propulsion test infrastructure not owned by the Government.
    Question. Given the uncertainty that accompanied the fiscal year 
2011 budget process, have there been specific delays toward achieving 
the goal of developing a 130-ton heavy lift vehicle? When do you expect 
to launch a 130-ton vehicle?
    Answer. Delays in the fiscal year 2011 budget have not caused 
actual delays with the SLS development efforts, but it has caused 
inefficiencies. Primarily, our fiscal year 2011 activities have been 
dedicated to completing analysis, trades, and developing an acquisition 
strategy, which we continued to do while awaiting final fiscal year 
2011 appropriations.
    NASA's SLS development effort is focusing initially on the 70 to 
100 mT lift capability. We also are seeking ways to capitalize on 
synergies between the lower-range and upper-range lift capabilities, 
thereby allowing us to develop some of the upper-range capabilities at 
the same time as we are focusing on the 70 to 100 mT capability. Doing 
so is actually a fairly natural, evolvable progression in terms of 
developing these capabilities. However, before making any final 
decisions, we must first understand how our approaches to heavy-lift 
will fit within the budget profile, how they will be affordable and 
sustainable over the long term, how they will fit into future 
exploration architecture, and how they might benefit other agencies to 
maximize the investment for the taxpayer.
    NASA is currently in the process of running budget exercises to 
determine the implications of various potential budget scenarios, and 
thus creating development schedules to fit those associated budget 
profiles. Ultimately, we must plan and implement an exploration 
enterprise with costs that are credible and affordable for the long 
term under constrained budget environments. As such, our development 
efforts also will be dependent on a realistic budget profile and 
sufficiently stable funding over the long term, coupled with a 
successful effort on the part of NASA and our eventual industry team to 
reduce costs and to establish stable, tightly managed requirements.
    In the coming weeks, NASA will be refining the SLS concept and 
defining strategy alternatives based on detailed Government analysis 
and completed input from industry through Broad Agency Announcement 
study contracts. Due diligence will ensure the best value for the 
taxpayer with respect to cost, risk, schedule, performance, and impacts 
to critical NASA and industrial skills and capabilities. Further 
details about NASA's analysis and decisions regarding SLS and MPCV and 
their integrated path forward will be provided to the Congress in a 
report in the late spring/summer timeframe.
                          stennis space center
    Question. Your deputy, Lori Garver, visited Stennis Space Center on 
March 10 of this year. I personally appreciate the continued attention 
you and your staff give to the NASA capabilities along the gulf coast. 
In one of the news reports following her visit, Ms. Garver called 
Stennis a ``unique facility for the government'' that should be ``fully 
utilized.'' Do you share Ms. Garver's view that Stennis' identity as a 
``Federal city'' makes it a unique asset for the American taxpayer in 
terms of efficiency and cooperation?
    Answer. Each of NASA's nine centers has unique capabilities that 
ensure our ability to achieve the goals of a portfolio of challenging 
by exciting missions. The Stennis Space Center possesses several unique 
capabilities and assets of which the American taxpayer can be proud. 
More than 30 Federal, State, academic, and private organizations and 
many technology-based companies have offices at Stennis. These 
residents share the cost of owning and operating the center with NASA 
and provide Americans positive returns on their investments. Stennis is 
the location of America's premier rocket engine test complex and, in 
2009; the Stennis team completed 34 years of testing space shuttle main 
engines that were used on more than 130 space missions. Because of this 
rich history of testing engines for our Nation's human spaceflight over 
the past 40 years, Stennis is key to testing the rocket engines that 
will propel humans into deep space. Center leadership has established 
partnerships with private industry to test engines for the commercial 
space sector. With its unique assets, the Stennis Space Center is 
positioned to have a major role in the future of America's space 
exploration mission.
                               hangar one
    Question. Have you received proposals for private investment in the 
external skin of Hangar One? If so, why does the NASA budget ask for 
significant taxpayer funds to re-skin Hangar One, particularly if such 
private proposals could conceivably generate solar energy?
    Answer. To date, NASA has not received a written proposal to re-
skin Hangar One from a private investor. In the late summer 2010, NASA 
issued a Request for Information (RFI) with the intent of gathering 
technical ideas on how to re-skin a structure of this type, to compare 
the Government construction estimate with the estimates of potential 
interested parties, and to ensure that the materials to be used were 
consistent with NASA thinking, given the historical preservation 
requirements. The results of this RFI produced only three responses to 
the call and all of them were partial. One of the respondents provided 
an estimate that approached the Government construction estimate. More 
recently, NASA issued a Sources Sought Notice for the purpose of 
identifying qualified companies who could perform the work of re-
skinning Hangar One. The results of this call are yet to be finalized.
    There have been several unsolicited proposals received for the re-
use of Hangar One after it is re-skinned by the Government. The 
proposals range from lighter-than-air technology operations to 
corporate office space, from an air and space museum to a Science, 
Technology, Engineering, and Math education center. The local 
communities have a strong interest in the re-use of Hangar One, in 
general, and passionately support its preservation for almost any use, 
including multi-purpose.
    In 2005, NASA released an Announcement of Opportunity (AO) for 
photovoltaic panel installation to be mounted on the outside surfaces 
of Hangar One. The intent was to develop a source of funding to pay for 
the replacement of the siding. It was determined through this AO that 
due to the orientation of the Hangar, insufficient power could be 
generated to provide for an economic solution.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
             international space station (iss) continuation
    Question. The National Aeronautics and Space Administration (NASA), 
following the NASA Authorization Act of 2010, is planning to keep the 
ISS operating until at least 2020. Because this is an international 
space station, we cannot unilaterally decide for all members of the 
partnership.
    First of all, it is my understanding that our ISS partners have 
agreed to the continuation of ISS operations through at least 2020. Is 
that correct?
    Answer. The European Space Agency (ESA) recently decided to 
continue station operations to at least 2020. The Governments of Japan 
and the Russian Federation already have approved continued station 
operations beyond 2016. NASA received approval in the NASA 
Authorization Act of 2010. The Canadian Space Agency is working with 
its government to reach consensus about the continuation of the 
station.
    Question. Is NASA aware of any outstanding issues, funding or 
otherwise, with any international partner that must be resolved in 
order to meet that objective?
    Answer. The ISS partnership is committed to fully utilizing the ISS 
to its maximum potential. There remain issues to be worked among the 
partners, both individually and collectively, including long-term 
funding for the out-years, transportation logistics, nominal hardware 
and software updates, but currently NASA does not believe any of these 
are insurmountable. We will continue to work as a partnership to 
maintain the ISS and reap the benefits for future space exploration and 
those on Earth.
                  iss risk if commercial cargo is late
    Question. I am greatly concerned now that the ISS has been 
completed, we will not be able to utilize it as we all have hoped.
    It has been explained to me that within 18 months of the last 
shuttle flight to supply the ISS, steps might need to be taken to 
curtail activities with fewer crew members if commercial cargo delivery 
capabilities are not fully operational and able to service the ISS in 
time. I am confident that our commercial providers will reach the ISS, 
yet I worry about what happens if we are forced to scale back our use 
of our more than $100 billion investment.
    At what point does NASA have to initiate contingency plans, or 
discussions with international partners to conduct supply missions if 
these capabilities need to be supplemented?
    Answer. NASA is pre-positioning maintenance and logistics items on 
the final space shuttle mission as a contingency to mitigate any risk 
to ISS operations due to a delay in the availability of the Commercial 
Resupply Services (CRS) vehicles. The final shuttle mission, STS-135, 
is targeted for launch in early July. During the STS-135 mission, 
Atlantis will carry the Raffaello multipurpose logistics module to 
deliver critical supplies, logistics, and spare parts for the ISS, as 
well as a system to investigate the potential for robotically refueling 
existing spacecraft. This will help reduce the risk to ISS operations 
and maintenance should the CRS vehicles not meet their current launch 
dates. If the contracted commercial cargo services are not available at 
the beginning of calendar year 2012, there would be minimal impact to 
ISS operations. If commercial cargo services are not available by the 
end of calendar year 2012, there would be a reduction in utilization of 
the ISS. In that case, NASA would have to consider reducing the 
station's crew size to three in order to conserve supplies; this would 
in turn result in a reduced ability to conduct research aboard ISS. The 
final shuttle flight will give the ISS the flexibility to maintain a 
six-person crew into fiscal year 2013 without any commercial cargo 
flights, effectively increasing the schedule margin by about a year.
    Another risk reduction option is the availability of the ATV and 
HTV spacecraft. NASA already relies on bartered cargo transportation 
services provided by the ESA and the Japanese Aerospace Exploration 
Agency using these vehicles, and such barter agreements could be used 
to ensure a limited U.S. cargo delivery capacity, on the currently 
planned vehicles, as a stop-gap measure until the CRS vehicles are 
operationally available. NASA has also purchased cargo delivery 
services from the Russian Space Agency through 2011, though there are 
no plans to extend this service beyond the end of this year.
                     life and microgravity research
    Question. With the upcoming addition of the Alpha Magnetic 
Spectrometer experiment to the ISS, NASA will have completed a 
monumental task that has taken more than a decade to complete. The ISS 
has been transformed from a small orbiting outpost to a fully capable 
research facility.
    NASA has been tasked to utilize this opportunity. It has been given 
national lab status. Now, all that is needed is a comprehensive and 
integrated microgravity research program to take this opportunity and 
turn the station into a place where discoveries happen in order to 
enable exploration and also benefit the country.
    The National Research Council (NRC) recently published a report 
that addresses key issues around the need for a solid microgravity 
research program. They believe that now is the time for a focused 
science and engineering program which can bring all the space 
stakeholders--researchers, the public, and policymakers--to an 
understanding that microgravity research can benefit us at home, and 
enable human space exploration.
    This type of research is exactly what the ISS was built for and can 
be supplemented with free flying missions as well. Can you explain how 
NASA is planning to incorporate the recommendations in the report into 
the fiscal year 2012 budget and where this budget falls short, 
particularly in regards to taking advantage of the ISS?
    Answer. The ISS represents an unprecedented national asset for 
advancing science and technology in the space environment, as well as 
stimulating new domestic economic expansion in low-Earth orbit. NASA is 
carefully positioning the ISS to maximize the value to the Nation 
through a series of initiatives designed to ramp up ISS research and 
development (R&D) projects now that the assembly phase is drawing to a 
close. NASA will pursue a diversified portfolio of scientific, 
technological, and economic development projects that draw upon the 
skills of all domestic sectors--government, academia, and industry--in 
order to leverage to the maximum extent the Nation's investment in the 
ISS.
    The recent NRC decadal study on life and microgravity sciences 
represents an important element of guidance in assembling this balanced 
portfolio. With 65 ``Top Priorities'' for research, the report is 
unambiguous in its endorsement of the value inherent in the pursuit of 
biology, chemistry, and physics research and applications under 
microgravity, space-radiation, and ultra-vacuum conditions. Results 
from experiments conducted on Skylab, space shuttles, spacelab, 
spacehab, Mir, and the developing ISS, have consistently supported this 
conclusion over the past four decades. NRC's report will now serve as 
an authoritative and durable benchmark against which future progress 
can be assessed. NASA's supporting initiatives include:
  --Competitive acquisition of a cooperative agreement with an external 
        nonprofit entity charged to stimulate, develop, and manage the 
        most effective use of 50 percent of the U.S. utilization 
        capacity for national R&D needs. This initiative is being 
        pursued in strict accordance with statutory direction embodied 
        in section 504 of the NASA Authorization Act of 2010 (Public 
        Law 111-267).
  --Funding for strategic research assets for the pursuit of molecular, 
        cellular, micro-biotic, plant, and animal research in the 
        highly promising area of life sciences and biotechnology, and 
        recovery of inorganic materials processing apparatus to re-
        establish progress in the development of exotic new materials 
        of higher performance. These assets will be supported through a 
        variety of management tools, including:
    --in-house development;
    --application of ISS program funds for capability enhancements, 
            and;
    --pursuit of proofs-of-concept for known globally competitive 
            applications; and
  --Expansion of partnerships with universities, industry, and other 
        government agencies based on a proven track record of success 
        in forging new agreements for ISS-based R&D. The use of 
        memoranda of understanding and Space Act Agreements has 
        effectively brought key resources to bear across a spectrum of 
        new participants in space-based R&D, so that NASA is no longer 
        the sole source of funding for value-driven R&D objectives.
  --Assignment of a seasoned management group composed of leaders and 
        staff with decades of experience in knowing what works, and 
        doesn't work, in the formulation of multi-disciplinary and 
        multi-organizational R&D teams for the pursuit of value-driven 
        objectives.
    The fiscal year 2012 President's budget provides the fiscal 
platform for launching and sustaining these key initiatives to maximize 
the value of ISS to our Nation. Under the guidance of NRC, and through 
a diversified portfolio that cuts across both the stages of research 
and all performing sectors of our economy, NASA is strategically 
positioned to carefully leverage the agency investment in ISS for R&D 
success in the coming era of utilization.
                       human space flight safety
    Question. NASA is in the business of launching extremely valuable 
human lives into the harsh environment of space. No matter what NASA 
does, it will never eliminate 100 percent of the risk of sending people 
to space and those who are at the space station live in an environment 
where their lives are in danger every minute of every day. However, I 
am concerned that in the administration's rush to embrace commercial 
crew, that NASA is being asked to become less risk averse and thus will 
endanger lives.
    NASA's own Aerospace Safety Advisory Panel has continually raised 
concerns about crew safety and specifically mentions the commercial 
crew acquisition strategy. It can be said that NASA may consider moving 
away from lessons learned from Challenger and Columbia and be settling 
for a strategy of ``safe enough'' as a trade for lowering development 
and seat costs.
    How does NASA intend to determine safety for any provider wishing 
to carry NASA astronauts and be able to incorporate those standards 
into vehicles wishing to be a part of commercial crew?
    Answer. At no point in the development and acquisition of 
commercial crew transportation services will NASA compromise crew 
safety. Simply put, U.S. astronauts will not fly on any spaceflight 
vehicle until NASA is convinced it is safe to do so.
    NASA has unique expertise and history in this area and has learned 
hard lessons on the importance of crew safety. NASA will bring that 
experience to bear in the appropriate way to make sure that commercial 
crew transportation services are a success both programmatically, and 
with respect to safety. For example, NASA will have in-depth insight of 
the vehicle design via NASA personnel who are embedded in the 
contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight. NASA will make every appropriate 
effort to ensure that the systems selected to fly U.S. astronauts will 
be as safe as possible but also recognizes that these ambitious 
endeavor--human spaceflight--is inherently risky.
    NASA's Commercial Crew Program Office at Kennedy Space Center in 
Florida is leading an effort to appropriately apply a series of 
existing health and medical, engineering, and safety and mission 
assurance requirements for the commercial space industry. The office is 
also developing but has not finalized the processes NASA will use to 
verify that these requirements have been met and to certify that a 
commercial partner's vehicle is capable of safely transporting agency 
personnel. This effort includes the full expertise of the agency 
including representatives from NASA's Office of Chief Engineer, Office 
of Safety and Mission Assurance, Office of Crew Health and Medical, the 
Flight Crew Office, and technical discipline experts (e.g., propulsion, 
structures, avionics, and ground operations).
    Question. Are the final and definitive requirements in place so 
that in the competition for commercial crew services, companies can 
have those in order to accurately estimate vehicle development cost?
    Answer. NASA is in the process of developing those requirements. We 
plan to have another workshop with industry in the August/September 
timeframe (the first Workshop was held on May 23-24, 2011, and NASA 
received extensive and valuable feedback from industry on our 
requirements). NASA plans to incorporate all this feedback into a 
baselined set of requirements by the end of the year, prior to the 
publication of any request for proposals for the development and 
certification of end-to-end crew transportation systems.
    Question. Will vehicles that can reach the space station with crews 
that are not from NASA be able to come to the station with a lower 
amount of safety restrictions?
    Answer. In accordance with the international agreements for the 
ISS, NASA has the responsibility ``to establish overall space station 
safety and mission assurance requirements and plans'' for the ISS. In 
the case of the Russian crew transportation vehicle, Soyuz, which 
typically has included NASA astronauts but not on all flights, the 
Russian Federal Space Agency is responsible for developing detailed 
safety and mission assurance requirements and plans, that ``meet or 
exceed'' the overall requirements established by NASA.
    Similarly, current and future commercial crew or transportation 
vehicles that will conduct proximity operations with--and dock to--the 
ISS, must meet visiting vehicle requirements. Regardless of whether a 
particular vehicle is carrying NASA astronauts to the ISS, it must be 
operated in a manner consistent with these standards. The Russian crew 
and cargo vehicles have been shown to meet or exceed the visiting 
vehicle requirements.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski
                      kodiak launch complex (klc)
    Question. I compliment the National Aeronautics and Space 
Administration (NASA) for not only being the world leader in human 
space flight for the last five decades, but also for the many diverse 
scientific missions that have advanced our knowledge of the planet, the 
solar system, and the universe. These missions include the recent 
success of the three NASA satellites aboard the Space Test Program S26 
mission launched out of the KLC last November. I am encouraged that the 
S26 mission along with the NASA Kodiak Star mission launched in 2001, 
out of Kodiak, indicates a willingness by NASA to utilize this key 
national spaceport. Please inform me of NASA's assessment of the value, 
utility, and security that the KLC provides as a supplement and backup 
to Vandenberg Air Force Base, in assuring that our Nation has access to 
space for the polar and highly inclined orbits that are only achieved 
out of our west coast launch sites?
    Answer. NASA's Launch Services Program seeks to promote healthy 
competition in the expendable launch vehicle market and utilizes 
commercially available U.S. launch vehicles that are selected 
competitively based on ``best value''. NASA buys commercially available 
launch services for its scientific missions on the NASA Launch Services 
contract. As such, the commercial companies, not NASA, determine which 
west-coast launch site will be used to meet polar and highly inclined 
orbit requirements. Currently, the Athena line of rockets from Lockheed 
Martin are on the NLS contract using the Kodiak launch site to meet 
these requirements.
    It should be noted that the S26 mission mentioned in the question 
did not use a NASA-procured launch service. It was a U.S. Air Force 
launch of a Minotaur IV (not commercially available because it uses 
excess ballistic missile assets) and the NASA spacecraft were secondary 
payloads.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. The subcommittee stands in recess until 
Thursday, April 14, at 10 a.m., when we will take the testimony 
of Secretary of Commerce Gary Locke.
    [Whereupon, at 5:25 p.m., Monday, April 11, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
April 14.]

</pre></body></html>
